No.
IN THE

SUPREME COURT OF THE UNITED STATES

PARIS POE, et al.,
Petitioners,
V.

UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, Patrick W. Blegen, do swear or declare that on this date, July 1, 2021, as
required by Supreme Court Rule 39, I have served the enclosed Motion for Leave to
Proceed In Forma Pauperis and Petition for a Writ of Certiorari on each party to the
above proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first class postage prepaid,
by electronic mail, or by delivery to a third party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows :
Timothy J. Storino
Assistant United States Attorney
Northern District of Illinois
219 South Dearborn St., Suite 500
Chicago, IL 60604

Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Counsel of Record
53 W. Jackson Boulevard, Ste. 1424
Chicago, Illinois 60604
(312) 957-0100

No.

IN THE

SUPREME COURT OF THE UNITED STATES

PARIS POE, et al.,
Petitioners,
V.

UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioners ask leave to file the attached Petition for a Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis.

Counsel were

appointed to represent Petitioners on appeal in the Seventh Circuit, pursuant to the
Criminal Justice Act of 1964, 18 U.S.C. §3006A.

.BLE
Counsel of Record
53 W. Jackson Boulevard, Ste. 1424
Chicago, Illinois 60604
(312) 957-0100
Attorney for Paris Poe, and on behalf of
counsel for Petitioners Arnold Council,
Gabriel Bush, Gregory Chester, Derrick
Vaughn, and William Ford.

NO. _____
IN THE
SUPREME COURT OF THE UNITED STATES
________________________
PARIS POE, et al.,
Petitioners,
V.

UNITED STATES OF AMERICA,
Respondent.
________________________
On Petition for a Writ of Certiorari to the United States Court of Appeals
for the Seventh Circuit
________________________
PETITION FOR WRIT OF CERTIORARI
________________________
MOLLY ARMOUR
Law Office of Molly Armour
4050 N. Lincoln Avenue
Chicago, Illinois 60618
(773) 746-4849
armourdefender@gmail.com
Counsel for Arnold Council
PATRICK W. BLEGEN
Counsel of Record
S. KELSEY HIPP
Blegen & Garvey
53 West Jackson, Suite 1424
Chicago, Illinois 60604
(312) 957-0100
pblegen@blegengarvey.com
Counsel for Paris Poe
ERIKA BIRMA
Axley Brynelson, LLP
2 E. Mifflin Street, Suite 200
Madison, WI 53703
(608) 257-5661
ebierma@axley.com
Counsel for Gabriel Bush

PAUL D. GEIGER
540 W. Frontage Road, Suite 3020
Northfield, IL 60093
(773) 410-0841
pauldgeiger@gmail.com
Counsel for Derrick Vaughn
BEAU B. BRINDLEY
Law Offices of Beau B. Brindley
53 West Jackson Blvd., Suite 1410
Chicago, IL 60604
(312) 765−8878
bbrindley@brindleylaw.com
Counsel for Gregory Chester
STEVEN A. GREENBERG
Steven A. Greenberg & Associates
53 W. Jackson Blvd., Suite 1260
Chicago, Illinois 60604
(312) 879-9500
steve@greenbergcd.com
Counsel for William Ford

QUESTION PRESENTED
Whether this Court's decision in Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579 (1993), and Federal Rule of Evidence 702 require lower courts to
properly analyze the admissibility of evidence involving subjective featurecomparison methods under appropriate scientific principles including multiple,
independent, blind-box studies to ensure that the testimony is the product of reliable
principles and methods.

i

PARTIES TO THE PROCEEDING
Petitioners are Paris Poe, Arnold Council, Gabriel Bush, Gregory Chester,
Derrick Vaughn, and William Ford, all of whom were defendant-appellants in the
proceedings below.
The United States of America is the respondent and was Plaintiff-Appellee in
the court of appeals.

ii

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED ........................................................................................... i
PARTIES TO THE PROCEEDING .............................................................................. ii
APPENDIX..................................................................................................................... ii
TABLE OF AUTHORITIES ......................................................................................... iii
OPINIONS BELOW ...................................................................................................... 1
JURISDICTION............................................................................................................. 1
FEDERAL RULE OF EVIDENCE INVOLVED........................................................... 1
STATEMENT OF THE CASE....................................................................................... 2
REASON FOR GRANTING THE PETITION .............................................................. 6
CONCLUSION............................................................................................................. 16
APPENDIX
Seventh Circuit Order Denying Petition for Rehearing En Banc, as to
Paris Poe, Arnold Council, Gabriel Bush, Gregory Chester,
Derrick Vaughn, and William Ford, February 1, 2021 ........................... APPENDIX A
Seventh Circuit Decision, August 28, 2020 ............................................. APPENDIX B
District Court Decision, September 6, 2016 ............................................ APPENDIX C
District Court Decision, October 7, 2016 ............................................... APPENDIX D

iii

TABLE OF AUTHORITIES
CASES

PAGE

Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993) ................. passim
Krik v. Exxon Mobil Corp., 870 F.3d 669, 674 (7th Cir. 2017) ................................. 14
Kumho Tire Co., Ltd. V. Carmichael, 526 U.S. 137, 152 (1999) ........................ 13, 14
United States v. Brown, 973 F.3d 667 (7th Cir. 2020).............................................. 1, 5
United States v. Green, 405 F. Supp. 2d 104 (D. Mass., Dec. 20, 2005) ................... 15
United States v. Hines, 55 F.Supp.2d 62 (D. Mass., June 11, 1999) .......................... 14
STATUTES

PAGE

18 U.S.C. § 1959 ............................................................................................................. 2
18 U.S.C. § 1962 ............................................................................................................. 2
18 U.S.C. § 1503 ............................................................................................................. 2
18 U.S.C. § 922 ............................................................................................................... 2
18 U.S.C. § 924 ............................................................................................................... 2
21 U.S.C. § 841 ............................................................................................................... 2
28 U.S.C. § 1254 ............................................................................................................. 1
FEDERAL RULES
Fed. R. Evid. 702 ................................................................................................... passim

iv

OTHER SOURCES
HUMAN FACTORS IN VALIDATION AND PERFORMANCE TESTING OF
FORENSIC SCIENCE, Organization of Scientific Area Committees for Forensic
Science, Human Factors Committee (March 2020) .................................................. 7, 8
PCAST, AN ADDENDUM TO THE PCAST REPORT ON FORENSIC SCIENCE IN
CRIMINAL COURTS (January 2017) ................................................................. passim
PCAST, REPORT TO THE PRESIDENT: FORENSIC SCIENCE IN CRIMINAL
COURTS: ENSURING SCIENTIFIC VALIDITY
OF FEATURE COMPARISON METHODS (September 2016) .......................... passim

v

PETITION FOR WRIT OF CERTIORARI
________________________
Petitioners respectfully petition for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Seventh Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals is reported at United States v. Brown, 973
F.3d 667 (7th Cir. 2020).

The order of the court of appeals denying the petition for

rehearing en banc is unreported and appears as Appendix A to the Petition.
JURISDICTION
On February 1, 2021, the United States Court of Appeals for the Seventh
Circuit denied a petition for rehearing en banc. (App. A) The jurisdiction of this Court
is invoked pursuant to 28 U.S.C. § 1254(1).
FEDERAL RULE OF EVIDENCE INVOLVED
The question presented involves Federal Rule of Evidence 702, which provides:
A witness who is qualified as an expert by knowledge, skill,
experience, training, or education may testify in the form of an opinion
or otherwise if:
(a) the expert's scientific, technical, or other specialized
knowledge will help the trier of fact to understand the evidence or to
determine a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and
methods; and
(d) the expert has reliably applied the principles and methods to
the facts of the case.
FRE 702.
1

STATEMENT OF THE CASE
This case affords the Court an opportunity to provide clear direction to circuit
courts of appeals regarding the application of Federal Rule of Evidence 702 to the
evolving field of subjective forensic feature-comparison methods. Because subjective
forensic feature-comparison methods are, by their very design, subjective, careful
scrutiny is necessary. Due to the heavy reliance on human judgment, these subjective
methods are inherently and particularly vulnerable to human error, inconsistency
across examiners, and cognitive bias. As such, this case presents an important issue
concerning the interpretation of the Federal Rules of Evidence and its far-reaching
implications on the development of nationally applicable standards governing
admission of expert testimony regarding subjective forensic feature-comparison
methods.
A. Course of Proceedings.
Petitioners were convicted by a jury in the United States District Court for the
Northern District of Illinois of racketeering conspiracy, in violation of 18 U.S.C.
1962(d), murder in aid of racketeering, in violation of 18 U.S.C. § 1959(a)(1) (Council,
Poe, Bush, and Derrick), obstruction of justice, in violation of 18 U.S.C. § 1503(a),
(b)(1) (Poe), use of a firearm during a crime of violence, in violation of 18 U.S.C. §
924(c) (Council), possession of a firearm by a felon, in violation of 18 U.S.C. § 922(g)
(Ford), and possession with intent to distribute marijuana, in violation of 21 U.S.C. §
841(a)(1) (Ford). (App. B). Ford was found not guilty of possession of a firearm in
furtherance of a drug trafficking crime, in violation of 18 U.S.C. § 924(c). (App. B)
2

On direct appeal, the Seventh Circuit affirmed Petitioners’ convictions. (App. B)
Except for Chester, the Seventh Circuit affirmed Petitioners’ sentences. (App. B) As
to Chester, the Seventh Circuit vacated the sentence and ordered a limited remand
related to sentencing. (App. B) The appellate court denied Petitioners’ request for
rehearing en banc. (App. A)
B. Statement of Relevant Facts.
1. Forensic Firearm Analysis.
In firearms analysis, examiners attempt to determine whether ammunition is
associated with a specific firearm based on “toolmarks” produced by guns on the
ammunition. Firearms analysis is rooted in the idea that the toolmarks produced by
different firearms vary substantially enough, due to the differences which occur
during the firearm’s manufacture and use, that components of fired cartridges can be
matched to a particular firearm.
2. Pre-Trial Motions Regarding the Firearms Analysis Testimony.
Prior to trial, Petitioners moved on three separate occasions to exclude or limit
expert testimony regarding forensic toolmark analysis pursuant to Federal Rule of
Evidence 702 and Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993).
In their three motions below, Petitioners argued that the premise underlying the field
of firearms analysis—that no two firearms will produce the same microscopic features
on bullets and cartridge cases—was, at best, an unproven hypothesis. Moreover,
Petitioners argued that the examiners’ methodology was flawed in that there were no
objective, quantitative standards for determining whether two ammunition
3

components “match.” The district court rejected these arguments, finding instead
that the examiners’ methodology, though not an “exacting” science, was sound, as
demonstrated by peer-reviewed journals indicating the error rate “in the single digits,
sometimes better than algorithms developed by scientists.” The Court also noted that
while other courts had criticized the discipline of firearms analysis, no court had
outright excluded expert testimony on the subject.
After the district court issued its ruling, but prior to trial, the President's
Council of Advisors on Science and Technology (PCAST) issued a report on the
validity of a number of forensic science disciplines, including firearms analysis.
PCAST, REPORT TO THE PRESIDENT: FORENSIC SCIENCE IN CRIMINAL
COURTS: ENSURING SCIENTIFIC VALIDITY OF FEATURE COMPARISON
METHODS (September 2016). This report (hereinafter, “PCAST Report”) cast serious
doubt on the validity of the low error rates the district court relied on in admitting
the evidence. The PCAST report found that “[b]ecause firearms analysis is at present
a subjective feature-comparison method, its foundational validity can only be
established through multiple independent black box studies.” Id. at 106. (emphasis
in original)

The PCAST Report found that firearms analysis “[fell] short of the

criteria for foundational validity,” as previous testing had not adopted the method of
using multiple independent black box studies to validate findings. Id. at 112.

The

district court denied each of these motions and allowed the government to introduce
expert testimony that Petitioners contend was misleading, unreliable, and
prejudicial.
4

3. Trial.
At trial, the government elicited expert testimony that shell casings recovered
from various crime scenes had been fired from certain firearms. (App. B) Ultimately,
and in conjunction, this evidence allowed the government to connect certain
defendants to specific crimes, including murders, and argue that these seemingly
unrelated crimes were committed by Petitioners and were part of a racketeering
conspiracy. (App. B)
4. Appeal.
On direct appeal, Petitioners argued that the district court abused its
discretion in admitting expert testimony concerning firearms analysis, and that the
evidence should have been excluded as unreliable pursuant to Federal Rule of
Evidence 702 and Daubert. Brown, 973 F.3d at 702. Petitioners contended that the
premise that no two firearms will produce the same microscopic features on bullets
and cartridge cases is an unproven hypothesis. Brown, 973 F.3d at 703.

Petitioners

further argued, that there are no objective, quantitative standards underlying the
discipline which casts doubt on the validity of the discipline. Id. Moreover, the most
recent publication to consider the issue, the PCAST Report, found that only one
appropriately designed study relating to firearms examination has ever been
performed, and that a single appropriately designed study does not satisfy the criteria
for foundational validity. Id. at 704.

Moreover, Petitioners argued that the district

court misunderstood the PCAST report and inflated its error in admitting the
evidence by also permitting the government to present the error rate found in the
5

single, appropriately-designed study, as the error rate attributable to the entire
discipline of firearms examination – the very antithesis of the PCAST report’s
conclusion. Id.
The Seventh Circuit rejected Petitioners’ argument, agreeing with the district
court that forensic toolmark expert testimony was admissible, holding that “the
district court used the methodology prescribed by [Rule 702], and [found] no abuse of
discretion in its application of these principles.” Id. The appellate court explained
that “[a]lmost all the defendants’ contentions were issues that could be raised on
cross-examination” and that their arguments went to weight rather than
admissibility. Id.
REASON FOR GRANTING THE PETITION
This Court’s guidance is necessary to ensure that lower courts properly analyze
the admissibility of expert testimony involving subjective feature-comparison
methods, like forensic toolmark analysis, under appropriate scientific principles
including multiple, independent, blind-box studies to ensure that the testimony is the
product of reliable principles and methods. See, FRE 702(c). Without this Court’s
intervention, an admissibility free-for-all will continue, with subjective methods of
analysis being admitted as “science,” but without proper, scientific validation. And,
the district court’s gatekeeper function for such evidence will continue to erode under
the “weight vs admissibility” mantra.

6

A. Introduction.
Forensic feature-comparison methods may be classified as either objective or
subjective. PCAST at 47. Objective feature-comparison methods include those that
are each defined with “enough standardized and quantifiable detail that they can be
performed by either an automated system or human examiners exercising little or no
judgment.” Id. Subjective feature-comparison methods are those which rely upon
procedures involving significant human judgment. Id. For example, subjective
methods deal with issues such as which features to select within a pattern or how to
determine whether the features are sufficiently similar to be called a probable match.
Id. Subjective forensic feature-comparison methods include bitemark analysis,
footwear analysis, microscopic hair comparison, DNA analysis of complex mixtures,
and firearms analyses like forensic toolmark analysis.
With regard to subjective feature-comparison methods, because the individual
steps are not objectively specified, proper scientific validation requires that the
method must be evaluated as if it were a “black box” in the examiner’s head.
“Evaluations of validity and reliability must therefore be based on ‘black-box studies’,
in which many examiners render decisions about many independent tests (“typically,
involving ‘questioned’ samples and one or more ‘known’ samples”) and the error rates
are determined. Id. at 49.
A black-box study assesses the accuracy of examiners’ conclusions without
considering how the conclusions were reached. See, HUMAN FACTORS IN
VALIDATION AND PERFORMANCE TESTING OF FORENSIC SCIENCE,
7

Organization of Scientific Area Committees for Forensic Science, Human Factors
Committee (March 2020) at 3. In a black-box study, the examiner is treated as a
“black-box” and the researcher measures how the output of the “black-box”
(examiner’s conclusion) varies depending on the input (the test specimens presented
for analysis). Id.

To test examiner accuracy, the specifics regarding the type or

source of the test specimens must be known with certainty. Id. And, to do so, it is
necessary to perform enough of these studies to ensure the method has been subjected
to empirical testing by multiple groups, under conditions appropriate to its intended
use. “The studies must (a) demonstrate that the method is repeatable and
reproducible and (b) provide valid estimates of the method’s accuracy (that is, how
often the method reaches an incorrect conclusion) that indicate the method is
appropriate to the intended application.” PCAST at 5.
1. 2016 PCAST Report.
In 2009, a multi-year, Congressionally-mandated study by the National
Research Council exposed the weaknesses in the scientific foundations of a number
of the forensic disciplines routinely used in the criminal justice system. PCAST at 1.
In 2015, the President’s Council of Advisors on Science and Technology
(PCAST) considered whether there were additional scientific measures steps to
strengthen the forensic-science disciplines and ensure the validity of forensic
evidence used in the Nation’s legal system. Id.

PCAST concluded that there were

two significant gaps: (1) “the need for clarity about the scientific standards for the
validity and reliability of forensic methods”; and (2) “the need to evaluate specific
8

forensic methods to determine whether they have been scientifically established to
be valid and reliable.” Id.
In September 2016, the PCAST report was issued, and it cast serious doubt on
the validity of the low error rates that courts relied on in admitting forensic toolmark
analysis evidence. Id. at 22. The PCAST report found that “[b]ecause firearms
analysis is at present a subjective feature-comparison method, its foundational
validity can only be established through multiple independent black box studies,” i.e.,
those studies in which “many examiners render decisions about many independent
tests (typically, involving “questioned” samples and one or more “known” samples)
and the error rates are determined.” PCAST at 106 (emphasis in original). Without
such studies, a firearms examiner’s opinion “matching” two shell casings “is
scientifically meaningless: it has no probative value, and considerable potential for
prejudicial impact.” Id. at 5.
The PCAST report found that only one appropriately designed “black box”
study (the “Ames Study”) relating to firearms examination actually existed. The other
studies, PCAST determined, “were not appropriate for. . . estimating the reliability”
of firearms analysis “because they employed artificial designs that differ[ed] in
important ways from the problems faced in casework.” Id. at 106. Because of their
design flaws, these older studies cited by the district courts “seriously
underestimate[d] the false positive [match] rate.” Id. at 111. Ultimately, because of
the dearth of appropriately designed studies; that is, only one appropriate study, the
PCAST report found that firearms analysis “[fell] short of the criteria for foundational
9

validity.” Id. at 112.
2. Responses to the 2016 PCAST Report.
Following the PCAST Report’s release, PCAST received input from those in the
forensic feature-comparison discipline. Critics of the Report challenged whether
empirical evidence is truly needed to establish the validity and degree of reliability
of a forensic feature-comparison method. PCAST, AN ADDENDUM TO THE PCAST
REPORT ON FORENSIC SCIENCE IN CRIMINAL COURTS (January 2017). The
Federal Bureau of Investigation (FBI), which “clearly recognizes the need for
empirical evidence and has been a leader in performing empirical studies in latentprint examination, raised a different issue.” Id. at 2. “Specifically, although PCAST
had received detailed input on forensic methods from forensic scientists at the FBI
Laboratory, the agency suggested that PCAST may have failed to take account of
some relevant empirical studies” Id.

A statement issued by the Department of

Justice (DOJ) on the same day as the initial PCAST Report’s release noted:
The report does not mention numerous published research studies
which seem to meet PCAST’s criteria for appropriately designed studies
providing support for foundational validity. That omission discredits the
PCAST report as a thorough evaluation of scientific validity.
Id.
In light of this and “[g]iven its respect for the FBI,” PCAST undertook a further
review of the scientific literature and invited a “variety of stakeholders,” which
included the DOJ, “to identify any ‘published . . . appropriately designed studies’ that
had not been considered by PCAST and that established the validity and reliability
10

of any of the forensic feature-comparison methods that the PCAST report found to
lack such support.” Id. at 2-3.
PCAST received responses from 26 parties, including from Federal agencies,
forensic-science and law-enforcement organizations, individual forensic-science
practitioners, a testing service provider, and others in the United States and abroad.
Id. at 3.

PCAST concluded that the responses were valuable and contributed to

advancing the field. Id. PCAST subsequently met with in forensic scientists and law
enforcement to discuss their responses. Id.
3. Addendum to the 2016 PCAST Report.
In January 2017, PCAST published an addendum to its initial 2016 PCAST
Report. Id. at 1. The Addendum addressed critical responses to the 2016 PCAST
Report. And, significantly, re-examined methods evaluated for the 2016 Report. Id.
at 2-3.
PCAST re-examined the five methods evaluated and found lacking in its initial
report and considered more than 400 papers cited therein, the vast majority of which
had already been previously reviewed by PCAST during the studies leading to its
2016 Report. Id. at 5. At the suggestion of the National Institute of Standards and
Technology (NIST), PCAST also consulted INTERPOL’s extensive summary of the
forensic

literature

to

identify

additional

potentially

relevant

papers.

Id.

Significantly, while PCAST’s follow-up inquiry was undertaken in response to the
DOJ’s express concern, DOJ informed PCAST in December 2016 that it had no
additional studies for PCAST to consider. Id. (emphasis added)
11

Specifically, with regard to firearm analysis, the Addendum reviewed
empirical studies that had been published over the preceding fifteen (15) years and
discussed a representative subset of these publications in detail. Id. at 6. PCAST
explained in its findings that the firearms analysis discipline had clearly recognized
the importance of empirical studies, but noted that most of the studies used flawed
designs. Id. One such design flaw was that “set-based” approaches can inflate
examiners’ performance by allowing them to take advantage of internal dependencies
in the data. Id. It noted the most extreme example as the “closed-set design,” “in
which the correct source of each questioned sample is always present.” Id. at 7.
PCAST

concluded

in

its

Addendum

that

the

closed-set

design

studies

“underestimated the false-positive and inconclusive rates by more than 100-fold.” Id.
PCAST opined that the discrepancy in reported false-positive and inconclusive rates
significantly undermined the validity of the firearm examination results and
underscored the need to test methods under appropriate conditions. Id.

Ultimately,

the conclusions rendered in the 2016 Report and Addendum were the same: there had
been only one appropriately designed black-box study, the Ames study. Id. And,
significantly, of the responses to the 2016 Report, none cited additional appropriately
designed black-box studies similar to the recent Ames study. Id.
PCAST’s conclusion that forensic toolmark analysis is “scientifically
meaningless: it has no probative value, and considerable potential for prejudicial
impact” remains unaltered.
12

B. Admissibility of Expert Testimony Under FRE 702 and Daubert.
For expert testimony to be admissible, it must satisfy Federal Rule of Evidence
702. Rule 702(c) requires that testimony be “the product of reliable principles and
methods.” FRE 702(c). Under Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S.
579 (1993), to determine reliability, a court considers whether a theory has been (1)
tested, (2) subjected to peer review and publication, (3) analyzed for error rate, and
(4) generally accepted within the specific scientific field. Rule 702, Daubert, and its
progeny, prevent what may otherwise be an admissibility free-for-all by assigning the
crucial role of “gatekeeper” to the district court; that is, critically assessing the
reliability of expert testimony— without usurping the trier of fact’s province to
evaluate weight and credibility. Id. at 600. See also, Kumho Tire Co., Ltd. V.
Carmichael, 526 U.S. 137, 152 (1999). Indeed, “the trial judge [has] the task of
ensuring . . . an expert’s testimony . . . rests on a reliable foundation [.]” Daubert, 509
U.S. at 597.
C. The Reasoning Supporting the Need to Clarify How Scientific
Reliability and Validity Should be Determined Regarding Subjective
Feature-Comparison Methods, Like Toolmark Analysis, is Compelling.
Petitioners’ case illustrates the compelling need for this Court to direct the
courts below regarding how to analyze admissibility of subjective feature-comparison
methods under Rule 702(c) and Daubert. That is, to be deemed admissible, such
methods must be vetted under appropriate scientific principles including multiple,
independent, blind-box studies.
In Petitioners’ case, the district court and court of appeals ignored the requisite
13

FRE 702 considerations that the testimony be the product of reliable principles and
methods. FRE 702(c).

Instead, the courts left that requirement to evidentiary

“weight” to be determined by the jury.

In fact, however, a trial court’s “discretion in

choosing the manner of testing expert reliability [ ] is not discretion to abandon [its]
gatekeeping function. [And,] it is not discretion to perform the function inadequately.”
Kumho Tire Co., 526 U.S. at 158-59 (Scalia, J., concurring). And, while it is true that
a district court holds “broad discretion in its gatekeeper function of determining the
relevance and reliability of the expert opinion” Krik v. Exxon Mobil Corp., 870 F.3d
669, 674 (7th Cir. 2017), the court must actually perform this function. Otherwise,
admissibility would be the province of the trier of fact, to be played out on crossexamination. If this is so, then role of gatekeeper shifts from district court to trier of
fact leaving Rule 702 and Daubert meaningless.
Proper validation is not only required, but it is also not an impossible task.
“Several forensic disciplines, such as latent-print analysis, have demonstrated that
actual empirical testing is feasible and can help drive improvement.” Id. at 9. Indeed,
as PCAST noted, “[a] generation of forensic scientists appears ready and eager to
embrace a new, empirical approach—including black-box studies [and] technology
development efforts to transform subjective methods into objective methods.” Id.
Analysis of FRE 702 and Daubert without requiring proper, scientific
validation “runs the risk of ‘grandfathering in irrationality.’” United States v. Hines,
55 F.Supp.2d 62, 68, n. 3 (D. Mass., June 11, 1999).

It also ignores Daubert’s

mandate, especially where the courts are relying on pre-Daubert acceptance of a given
14

scientific technique.” United States v. Green, 405 F. Supp. 2d 104, 123 (D. Mass., Dec.
20, 2005). The PCAST report made clear that prior studies related to forensic
toolmark analysis were unreliable, as they “seriously underestimate” the error rate.
Addendum at 7.

For these reasons, the need to provide lower courts with clear

direction regarding the application of Rule 702 and Daubert is undoubtedly
compelling.
D. The Court should Grant Certiorari.
Daubert’s foremost instruction to courts is to ensure that expert testimony be
reliable. Daubert, 509 U.S. at 597. To assess reliability, Daubert directs that courts
consider “whether the theory or technique in question can be (and has been) tested,”
whether it has been subjected to peer review and publication, its known or potential
error rate, the existence and maintenance of standards controlling its operation, and
whether it is generally accepted within the relevant scientific community. Id. at 59394. Here, though there were prior studies of firearms analysis published in peerreviewed journals, those studies are now known to be unreliable. PCAST at 111.
Forensic science is at a crossroads. It is now abundantly clear that certain
forensic feature-comparison methods, such as firearms analysis, are subjective
methods which have not been properly tested and validated. These methods are also
especially vulnerable to human error, inconsistency across examiners, and cognitive
bias. Yet, as here, such methods are routinely admitted under the guise of forensic
science, and via purported experts, and used as the foundation of prosecutions
resulting in enormous, life-long sentences. This Court should grant certiorari.
15

CONCLUSION
The petition for a writ of certiorari should be granted.

PATRICK W. BLE
Counsel of Record
S. KELSEY HIPP
BLEGEN & GARVEY
53 W. Jackson Blvd, Suite 1424
Chicago, Illinois 60604
(312) 957-0100
pblegen@blegengarvey.com
Counsel for Paris Poe
July 2021

16

APPENDICES

APPENDIX A

Case: 17-2854

Document: 178

Filed: 02/01/2021

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
February 1, 2021
Before
DIANE S. SYKES, Chief Judge
DIANE P. WOOD, Circuit Judge
AMY J. ST. EVE, Circuit Judge

Nos. 17‐2854, 17‐2858, 17‐2877, 17‐2899, 17‐2917, 17‐2918 & 17‐2931
UNITED STATES OF AMERICA,
Plaintiff‐Appellee,
v.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

GREGORY CHESTER, et al.,
Defendants‐Appellants.

Nos. 13 CR 288 & 13 CR 774
John J. Tharp, Jr.,
Judge.

ORDER
Defendants‐appellants filed a petition for rehearing and rehearing en banc on
November 30, 2020. No judge1 in regular active service has requested a vote on the
petition for rehearing en banc, and all members of the original panel have voted to deny
panel rehearing. The petition for rehearing en banc is therefore DENIED.

1

Judge Michael Y. Scudder did not participate in the consideration of this matter.

Appendix A

APPENDIX B

United States v. Brown, 973 F.3d 667 (2020)

973 F.3d 667
United States Court of Appeals, Seventh Circuit.

UNITED STATES of
America, Plaintiff-Appellee,
v.
Byron BROWN, et al.,
Defendants-Appellants.
Nos. 17-1650, 17-2854, 17-2858, 17-2877, 17-2899,
17-2917, 17-2918, 17-2931, 17-3063, & 17-3449
|
Argued June 3, 2020
|
Decided August 28, 2020
|
Rehearing and Rehearing En
Banc Denied February 1, 2021
Synopsis
Background: Defendants were convicted in the United States
District Court for the Northern District of Illinois, John J.
Tharp, J., 2017 WL 3394746, of Racketeer Influenced and
Corrupt Organizations (RICO) conspiracy, murder in aid
of racketeering, and other crimes, based on their activities
in criminal street gang, which included murder, attempted
murder, drug trafficking, and robbery. Defendants appealed.

[5] evidence established a defendant's advance knowledge
of his collaborator's plan to use or carry a gun during
commission of Hobbs Act robbery;
[6] any error was harmless as to putative Confrontation
Clause violation arising from applying forfeiture-bywrongdoing doctrine under agency principles;
[7] principles and methods underlying proffered expert
testimony on firearms toolmark analysis were sufficiently
reliable; and
[8] error was not harmless as to procedural unreasonableness
of imposition of sentences for a defendant's controlled
substance offenses.
Convictions affirmed; one defendant's conviction vacated,
with limited remand; remaining defendants' sentences
affirmed.

West Headnotes (73)
[1]

[1] gang members were an association-in-fact;

[2]

Criminal Law
from evidence

Inferences or deductions

Criminal Law
General

Weight of Evidence in

Verdict unsupported by
Criminal Law
evidence or contrary to evidence
The Court of Appeals may set aside a jury's
verdict on the ground of insufficient evidence
only if no rational trier of fact could have agreed
with the jury.

[3] evidence established that a murder was committed to
maintain or increase a defendants' position in racketeering
enterprise;
[4] for purposes of enhanced RICO sentence, evidence
established premeditation, as aggravating factor for life
sentence for first-degree murder under Illinois law;

Construction of Evidence

On sufficiency of the evidence challenges, the
Court of Appeals affords great deference to jury
verdicts, viewing the evidence in the light most
favorable to the jury's verdict, and drawing all
reasonable inferences in the government's favor.

Holdings: The Court of Appeals, Wood, Chief Judge, held
that:

[2] evidence established that a defendant knew about and
agreed to facilitate a predicate act for RICO conspiracy, i.e.,
drive-by ambush;

Criminal Law

[3]

Conspiracy
general

Racketeering conspiracies in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

1

United States v. Brown, 973 F.3d 667 (2020)

To prove a Racketeer Influenced and Corrupt
Organizations Act (RICO) conspiracy, the
government must show: (1) an agreement to
conduct or participate in the affairs; (2) of an
enterprise; (3) through a pattern of racketeering
activity. 18 U.S.C.A. § 1962(d).

[4]

threats, including government cooperators. 18
U.S.C.A. §§ 1961(4), 1962(d).

[7]

[8]

Racketeer Influenced and Corrupt
Organizations
Informal entities;
associations-in-fact
An association-in-fact, as required for a
racketeering enterprise under the Racketeer
Influenced and Corrupt Organizations Act
(RICO), need not have any structural features
beyond a purpose, relationships among those
associated with the enterprise, and longevity
sufficient to permit the associates to pursue the
enterprise's purpose. 18 U.S.C.A. § 1961(4).
1 Cases that cite this headnote

[6]

Racketeer Influenced and Corrupt
Particular enterprises
Organizations
Members of criminal street gang were an
association-in-fact, as required for a racketeering
enterprise under Racketeer Influenced and
Corrupt Organizations Act (RICO), even if
gang had no rules, initiations, treasurers, dues,
manifestos, or other formalities, where gang
members had common purpose of working
together to control an exclusive territory,
they earned money through drug dealing and
robberies, they protected each other, and they
killed rival gang members and others who posed

Conspiracy
general

Racketeering conspiracies in

Convicting a defendant, as participant in a
Racketeer Influenced and Corrupt Organizations
Act (RICO) conspiracy, does not require proof
that the defendant was personally involved in
two or more predicate acts. 18 U.S.C.A. §
1962(d).

1 Cases that cite this headnote
[5]

Racketeering conspiracies in

Convicting a defendant, as participant in a
Racketeer Influenced and Corrupt Organizations
Act (RICO) conspiracy, requires proof that
another member of the enterprise committed two
predicate acts, and that defendant knew about
and agreed to facilitate the scheme. 18 U.S.C.A.
§ 1962(d).

Racketeer Influenced and Corrupt
Organizations
Informal entities;
associations-in-fact
An association-in-fact, as required for a
racketeering enterprise under the Racketeer
Influenced and Corrupt Organizations Act
(RICO), includes any group of persons
associated together for a common purpose of
engaging in a course of conduct. 18 U.S.C.A. §
1961(4).

Conspiracy
general

[9]

Conspiracy
intent to kill

Homicide and assault with

Evidence established that defendant knew about
and agreed to facilitate a predicate act for
Racketeer Influenced and Corrupt Organizations
Act (RICO) conspiracy, i.e., drive-by ambush
in which members of first criminal street
gang, of which defendant was a member,
murdered leader and another member of second,
rival gang; defendant was an armed passenger
in vehicle driven by member of first gang,
and in recorded conversation with government
cooperator, defendant described hearing his coconspirators’ gunshots and mentioned that he
saw the victims dead, and he revealed his ties to
and knowledge of first gang when he commented
that purpose of murders was to retaliate, on
behalf of member of first gang, after members
of second gang shot member of first gang. 18
U.S.C.A. § 1962(d).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

2

United States v. Brown, 973 F.3d 667 (2020)

[10]

Conspiracy
intent to kill

Evidence established that defendant, when he
shot a member of rival criminal street gang,
was participating in predicate act for Racketeer
Influenced and Corrupt Organizations Act
(RICO) conspiracy; in recorded conversation
with government cooperator, defendant, who
admitted that he shot the member of rival gang,
described his gang's attempts to eliminate rival
gang's competition in drug trafficking, and he
stated, “we put a stop to that.” 18 U.S.C.A. §
1962(d).

[11]

[15]

Criminal Law
general

[16]

Credibility of witnesses in

Criminal Law

Credibility of Witnesses

Criminal Law

Inferences from evidence

It is the jury's job, and not the court's job, to gauge
the credibility of the witnesses and decide what
inferences to draw from the evidence.

[14]

Criminal Law

Racketeer Influenced and Corrupt
Organizations
Nexus between enterprise
and acts
Murder of member of defendants' criminal
street gang, who was unnamed informant for
affidavit in support of warrant to search a
defendant's home, but whose cooperation with
law enforcement was known by defendants,
was committed for purpose of maintaining or
increasing defendants' position in racketeering
enterprise, as element of murder in aid of
racketeering, where gang had an interest in
punishing cooperators and deterring further
cooperation, though at time of murder the
defendant whose home had been searched no
longer faced charges based on the search, and
personal revenge may have been a factor in the
murder. 18 U.S.C.A. § 1959(a)(1).

A determination that testimony is incredible is
reserved for extreme situations, such as where it
would have been physically impossible for the
witness to observe what he described, or it was
impossible under the laws of nature for those
events to have occurred at all.

[13]

Racketeer Influenced and Corrupt
Organizations
Nexus between enterprise
and acts
In determining whether a murder was
committed for the purpose of maintaining
or increasing defendant's position in the
racketeering enterprise, as element of murder
in aid of racketeering, the question is whether
defendant committed his violent crime because
he knew it was expected of him by reason of his
membership in the enterprise, or he committed it
in furtherance of that membership. 18 U.S.C.A.
§ 1959(a)(1).

Racketeer Influenced and Corrupt
Organizations
Weight and sufficiency
Inconsistencies in testimony of witnesses, such
as a member of defendants' criminal street gang
describing one defendant's vehicle as burgundy,
while an eyewitness described it as red and used
different model name and manufacturer name
when describing it, did not make their testimony
incredible as a matter of law, in prosecution for
murder in aid of racketeering. 18 U.S.C.A. §
1959(a)(1).

[12]

A jury's determinations of the credibility of
witnesses are not second-guessed on appeal.

Homicide and assault with

[17]

Sentencing and Punishment
planning, premeditation

Intent,

Under Illinois law, premeditation, as aggravating
factor for life sentence for first-degree murder,
requires a substantial period of reflection or
deliberation, over an extended period of time.
720 Ill. Comp. Stat. Ann. 5/9-1(b)(11).

Credibility of Witnesses

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

3

United States v. Brown, 973 F.3d 667 (2020)

[18]

Sentencing and Punishment
planning, premeditation

Intent,

[21]

Evidence
established
premeditation,
as
aggravating factor for life sentence for firstdegree murder under Illinois law, though
member of defendants' criminal street gang
was murdered only a few minutes after one
defendant placed a call informing two other
defendants that “this blue thing is out here,”
where murder occurred 18 months after one
defendant's home had been searched pursuant
to a search warrant for which murder victim
had provided information that had been included
in search warrant affidavit, and two defendants
who shot victim knew that the “blue thing” was
murder victim's car. 720 Ill. Comp. Stat. Ann.
5/9-1(b)(11).

Homicide

Intent or mens rea; malice

Intent to kill is not essential to find a firstdegree murder under Illinois law, because the
offense can also be based on intent to do
great bodily harm to another person, knowledge
that defendant's acts would cause the death of
another person, or knowledge that defendant's
acts created a strong probability of death. 720 Ill.
Comp. Stat. Ann. 5/9-1.

[20]

Racketeer Influenced and Corrupt
Organizations
Nexus between enterprise
and acts
Evidence established that the murder was
committed for purpose of maintaining or
increasing defendant's position in racketeering
enterprise, as element of murder in aid of
racketeering; victim's drug sales at housing
project had been cutting into defendant's sales
and defendant viewed the housing project as
territory for his criminal street gang, drug
trafficking was a key source of revenue for
gang, and controlling drug lines was crucial to
maintaining that income. 18 U.S.C.A. § 1959(a)
(1).

Intent,

Evidence
established
premeditation,
as
aggravating factor for life sentence for firstdegree murder under Illinois law; defendant, a
member of criminal street gang, and victim had
long-standing dispute over drug territory, victim
had shot defendant years earlier as a result of the
dispute, defendant had told a gang member that
he was “stalking” victim's prison-release date so
he could kill him, defendant shot victim when
he was on weekend pass from halfway house,
and defendant passed over one chance to shoot
victim because of pole cameras in the area. 720
Ill. Comp. Stat. Ann. 5/9-1(b)(11).

[22]
[19]

Sentencing and Punishment
planning, premeditation

Racketeer Influenced and Corrupt
Organizations
Association with or
participation in enterprise; control or intent
Even if defendant's gun jammed when defendant,
a member of criminal street gang, tried to shoot
at leader and another member of rival gang
during drive-by ambush by defendant's gang,
defendant's affirmative steps in furtherance of
the murders established his participation, in
prosecution for murder in aid of racketeering;
defendant conducted surveillance before the
murders, and he served as back-up. 18 U.S.C.A.
§ 1959(a)(1).

[23]

Sentencing and Punishment
planning, premeditation

Intent,

Evidence
established
premeditation,
as
aggravating factor for life sentence for firstdegree murder under Illinois law; victim was
leader of criminal street gang that was longtime rival to defendants' gang, a bounty had been
placed on victim by a member of defendants'
gang who had been shot by victim's gang, and
defendants did not act immediately when they
learned that victim and members of his gang
were at a funeral, and instead they recruited
participants, gathered weapons, and met in an
alley to discuss their plan of attack. 720 Ill.
Comp. Stat. Ann. 5/9-1(b)(11).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

4

United States v. Brown, 973 F.3d 667 (2020)

[24]

Obstructing Justice
of Offense in General

Nature and Elements

To sustain a conviction under the catchall
provision of the obstruction of justice statute,
the government must prove: (1) a judicial
proceeding was pending; (2) the defendant
knew of the proceeding; and (3) the defendant
corruptly intended to impede the administration
of that proceeding. 18 U.S.C.A. § 1503.

[25]

Obstructing Justice
proceedings

Criminal Law

[29]

[30]

Weapons
abetting

Parties to crime; aiding and

Evidence established defendant's advance
knowledge of his collaborator's plan to use or
carry a gun during commission of Hobbs Act
robbery, as element of brandishing a firearm
during and in relation to a crime of violence, as
an accomplice; defendant suggested that three
men, who were sitting in vehicle with firearms
on their laps, rob a clothing store, the men
agreed, defendant passed out masks and laundry
bags, defendant and the three men entered store
together, at least one of the other men had his
firearm visible in his hand, and two of the other
men moved store's employees to back room at
gunpoint. 18 U.S.C.A. §§ 924(c), 1951(a).

Flight or refusal to flee

Obstructing Justice

Parties to crime; aiding and

2 Cases that cite this headnote

Juries are permitted to consider flight as evidence
of consciousness of guilt and thus of guilt itself.

[27]

Weapons
abetting

To convict a defendant of a brandishing a firearm
during and in relation to a crime of violence
or drug trafficking crime, as an accomplice,
the government must prove that defendant had
advance knowledge of his collaborator's plan to
use or carry a gun during the commission of the
predicate crime. 18 U.S.C.A. § 924(c)(1)(A)(ii).

Grand jury

A grand jury investigation can constitute a
pending judicial proceeding, for purposes of the
catchall provision of the obstruction of justice
statute. 18 U.S.C.A. § 1503.

[26]

aware that brother was working with federal
law enforcement agents, and defendant told his
cellmate at county jail that he murdered brother
because he was going to testify against leader. 18
U.S.C.A. § 1503.

Knowledge or intent

For knowledge of a pending judicial proceeding,
as element of catchall provision of obstruction
of justice statute, it is not enough that there be
an intent to influence some ancillary proceeding,
such as an investigation independent of the
court's or grand jury's authority. 18 U.S.C.A. §
1503.

1 Cases that cite this headnote
[28]

Obstructing Justice

Witness homicide

Evidence established that defendant, a senior
member of criminal street gang, knew about
pending judicial proceeding, i.e., pending
federal drug charges against gang's leader, as
element for conviction under catchall provision
of obstruction of justice statute, relating to
defendant's murder of brother of another senior
member of gang, who was cooperating with
law enforcement; defendant spoke to leader
when leader was in custody, defendant was

[31]

Weapons

Crimes of violence

Aiding and abetting Hobbs Act robbery is a
crime of violence under the force clause of the
definition of crime of violence, for purposes of
brandishing a firearm during and in relation to
a crime of violence. 18 U.S.C.A. § 924(c)(1)(A)
(ii), (c)(3)(A).
8 Cases that cite this headnote

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

5

United States v. Brown, 973 F.3d 667 (2020)

[32]

Controlled Substances
or distribution
Criminal Law

Possession for sale

Experts

Evidence established defendant's intent to
distribute, in prosecution for possession of
controlled substance with intent to distribute;
during lawful search of defendant's home,
officers found about 50 plastic bags of user
quantities of marijuana, totaling 10.6 grams,
expert witness testified that marijuana was
packaged for distribution, and in a recorded
conversation, defendant stated that he did not
“smoke weed” himself but he was going to
get a pound of marijuana to sell once he
was released from prison. Comprehensive Drug
Abuse Prevention and Control Act of 1970 §
401(a)(1), 21 U.S.C.A. § 841(a)(1).

[33]

Criminal Law

1 Cases that cite this headnote
[37]

Criminal Law

[38]

Review De Novo

Waiver of right

Criminal Law

Reception of evidence

Assuming that Confrontation Clause did not
allow declarant's out-of-court statements to
be admitted under forfeiture-by-wrongdoing
doctrine and agency principles, against
coconspirators whose own conduct had not
caused declarant to be unavailable for trial,
the constitutional error was harmless beyond a
reasonable doubt, in prosecution for racketeering
conspiracy, relating to activities of members of
criminal street gang; unredacted statements from
declarant's grand jury testimony merely provided
general information about gang and its criminal
activity. U.S. Const. Amend. 6; 18 U.S.C.A. §
1962(d); Fed. R. Evid. 804(b)(6).

Double Jeopardy
Offenses against United
States and a state or territory
Under the dual-sovereign doctrine, the Double
Jeopardy Clause permits the federal government
to prosecute a defendant under a federal statute
even if a state has prosecuted him for the same
conduct under state law. U.S. Const. Amend. 5.

Where a defendant's Sixth Amendment right
to confront witnesses is directly implicated,
appellate review is de novo. U.S. Const. Amend.
6.

[35]

Conspiracy
Liability for acts of
coconspirators; Pinkerton doctrine
A person is liable for an offense committed by a
coconspirator when its commission is reasonably
foreseeable to that person and is in furtherance
of the conspiracy.

Indictments and Charging
Instruments
Relationship to original
counts or charges
An original indictment remains pending prior
to trial, even after the filing of a superseding
indictment, unless the original indictment is
formally dismissed.

[34]

[36]

[39]

Under the Confrontation Clause, the forfeitureby-wrongdoing doctrine allows testimonial
statements of a declarant who does not appear at
trial to be admitted, where the defendant's own
conduct caused the declarant to be unavailable at
trial. U.S. Const. Amend. 6; Fed. R. Evid. 804(b)
(6).

Criminal Law

Discretion

Criminal Law

Basis of Opinion

A district court holds broad discretion in its
gatekeeper function of determining the relevance
and reliability of expert opinion testimony. Fed.
R. Evid. 702.

[40]

Criminal Law

Review De Novo

Criminal Law

Admissibility

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

6

United States v. Brown, 973 F.3d 667 (2020)

The evidence rule allowing admission of
extrinsic evidence of a witness's prior
inconsistent statement applies when two
statements, one made at trial and one made
previously, are irreconcilably at odds, and in
such an event, the cross-examiner is permitted
to show the discrepancy by extrinsic evidence if
necessary, not to demonstrate which of the two
is true but, rather, to show that the two do not
jibe, thus calling the witness's credibility into
question. Fed. R. Evid. 613.

The Court of Appeals uses a two-step standard
of review where a defendant challenges a
district court's admission of expert testimony:
first, it considers de novo whether the district
court properly applied the framework of the
relevant federal rule of evidence, and if so,
it reviews the ultimate decision to admit or
exclude the evidence only for abuse of discretion,
understanding that the district court abuses its
discretion only when no reasonable person could
take the district court's view. Fed. R. Evid. 702.

[41]

Criminal Law

Necessity and sufficiency

[44]

1 Cases that cite this headnote
Criminal Law

Ballistics and weapons

Principles and methods underlying proffered
expert testimony on firearms toolmark analysis
were sufficiently reliable; Association of
Firearms and Toolmark Examiners (AFTE)
methodology used by government's expert
witnesses had been almost uniformly accepted
by federal courts, AFTE methodology had been
tested and subjected to peer review, and overall
error rate was low despite slight variance from
study to study, though report by President's
Council of Advisors on Science and Technology
(PCAST) identified only one independent black
box study confirming foundational validity of
firearms toolmark analysis. Fed. R. Evid. 702(c).
1 Cases that cite this headnote
[43]

Particular Acts or Facts

The evidence rule allowing admission, on crossexamination, of extrinsic evidence of a witness's
conduct or prior statement addresses situations
in which a witness's prior activity, whether
exemplified by conduct or by a statement, in and
of itself casts significant doubt upon his veracity,
and so viewed, the rule applies to a statement as
long as the statement in and of itself stands as
an independent means of impeachment without
any need to compare it to contradictory trial
testimony. Fed. R. Evid. 608(b).

Under Daubert, to determine the reliability of
principles and methods underlying proffered
expert testimony, a court considers whether the
theory or technique has been: (1) tested; (2)
subjected to peer review and publication; (3)
analyzed for known or potential error rate;
and (4) generally accepted within the specific
scientific field. Fed. R. Evid. 702(c).

[42]

Witnesses

Witnesses
Inconsistency of Statements as
Ground of Impeachment in General
Witnesses
Nature and extent of
inconsistency

[45]

Witnesses
Cross-examination as to
inconsistent statements
Witnesses

Party as witness

Statements made by witness, who was member
of defendants' criminal street gang, during
witness's recorded telephone calls while in
jail were admissible under evidence rule
allowing admission, on cross-examination, of
extrinsic evidence of a witness's prior statements
casting significant doubt upon his veracity;
no comparison to witness's contradictory trial
testimony was needed, because statements
during calls themselves cast doubt on defendant's
testimony that he knew nothing about the gang
and that he did not receive updates on gang
while in jail, since calls showed witness engaging
in conduct demonstrating his leadership within
gang, including receiving updates on gang and
giving directions. Fed. R. Evid. 608(b).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

7

United States v. Brown, 973 F.3d 667 (2020)

[46]

Arrest
general

grams of heroin four months earlier, because
no officer had recognized defendant as the
passenger before the vehicle was stopped,
any error in admitting defendant's postarrest incriminating statements was harmless,
in prosecution for racketeering conspiracy;
evidence against defendant during four-month
trial was overwhelming, including defendant's
role as leader of criminal street gang, defendant's
orders to other gang members to distribute drugs,
and defendant's role in gang-related robberies.
U.S. Const. Amend. 4; 18 U.S.C.A. § 1962(d).

What constitutes such cause in

Probable cause to make an arrest exists when a
reasonable person confronted with the sum total
of the facts known to the officer at the time of
the arrest would conclude that the person arrested
has committed a crime. U.S. Const. Amend. 4.

[47]

Arrest
general

What constitutes such cause in

Officers’ subjective intentions are irrelevant to
probable cause for an arrest, so long as there is
probable cause to detain a person for a crime.
U.S. Const. Amend. 4.

[48]

Arrest

[52]

Arrest
Arrested person's presence or
association

[50]

Criminal Law
Acts, admissions,
declarations, and confessions of accused
Assuming that stop of vehicle, in which
defendant had been a passenger, had not
been supported by probable cause, arising
from defendant's possession of almost 100

Evidence in general

Criminal Law
General

Necessity of Objections in

In order to establish plain error, a defendant
must show: (1) an error that has not been
intentionally relinquished or abandoned; (2) the
error was clear or obvious; (3) the error affected
defendant's substantial rights, meaning that there
is a reasonable probability that but for the error,
the outcome of the proceeding would have been
different; and (4) the error seriously affected the
fairness, integrity, or public reputation of the
judicial proceedings.

Corroboration

Sufficient information linked defendant to an
apartment in which almost 100 grams of heroin
had been found by police four months earlier, for
purposes of probable cause to arrest defendant;
search was based on information provided by
informant who had seen defendant with a
gun in the apartment, surveillance officers saw
defendant enter and exit the apartment building,
and women who were present during the search
identified defendant as the apartment's resident.
U.S. Const. Amend. 4.

Criminal Law

The test for harmless error is whether, in the mind
of the average juror, the prosecution's case would
have been significantly less persuasive had the
improper evidence been excluded.

Arrest
Possession, disposal, or
concealment of article; flight or hiding
Defendant's possession of almost 100 grams of
heroin, four months earlier, provided probable
cause to arrest defendant. U.S. Const. Amend. 4.

[49]

[51]

[53]

Criminal Law

Identification evidence

Assuming that in-court identifications of
defendant by two government witnesses, when
prosecutor asked witnesses to identify defendant,
who was the brother of a member of
criminal street gang, constituted plain error in
prosecution of defendant and multiple members
of gang for racketeering conspiracy, the incourt identifications did not affect defendant's
substantial rights; in-court identifications were
accurate, they were only a small part of fourmonth trial, jury heard plenty of evidence of
defendant's guilt beyond his familial association

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

8

United States v. Brown, 973 F.3d 667 (2020)

life imprisonment. U.S. Const. Amend. 5; 18
U.S.C.A. §§ 1962(d), 1963(a); 720 Ill. Comp.
Stat. Ann. 5/9-1(a)(b)(8, 11); 730 Ill. Comp. Stat.
Ann. 5/5-4.5-20(a).

to gang, and jurors were instructed that
associating with people involved in a conspiracy,
alone, did not make a defendant a member of a
conspiracy. 18 U.S.C.A. § 1962(d).

[54]

Criminal Law

Appellate claims of procedural
sentencing are reviewed de novo.

[55]

Criminal Law

[58]

Review De Novo
error

at

Indictment in racketeering case, relating to
murders committed by members of criminal
street gang, was not required to specifically
allege coconspirator liability, and thus,
indictment, which asserted a solicitation theory,
was not constructively amended by government's
presentation, at trial, of a coconspirator theory of
liability. 18 U.S.C.A. § 1962(d).

Sentencing

Appellate claims about the substantive
reasonableness of a sentence are reviewed for
abuse of discretion.

[56]

Conspiracy
intent to kill

Homicide and assault with

Racketeering conspiracy under Racketeer
Influenced and Corrupt Organizations Act
(RICO) does not criminalize the agreement to
commit an act and instead criminalizes the act
itself, and thus, defendants' conspiracies, which
were based on murders that were punishable
under Illinois law with maximum penalty that
included life imprisonment, supported enhanced
punishment for the RICO conspiracies, even if
conspiracy to commit murder, i.e., the agreement
to commit the act of murder, was not punishable
under Illinois law with maximum penalty that
included life imprisonment. 18 U.S.C.A. §§
1962(d), 1963(a); 720 Ill. Comp. Stat. Ann.
5/9-1(a)(b)(8, 11); 730 Ill. Comp. Stat. Ann.
5/5-4.5-20(a).

[57]

Indictments and Charging
Instruments
Conspiracy, racketeering, and
money laundering

Sentencing and Punishment
and charging instruments

Indictments

Failure of indictment to name all defendants
as having committed the predicate murder did
not deprive non-named defendants of notice,
for Presentment Clause purposes, that their
sentences for racketeering conspiracy under
Racketeer Influenced and Corrupt Organizations
Act (RICO) could be enhanced based on special
findings that the murder was punishable under
state law with maximum penalty that included

[59]

Sentencing and Punishment

Proceedings

For procedural reasonableness at sentencing,
a district court must calculate the Sentencing
Guidelines range, give the defendant an
opportunity to identify statutory sentencing
factors that might warrant a non-Guidelines
sentence, and explain its sentence in relation to
the statutory sentencing factors. 18 U.S.C.A. §
3553(a); U.S.S.G. § 1B1.1 et seq.

[60]

Criminal Law
general

Sentencing proceedings in

Sentencing and Punishment

Sufficiency

Error was not harmless, as to procedural
unreasonableness in imposing, without any
explanation, two consecutive 20-year sentences
for controlled substance offenses, which were
far above advisory Sentencing Guidelines range,
though the sentences ran concurrently to
defendant's 40-year sentence for racketeering
conspiracy; it was possible that Congress, in
the future, would enact a retroactive statute that
capped sentences for racketeering conspiracies
at less than 40 years. 18 U.S.C.A. § 1962(d);
U.S.S.G. § 1B1.1 et seq.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B

9

United States v. Brown, 973 F.3d 667 (2020)

[61]

Criminal Law
proceeding

Sentencing and Punishment
of rules of evidence in general

Applicability

Sentencing and Punishment

Hearsay

The rules of evidence and the Confrontation
Clause do not apply at sentencing, and thus, the
sentencing court may rely on hearsay even if the
defendant did not have an opportunity to crossexamine witnesses. U.S. Const. Amend. 6.

[62]

Sentencing and Punishment
or advisory

Nature or stage of

All Sentencing Guidelines are advisory, and
the judge must understand what sentence the
Guidelines recommend but need not impose it.
U.S.S.G. § 1B1.1 et seq.

[65]

Sentencing and
Punishment
Admissibility in General

State and

In light of advisory nature of Sentencing
Guidelines and the freedom of sentencing
judges to disagree with the Guidelines'
recommendations, statutory default rule, that
multiple terms of imprisonment imposed at
different times ran consecutively unless the court
ordered that the terms were to run concurrently
after consulting with statutory sentence factors,
was applicable at federal sentencing of a
defendant with an undischarged state sentence
arising from relevant conduct under Guidelines,
though a Guideline stated that if a term of
imprisonment resulted from another offense that
was relevant conduct to the instant offense
of conviction, the sentence for the instant
offense “shall” be imposed to run concurrently
to the remainder of the undischarged term of
imprisonment. 18 U.S.C.A. §§ 3553(a), 3584(a,
b); U.S.S.G. §§ 1B1.3(a)(1)(B), 5G1.3(b).

[64]

Sentencing and Punishment
Operation
and effect of guidelines in general

Grounds for Allowance

Criminal Law
guilt

Innocence or doubt as to

1 Cases that cite this headnote
[66]

Sentencing and Punishment
federal sentences

Criminal Law

Guilty pleas should not lightly be withdrawn,
and only a few grounds merit this relief: where
the defendant shows actual innocence or legal
innocence, and where the guilty plea was not
knowing and voluntary.

A sentencing court may credit testimony that
is totally uncorroborated and comes from an
admitted liar, convicted felon, or large scale
drug-dealing, paid government informant.

[63]

Mandatory

Criminal Law
Effect of illegal detention
or violation of constitutional rights; illegally
acquired evidence
A defendant who contends that his guilty plea
was not knowing and intelligent because of his
lawyer's erroneous advice must show that the
advice was not within the range of competence
demanded of attorneys in criminal cases. U.S.
Const. Amend. 6.

[67]

Criminal Law

Withdrawal

Moving to withdraw a guilty plea does
not automatically entitle a defendant to an
evidentiary hearing, because a defendant must
offer substantial evidence supporting his claim,
and if the allegations advanced in support of the
motion are conclusory or unreliable, the motion
may be summarily denied.

[68]

Criminal Law

Plea

In order to satisfy the prejudice requirement
for a claim of ineffective assistance of counsel,
relating to a guilty plea, the defendant must show
that there is a reasonable probability that, but
for counsel's errors, he would not have pleaded

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 10

United States v. Brown, 973 F.3d 667 (2020)

how omission of appellate waiver warning by
district court could have affected defendant's
decision to plead guilty, given the benefits
he received under plea agreement, including
a sentence that fell well below Sentencing
Guidelines recommendation of life in prison. 18
U.S.C.A. § 1962(d); Fed. R. Crim. P. 11(b)(1)
(N).

guilty and would have insisted on going to trial.
U.S. Const. Amend. 6.

[69]

Criminal Law
for Entry

Requisites and Proceedings

Criminal Law

Arraignment and plea

Compliance with federal criminal procedural
rule regarding a plea colloquy is not meant to
exalt ceremony over substance, and if the record
reveals an adequate substitute for the missing
safeguard under the rule, and the defendant fails
to show why the omission made a difference
to him, his substantial rights were not affected,
as would be required for reversal on plain error
review. Fed. R. Crim. P. 11.

[70]

Criminal Law

Arraignment and plea

Omission, from plea colloquy for negotiated
guilty plea to racketeering conspiracy, that
defendant would be waiving the right to plead
not guilty, the right to assistance of counsel,
and the right to confront witnesses, did not
affect defendant's substantial rights, as would
be required for reversal on plain error review,
where defendant knew he could plead not guilty
because he pled not guilty before he changed his
plea, he knew that he had the right to counsel's
assistance because he had been continuously
represented since his arraignment, and his plea
agreement advised him that he had the right to
confront witnesses at trial. U.S. Const. Amend.
6; 18 U.S.C.A. § 1962(d); Fed. R. Crim. P. 11(b)
(1)(B, D, E), (h).

[71]

Criminal Law

Arraignment and plea

Omission, from plea colloquy for negotiated
guilty plea to racketeering conspiracy, that
defendant would be waiving his right to
appeal his sentence, did not affect defendant's
substantial rights, as would be required for
reversal on plain error review, where plea
agreement's appeal waiver was unambiguous,
defendant told district court multiple times that
he had read the agreement and discussed it
with his attorney, and it was difficult to see

[72]

Criminal Law

Review De Novo

The enforceability of a plea agreement's waiver
of appeal rights is reviewed de novo.

[73]

Criminal Law

Issues considered

A plea agreement's appellate waiver with respect
to sentencing will be enforced unless the trial
court relied on a constitutionally impermissible
factor at sentencing, such as race, or the sentence
exceeded the statutory maximum.

*677 Appeals from the United States District Court for the
Northern District of Illinois, Eastern Division. Nos. 13 CR
288 & 13 CR 774 — John J. Tharp, Jr., Judge.
Attorneys and Law Firms
Andrianna D. Kastanek, Attorney, Office of the United States
Attorney, Chicago, IL, for Plaintiff-Appellee.
Gregory T. Mitchell, Attorney, Law Office of Gregory
T. Mitchell, P.C., Homewood, IL, for Defendant-Appellant
Byron Brown.
Steve A. Greenberg, Attorney, Steven A. Greenberg and
Associates, LTD., Chicago, IL, for Defendant-Appellant
William Ford.
Erika L. Bierma, Attorney, Axley Brynelson LLP, Madison,
WI, for Defendant-Appellant Gabriel Bush.
Patrick W. Blegen, Attorney, Blegen & Garvey, Chicago, IL,
Lisa Lundell Wood, Attorney, Lisa Wood Law, LLC, Chicago,
IL, for Defendant-Appellant Paris Poe.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 11

United States v. Brown, 973 F.3d 667 (2020)

Paul Durbin Geiger, Attorney, Law Offices of Paul D. Geiger,
Northfield, IL, for Defendant-Appellant Derrick Vaughn.
Joshua Herman, Attorney, Law Office of Joshua G. Herman,
Chicago, IL, for Defendant-Appellant Stanley E. Vaughn.
Molly E. Armour, Attorney, Law Office of Molly Armour,
Chicago, IL, for Defendant-Appellant Arnold Council.
Beau B. Brindley, Blair T. Westover, Attorneys, Law Offices
of Beau B. Brindley, Chicago, IL, for Defendant-Appellant
Gregory Chester.
Rodney Jones, pro se.
Before Sykes, Chief Judge, and Wood and St. Eve, Circuit
Judges.
Opinion
Wood, Circuit Judge.
*678 This case offers a window into the violent and ruthless
world of the Hobos street gang, which operated in Chicago
from 2004 to 2013. With the credo, “The Earth is Our
Turf,” the Hobos worked to build their street reputation
and control certain areas on Chicago's south side. Ten gang
members were charged and convicted for violations of the
Racketeer Influenced and Corrupt Organizations (RICO) Act,
among other crimes. Nine of those defendants have joined
in the present appeals: Byron Brown, Gabriel Bush, Gregory
Chester, Arnold Council, William Ford, Rodney Jones, Paris
Poe, Derrick Vaughn, and Stanley Vaughn. We find no
reversible error in the convictions for any of the defendants.
Nor do we find any error in any of the sentences, except for
Chester's, which must be revisited.

I
A
The defendants now before us were the core group that
formed the Hobos. Although the Hobos did not have a
structure as firmly hierarchical as that found in many gangs,
it did have a leader (Chester) and senior members (Council,
Bush, and Poe). Most members had roots in other gangs, such
as the Gangster Disciples (GDs) and Black Disciples (BDs).

We need not recount all of the Hobos’ multifarious criminal
activities. We focus instead on the specific incidents the
government emphasized at trial. Where necessary, we include
further details. Generally speaking, those activities fell into
three broad categories: drug trafficking, murder (including
attempted murder), and robbery.
Drug Trafficking. The Hobos ran many drug lines throughout
Chicago's south side. Defendant Bush managed two heroin
lines, known as “Cash Money” (identifiable by the baggies’
green dollar signs) and “X-Men” (identifiable by the red Xs
on the baggies). Ford and others sold the Cash Money line at
47th Street and Vincennes Avenue, and Hobo-associate Kevin
Montgomery sold Cash Money at 51st Street and Martin
Luther King Drive. Members of another gang known as Met
Boys sold X-Men at 51st Street and Calumet Drive. Bush also
had a drug line at the Ida B. Wells housing project.
Council and other Hobos oversaw drug lines at the Robert
Taylor Homes, selling “Pink Panther” marijuana and crack
cocaine (so named for the Pink Panther logo on their baggies).
Derrick Vaughn (to whom we refer as Derrick, to differentiate
him from his brother and co-defendant, to whom we refer as
Stanley) sold cocaine at 47th and Vincennes. The Hobos also
supplied drugs to each other: Council provided marijuana and
crack cocaine to various Hobos, and Chester supplied heroin.
Murders and Attempted Murders. The Hobos liberally used
violence to retaliate against rival gangs, harm people who
cooperated with law enforcement, and defend their drug
trafficking territory. The Hobos had long-running rivalries
with several *679 other gangs, including the BDs and
associated BD factions such as New Town and Fifth Ward, the
Row GDs, and the Gutterville Mickey Cobras. These rivalries
precipitated numerous shootings.
For example, in April 2006, Fifth Ward BD Cordale Hampton
and his uncle were driving when they were shot at by a
passenger in a car driven by Stanley. Both were hit—Hampton
on his neck, side, leg, and arm, and his uncle on his head—but
both survived. Two months later, in June 2006, Chester was
leaving his girlfriend's apartment, which was located in the
New Town BDs’ territory, when he was shot (amazingly not
fatally) 19 times. In September 2006, occupants of a car shot
at Chester while he was at a southside car wash. The bullets
struck him but did not kill him, and Poe fired back at the car to
protect Chester. Chester, believing the BDs were responsible
for these shootings, put out a $20,000 bounty on the leader of
the New Town BDs, Antonio Bluitt. The bounty, however, did

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 12

United States v. Brown, 973 F.3d 667 (2020)

not intimidate Bluitt. Instead, Bluitt announced a retaliatory
bounty on Chester and Council, sparking more violence.
In February 2007, Derrick was at a local Hobos hangout,
a barbershop, when he saw Fifth Ward BD Devin Seats
outside a nearby shop. Derrick opened fire, hitting Seats
multiple times. In June 2007, while riding in a car with
Ford, Council, and Chad Todd (a Hobo-turned-cooperator),
Bush shot at Bluitt-associate Andre Simmons and Simmons's
cousin Darnell. He hit them several times, causing Andre to
lose an eye. Later that month, Bush, Todd, and the Vaughn
brothers shot New Town BD Jonte Robinson nine times as he
was walking into a daycare center to pick up his son.
In July of the same year, Bush, Ford, and Todd spotted several
teenagers they thought were Fifth Ward BDs. Bush and Ford
shot the teenagers, striking one of them in the face. The Hobos
were mistaken: the victims had no gang affiliation. A month
later, Council and Bush shot New Town BD Eddie Jones.
In September 2007, Bush, Council, Derrick, Ford, Stanley,
and others made good on Chester's bounty by killing Bluitt
and Fifth Ward BD Gregory Neeley in a drive-by ambush.
Bluitt, Neeley, and others were sitting in a Range Rover after
leaving a funeral when the attackers drove by in a fourcar caravan, firing at the Range Rover. That same month,
Bush and Council killed Terrance Anderson, who managed a
competing drug line. Bush and Council shot Anderson five
times while he was attending a reunion party for the Robert
Taylor Homes.
Rival gang members were not the Hobos’ only targets.
They also retaliated against cooperators. The trial evidence
highlighted two such victims—Wilbert Moore and Keith
Daniels—both of whom the defendants killed because of their
work for law enforcement.
Moore dealt drugs in the Ida B. Wells housing projects.
In 2004, he started cooperating with the Chicago Police
Department (CPD). Information he provided led to the search
of an apartment from which Council supplied crack cocaine.
During the search, CPD officers seized cocaine, crack
cocaine, heroin, cannabis, and firearms from the apartment.
Council figured out that Moore was the informant.
In January 2006 Council and Poe, with Bush's assistance,
killed Moore. Bush spotted Moore's car parked outside of a
barbershop and made a phone call. Council and Poe quickly
arrived on the scene. As Moore left the barbershop, Poe fired

at him from Council's car. Moore attempted to flee, but he
tripped in a nearby vacant *680 lot, allowing Council and
Poe to catch up to him. Poe immediately shot him in the face.
Daniels was Council's brother and a Hobo. In 2011 he began
providing information about the Hobos to law enforcement.
He also participated in three controlled buys of heroin
from Chester and another Hobo, Lance Dillard. Suspecting
something, the Hobos decided to silence him. Ford sneaked
into Daniels's apartment, pulled out a gun, and told Daniels
to take a ride with him. Daniels refused and, soon after, the
FBI temporarily relocated him. But that did not prove to be
enough.
On April 4, 2013, Daniels testified about the Hobos and his
controlled buys before a federal grand jury. A week later,
Chester was arrested on a criminal complaint that alleged
that Chester distributed heroin to Daniels. Chester told the
arresting agents that he knew Daniels was the informant.
Shortly after Chester's arrest, Poe cut off his electronic
monitoring bracelet, and on April 14, 2013, Poe murdered
Daniels in front of Daniels's girlfriend and children.
Robberies. The Hobos frequently conducted robberies, home
invasions, and burglaries. A few vivid examples suffice.
At a nightclub in June 2006, Poe robbed NBA basketball
player Bobby Simmons of a $100,000 necklace. A car chase
followed, and Poe shot at Simmons's car from Council's
car. Later in 2006, Brown, Jones, and a Met Boy entered
a drug dealer's home and shot, punched, and stabbed him
for information about the location of his drugs. They took
$20,000 worth of marijuana and gave some to Council.
In 2007, Bush, Council, and Stanley robbed a heroin supplier.
In July 2008, Brown and Jones burglarized a home. While
fleeing from police, they crashed into a car driven by Tommye
Ruth Freeman, an elderly woman, killing her. In November
2008, Council and three other Hobos robbed a clothing store
called Collections, stealing merchandise worth $17,488.
We could go on, but the picture is clear: the Hobos were a
violent, dangerous gang, and each of the defendants in this
case was an active participant in its activities.

B
Before we proceed to the defendants’ many contentions, we
offer a brief overview of the charges. Of the nine defendants

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 13

United States v. Brown, 973 F.3d 667 (2020)

involved in these appeals, three pleaded guilty to one count
of RICO conspiracy, in violation of 18 U.S.C. § 1962(d)
(Count 1): Brown, Jones, and Stanley. Brown also pleaded
guilty to one count of murder in aid of racketeering, in
violation of 18 U.S.C. § 1959(a) (Count 4), for the murder of
Eddie Moss. The remaining six defendants proceeded to trial.
The following chart shows who among the latter group was
convicted and for what:
*681

738, 87 S.Ct. 1396, 18 L.Ed.2d 493 (1967). We have sorted
the myriad arguments before us into five different major
headings: Section II addresses the sufficiency of the evidence
presented at trial; Section III tackles various evidentiary
challenges; Section IV addresses sentencing contentions;
Section V discusses Brown's individual arguments; and
Section VI addresses the Anders brief for defendant Jones.

II
[1]
[2] We begin with the defendants’ challenges to the
sufficiency of the evidence. Such challenges face a high
hurdle: we afford great deference to jury verdicts, view the
evidence in the light most favorable to the jury's verdict,
and draw all reasonable inferences in the government's favor.
United States v. Moreno, 922 F.3d 787, 793 (7th Cir. 2019).
We may set aside a “jury's verdict on the ground of insufficient
evidence only if no rational trier of fact could have agreed
with the jury.” Cavazos v. Smith, 565 U.S. 1, 2, 132 S.Ct. 2,
181 L.Ed.2d 311 (2011).

A. Count 1 – RICO Conspiracy
1. Joint Arguments

[Editor's Note: The preceding image contains the reference
for footnote1].
The trial lasted about four months, and more than 200
witnesses testified. The jury found all six defendants guilty of
all *682 counts, except for the charge against Ford in Count
10. The district court sentenced all the defendants to lengthy
terms in prison.
Eight of the defendants have appealed from their convictions,
their sentences, or both; defendant Jones's attorney has filed
a no-merit brief pursuant to Anders v. California, 386 U.S.

[3] Chester, Council, Bush, Derrick, Ford, and Poe all argue
that there was insufficient evidence to support the jury's
guilty verdicts on Count 1. As we noted before, Count 1
charged these six under RICO with conspiring to engage in
a racketeering enterprise known as the Hobos, in violation
of 18 U.S.C. § 1962(d). To prove a RICO conspiracy, “the
government must show (1) an agreement to conduct or
participate in the affairs (2) of an enterprise (3) through a
pattern of racketeering activity.” United States v. Olson, 450
F.3d 655, 664 (7th Cir. 2006); see Salinas v. United States,
522 U.S. 52, 61–66, 118 S.Ct. 469, 139 L.Ed.2d 352 (1997).
The defendants contend that there was insufficient evidence
that the Hobos were an enterprise.
[4] [5] Under the RICO statute, an “enterprise” includes
“any individual, partnership, corporation, association, or
other legal entity, and any union or group of individuals
associated in fact although not a legal entity.” 18 U.S.C.
§ 1961(4). An association-in-fact includes any “group of
persons associated together for a common purpose of
engaging in a course of conduct.” Boyle v. United States, 556

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 14

United States v. Brown, 973 F.3d 667 (2020)

U.S. 938, 946, 129 S.Ct. 2237, 173 L.Ed.2d 1265 (2009). The
Supreme Court reads this definition broadly. An associationin-fact under RICO need not have any structural features
beyond “a purpose, relationships among those associated
with the enterprise, and longevity sufficient to permit these
associates to pursue the enterprise's purpose.” Id.
[6] The defendants argue that the government failed to prove
the necessary agreement. They admit that they came together
at different times to engage in crimes, but they contend that
they were no more than “independent participants involved
in unrelated criminal activity operating [without a] common
purpose.” They emphasize that the Hobos had no rules.
Although most gangs allegedly have initiations, treasurers,
dues, and manifestos, the Hobos did not bother with those
formalities.
The defendants also dispute the government's contention
that the Hobos’ loyalty and protection of one another was
indicative *683 of common purpose. The evidence on which
the government relies, they argue, showed only that this bond
existed in certain individual cases, rather than being a feature
for all members of the gang. For example, while Chad Todd
initially claimed that the Hobos protected one another, he later
admitted that he was willing to kill only for Bush and not for
any other Hobo. Todd also testified that at one point Bush
wanted to kill the Vaughn brothers for attempting to extort
him.
Finally, the defendants assert that the government failed to
prove that the Hobos had an internal hierarchy, and without
any pecking order, there could be no coordination or common
purpose. The government labeled Chester as the leader of
the Hobos, but Todd testified that he never saw Chester send
money down to any members of the gang below him, and
he never saw people send money up to Chester. Each of the
six of them, the defendants argue, did no more than engage
in “[a]ccidentally parallel” criminal activity that happened
occasionally to overlap; they shared no coordinated purpose.
Perhaps that is one way to view the evidence, but it is not the
only one. The defendants’ course of conduct, “viewed in the
light most favorable to the verdict, was neither independent
nor lacking in coordination.” United States v. Hosseini, 679
F.3d 544, 558 (7th Cir. 2012). Together the defendants worked
to control an exclusive territory. They earned money through
drug dealing and robberies, protected each other, and killed
rival gang members and others who posed threats, including
government cooperators.

Many witnesses testified that the gang was a distinct,
identifiable group. We name a few. Jones and Todd (Hobos
who became cooperators) confirmed that an organization
called the Hobos existed and they were members. Todd
considered Derrick, Stanley, and Ford to be Hobos, and
Chester to be the leader of the Hobos. He also said that
Council, Poe, and Bush each had a “position of authority.”
The jury reasonably could see this as evidence of a hierarchy,
albeit a loose one. Jones testified that Council, Bush, Derrick,
Ford, and Chester, among many others, were also Hobos.
Bland and Montgomery described the Hobos as a gang.
Cashell Williams, a Fifth Ward BD, testified that his gang had
a rivalry with the Hobos.
Additional evidence showed that the Hobos were not just a
group of criminals acting individually. They protected each
other and retaliated on behalf of one another. For example,
all the trial defendants except for Poe were involved in the
murders of Bluitt and Neeley. In so doing, they were carrying
out Chester's orders. In addition, Bush, Council, Ford, and
Todd shot the Simmonses, and Bush, Derrick, Todd, and
others shot Jonte Robinson. The jury was entitled to conclude
that the Hobos shot the BDs to retaliate against a rival gang
and to control Hobos territory.
And this was not all. Many other crimes illustrated the
relationships among the Hobos and their network. Council
and Poe murdered Moore based on a tip from Bush. Council
and Bush murdered Anderson. Council and Poe robbed
Bobby Simmons. And the Hobos shared weapons to commit
these crimes.
The jury also heard evidence about the defendants’
cooperative drug trafficking. As we noted earlier, Bush
ran the Cash Money and X-Men drug lines, supplying the
drugs and receiving the proceeds. Council operated the
Pink Panther drug line. They did not run these drug lines
alone. Ford managed certain Cash Money drug spots, and
Montgomery collected money for Bush. Bush and Council
occasionally used the same apartment to package drugs. This
was evidence showing that *684 the Hobos’ drug activity
was interconnected and a source of income for the gang.
The Hobos also showed their unity through tattoos and hand
signs. Chester's tattoo says “Hobo” and “The Earth Is Our
Turf,” with images of firearms, a bag of money, and two
buildings. Poe has Hobos tattoos. One says “Cheif [sic]
Hobo” and the other says “The Earth Is Our Turf” and

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 15

United States v. Brown, 973 F.3d 667 (2020)

“Hobo.” Ford's tattoo says “hobo 4Life.” Poe, Chester, and
other Hobos also stitched “Hobo” into their cars’ headrests.

testified that Derrick was a passenger in Ford's car during the
drive-by murders of Bluitt and Neeley and that Derrick was
armed.

Although there is much more evidence to the same effect in
the record, we have no need to rehearse all of it. Bearing in
mind the standard of review for challenges to the sufficiency
of the evidence, we have no trouble concluding that the
evidence before this jury was sufficient to establish a RICO
enterprise.

The jury was entitled, based on the evidence before it, to
conclude that Derrick shot Seats as part of the conspiracy.
Todd testified that he saw Derrick shoot Seats. Although
Seats himself did not see the shooter, Seats testified that
he saw Derrick's Grand Prix near the barbershop where he
was shot and that Derrick had threatened to kill him earlier
the same day. Derrick emphasizes that Seats described their
dispute as personal and unrelated to their respective gang
2. Derrick Vaughn
affiliations, and so, in his view, the shooting could not have
been part of a conspiracy. But once again, the jury did not
Derrick contends that even if there was a Hobos enterprise,
have to accept that interpretation of the evidence. And this
he was not a member of it and he did not conspire with the
jury did not. There was also a recorded conversation in which
Hobos. He concedes that he sold a small quantity of drugs
Derrick told Johnson *685 that he shot Seats after seeing
and was present at the scene of several Hobos crimes, but he
Fifth Ward BDs near the barbershop. The jury evidently
insists that there was no evidence that he was a participant
credited this admission and found that the shooting furthered
(rather than a mere bystander) in those crimes.
the conspiracy. In sum, Derrick's individual attack on the
[7] [8] In order to support Derrick's conviction on Count 1, sufficiency of the evidence to support his conviction on Count
1 fares no better than the collective argument.
the government was required to prove “that another member
of the enterprise committed ... two predicate acts and that
[Derrick] knew about and agreed to facilitate the scheme.”
United States v. Faulkner, 885 F.3d 488, 492 (7th Cir. 2018)
B. Count 2 and Additional Findings – Moore's Murder
(internal quotation marks omitted). “It did not ... need to
Council and Poe were the only two defendants charged with
show that he was personally involved in two or more of the
Moore's murder. They both argue that there was insufficient
predicate acts.” Id.
evidence to support their convictions on this Count, which
[9] [10] The record contains ample evidence of Derrick's charged them with murdering Moore in aid of the Hobos
racketeering conspiracy, in violation of 18 U.S.C. § 1959(a)
participation in the Hobos’ racketeering activity. For example,
(1). Bush also joins this argument insofar as it bears on
in recorded conversations between Derrick and Courtney
the jury's special findings in Count 1 connecting him to
Johnson (a government cooperator), Derrick admitted to
Moore's murder. The jury made the Additional Findings that
Johnson that he participated in the Bluitt and Neeley murders.
the murder was committed “because Moore was a witness
He described hearing his co-conspirators’ gunshots and
in any prosecution or gave material assistance to the State
mentioned that he saw the victims dead. Even though Derrick
of Illinois in any investigation or prosecution, either against
may not specifically have uttered the word “Hobos,” he
the defendant or another person,” and that “[the murder] was
nevertheless revealed his ties to and knowledge of the Hobos
committed in a cold, calculated, and premeditated manner
when he commented that the purpose of the murders was
pursuant to a preconceived plan, scheme, and design to
to retaliate on Chester's behalf because the BDs earlier had
take a human life by unlawful means, creating a reasonable
shot Chester. Derrick also described shooting Seats: “So I
expectation that the death of a human being would result
come from around the gate I boom, boom, boom[.]” And
therefrom.”
Derrick discussed the Hobos’ attempts to eliminate the BD's
competing drug trafficking: “[T]hey had a line down there ...
The record contains ample evidence that supports both
we put a stop to that.”
Council's and Poe's convictions and the Additional Findings.
Several witnesses implicated the three defendants. Kevin
Several of Derrick's co-defendants also implicated him.
Montgomery, who managed one of Bush's drug lines, testified
In a recorded conversation, Ford mentioned Derrick's
that he was in Bush's car near 43rd Street and Langley
involvement in the Bluitt and Neeley murders. Jones similarly

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 16

United States v. Brown, 973 F.3d 667 (2020)

Avenue when he heard Bush say on his phone that “this
blue thing is out here,” referring to a blue car parked in
front of the barbershop. Montgomery also testified that a few
minutes later, Council and Poe pulled up in a Chevy Malibu.
Montgomery saw Poe fire a .40 caliber firearm from the back
passenger window. Bush and Montgomery then left the scene.
That night, Bush reported to Montgomery that Moore had
been killed. Bush remarked, “I just seen that whip [car] out
there, you know. I wasn't looking forward to that either. ...
So I made that call.” He also told Montgomery that Council
and Poe “got” Moore, explaining that Council and Poe chased
Moore, Moore was “whipping” Council, and then Poe walked
up and shot him. Bush said they killed Moore because Moore
“sent the feds to [Council's] crib” and they “found a half a
book [kilo] of coke and a chopper [assault rifle].”
People who lived in the surrounding area corroborated this
account. Alan Pugh lived in an apartment building on Langley
Avenue. Through a window he saw a Black man “running for
his life,” chased by another Black man as a red Mitsubishi
Galant drove parallel to them. The first man ran into a vacant
lot, where he slipped near a van. The second was “upon him
almost instantly” and shot him in the head. A third man got
out of the red car, walked to the victim, and then the two men
“calmly” left in their car. Tiajuana Jackson, who lived nearby,
testified that she heard gunshots, ran downstairs, and saw a
maroon vehicle speeding east on 43rd Street before making
a left on Langley.
Offering further support, Marcus Morgan, a Met Boy, testified
that, while housed together at Cook County Jail, Poe told him
that he killed Moore. Rodney Jones testified that Council told
him that Moore had sent the police to Council's house. And
Poe told Jones that Moore was holding his hands up, but Poe
shot him anyway. Brian Zentmyer, Poe's cellmate, testified
that Poe bragged about Moore's murder and explained that he
killed Moore *686 because Moore “turned state evidence on
another Hobo,” Council.
Physical evidence corroborated the witnesses’ testimony.
Casings were recovered near the barbershop and near Moore's
body, suggesting that the shooting started near the barbershop
and continued into the vacant lot. A .40 caliber cartridge
was found near the blue car, corroborating Montgomery's
testimony about the type of weapon. Moreover, toolmark
analysis established that one of the guns used in Moore's
murder had also been used in the shooting of Cordale
Hampton and his uncle—also a Hobos operation.

[11] Council, Poe, and Bush argue that Montgomery's
and Jones's testimony was incredible as a matter of law.
They point to several inconsistencies. First, Montgomery
described Council's car as a burgundy “boxed” Chevy Malibu,
whereas Pugh described a red Mitsubishi Galant. In addition,
Montgomery originally stated that Bush was driving his own
tan Pontiac Bonneville, but then later he said that Chester
owned the car. Montgomery also testified that Bush had
told him that Poe shot and killed Moore after Moore and
Council were fighting. Yet Pugh did not mention a fight in his
testimony. In addition, the defendants point to discrepancies
between Montgomery's and Pugh's descriptions of the route
Council took in following Moore. They also note that while
Jones testified that Poe told him that he put his gun “up under
a van” to shoot Moore, no shell casings were found under the
van. The defendants urge that these inconsistencies, added to
the fact that Montgomery and Jones had “every incentive to
falsely tailor a story to fit ... law enforcement's needs,” render
the testimony incredible as a matter of law.
[12]
[13]
[14] Defendants overstate the problems. A
determination that testimony is incredible is reserved for
extreme situations where, for example, “it would have been
physically impossible for the witness to observe what he
described, or it was impossible under the laws of nature
for those events to have occurred at all.” United States v.
Conley, 875 F.3d 391, 400 (7th Cir. 2017). Nothing of that
magnitude exists here; we see only ordinary failures to recall
with specificity, or perhaps dissembling. We do not dispute
the basic point that there were inconsistencies among the
witnesses’ accounts, but the jury was entitled to decide which
parts to credit and which to reject. As the district court noted,
“for all we know, the jurors did reject the entire testimony
of one or more of these witnesses, which would still leave
sufficient evidence to convict.” Moreover, “[i]t is the jury's
job, and not ours, to gauge the credibility of the witnesses and
decide what inferences to draw from the evidence.” United
States v. Stevenson, 680 F.3d 854, 857 (7th Cir. 2012). “We do
not second guess such determinations on appeal.” Id. The jury
believed that the three defendants participated in the murder
of Moore, and they have given us no reason to question that
decision.
[15] Next, the defendants argue that even if they actually
committed the murder, the government failed to present
sufficient evidence that it was “for the purpose of ...
maintaining or increasing position in” the Hobos enterprise,
as required under 18 U.S.C. § 1959(a)(1). The question here
is whether there was evidence permitting the jury to “infer

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 17

United States v. Brown, 973 F.3d 667 (2020)

that the defendant committed his violent crime because he
knew it was expected of him by reason of his membership in
the enterprise or that he committed it in furtherance of that
membership.” United States v. DeSilva, 505 F.3d 711, 715
(7th Cir. 2007) (internal quotation marks omitted).
*687 The government's theory was that Moore was
murdered because he cooperated with the authorities
and was the (unnamed) affiant on a search warrant for
Council's residence. The defendants respond that there is no
documentary evidence that supports this contention, and that
the theory is based entirely on the testimony of CPD Officer
Edwin Utreras, who prepared the search warrant affidavit.
Moreover, the defendants argue, even if Moore was the
informant, there was no evidence that Council knew this, nor
any evidence that this information was communicated to Poe
or Bush. Finally, the defendants say, even if we accept the
government's position that Council knew that Moore was the
informant, “at best the government's evidence established that
the murder of Wilbert Moore was committed for personal
revenge.” The criminal case that resulted from the search was
dismissed well before the murder, and so (they conclude) the
only possible motive for the murder would be revenge.
We begin with the defendants’ argument that there was
insufficient evidence that Moore had cooperated against
Council. As the district court noted, this argument was “fully
vetted at a Franks [v. Delaware, 438 U.S. 154, 98 S.Ct. 2674,
57 L.Ed.2d 667 (1978)] hearing on the subject of whether the
search warrant for Council's apartment was based on false
information.” The hearing established that “Moore had in fact
acted as an informant and supplied the basis for the search
warrant.” We see no reason to overturn that assessment.
[16] Next, contrary to the defendants’ contentions, there was
evidence that the Hobos knew that Moore had snitched on
Council. Montgomery testified that Bush told him Moore
was killed because Moore “sent the feds to [Council's] crib,”
where they “found a half a book of coke and a chopper.”
Council also told Jones that Moore sent the police to his
house, and Poe told Zentmyer that he killed Moore because
Moore “turned state evidence” on Council. The jury chose to
credit at least one of these witnesses. Moreover, although at
the time of Moore's murder Council no longer faced charges
based on the search, there was ample evidence that the
Hobos had an interest in punishing cooperators and deterring
further cooperation. Personal revenge might have been a
factor in Moore's demise, but a jury could reasonably find

that maintaining or advancing their position in the Hobos was
another.
[17]
[18] Finally, the defendants argue that there was
insufficient evidence that Moore's murder was “committed
in a cold, calculated and premeditated manner pursuant to a
preconceived plan, scheme and design.” Under Illinois law,
first-degree murder does not carry a life sentence unless
certain aggravating factors exist. Premeditation is one such
factor. It requires a “substantial period of reflection or
deliberation.” People v. Williams, 193 Ill. 2d 1, 31, 249
Ill.Dec. 840, 737 N.E.2d 230 (2000). That deliberation must
take place over “an extended period of time.” Id. at 37,
249 Ill.Dec. 840, 737 N.E.2d 230. The defendants argue that
Moore's murder does not satisfy that element, because only a
few minutes elapsed between when Bush placed a call stating
that the “blue thing is out here” and when Council and Poe
drove up and began shooting at Moore.
But there is no reason why we should limit the relevant
time to the period between Bush's call and the shooting. A
rational jury could conclude that the group had hatched its
plan to murder Moore much earlier. Bush made a call referring
only to “the blue car,” yet Council and Poe knew just what
he meant. They showed up instantly and began shooting.
Furthermore, the search of Council's “crib” occurred about
18 months before Moore's *688 murder. This was enough
to permit the jury to find that Moore's murder was cold,
calculated, and premeditated.

C. Count 3 – Anderson's Murder
Count 3 alleged that Bush murdered Terrance Anderson in
aid of the racketeering enterprise, in violation of 18 U.S.C. §
1959(a). Bush argues, once again, that there was insufficient
evidence to support the jury's guilty verdict. Council joins
Bush in attacking the sufficiency of the evidence for the jury's
related special findings that Council's and Bush's racketeering
activity included the commission, or at least aiding and
abetting, of Anderson's murder.
Bush does not challenge the finding that he shot Anderson
at the reunion party for the Robert Taylor Homes. He argues
instead that he did not have the requisite “intent to kill”
Anderson. It is hard to take this point seriously, given the
fact that Bush pleaded guilty in state court to the seconddegree murder of Anderson. There he stated under oath
that he was guilty of the charge that he “without lawful

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 18

United States v. Brown, 973 F.3d 667 (2020)

justification, intentionally and knowingly shot and killed
Terrance Anderson while armed with a firearm, and that, at
the time of the killing [he] believed the circumstances to be
such that if they existed would justify or exonerate the killing
under the principle [of self-defense], that his belief in this was
unreasonable, and constitutes a violation of [second-degree
murder statute].” These admissions easily support the finding
that he intended to kill Anderson.

he intends *689 to kill, intends to do great bodily harm to
another person, knows that his acts would cause the death
of another person, or knows that his acts create a strong
probability of death. 720 ILCS 5/9-1. Bush's intentionally
shooting at Anderson was enough to allow the jury to find that
Bush knew, at a minimum, that his actions created a strong
probability of Anderson's death. The evidence of Council's
involvement, summarized above, was also sufficient.

Other evidence reinforces that finding. For instance, Jones
testified that Council told him that Council and Bush
murdered Anderson: Council “grabbed [Anderson], slammed
him to the ground and hit him,” and then Bush “grabbed him
and slammed him and shot him.” Todd testified about several
conversations about Anderson he had with Bush. Bush told
Todd that Anderson was one of his rivals, because Anderson
sold drugs at the Ida B. Wells projects, where Bush also sold
drugs. Another time, Todd was sitting in a car with Bush,
Council, and Ford, when they saw Anderson walking on the
street. Ford suggested that Bush should shoot Anderson, but
Bush dismissed the idea because there were pole cameras in
the area. In addition, after Anderson shot Bush, Bush told
Todd that he had been “stalking” Anderson's prison release
date so that he could kill him.

Bush and Council also argue that Bush did not kill Anderson
for the purpose of maintaining or increasing his position
within the Hobos enterprise. See DeSilva, 505 F.3d at 715.
Instead, they say, the evidence showed that Anderson and
Bush had personal animosities dating from an earlier incident
in which Anderson shot Bush. They postulate that there was
no evidence that the murder was related to the Hobos because
Bush was not carrying out an order.

In a recorded conversation, Ford told Todd that one of the
Brown twins saw Bush kill Anderson. Kevin Montgomery
testified that Bush had told him about the Anderson murder.
Bush described how he caught Anderson off guard: he “crept
up through the bushes” where Anderson was dancing and
“started busting at [him].” When Anderson ran, Council
began “busting at him from the other direction.”
Anderson's girlfriend confirmed the hostility between Bush
and Anderson. She had seen Anderson shoot Bush in the hand.
Anderson's brother attended the Robert Taylor reunion party
with Anderson. He saw Bush shooting a firearm (although he
could not see the intended target), and then he saw Bush and
Council run and jump into a vehicle.
Physical evidence also supported these accounts. A baseball
hat containing Council's DNA was recovered from the scene.
In addition, Anderson's autopsy showed that bullets entered
from both his front and back, suggesting multiple shooters.
[19] This evidence amply supports the jury's finding that
Bush shot Anderson with the intent to kill him. In any event,
an intent to kill is not essential to find a first-degree murder
under Illinois law. A person commits first-degree murder if

[20] A rational jury, however, could conclude that Bush
killed Anderson because Anderson was cutting into his drug
sales at the Ida B. Wells Homes, which Bush viewed as
Hobos’ territory. Drug trafficking was a key source of revenue
for the Hobos, and controlling drug lines was crucial to
maintaining that income. Ample evidence supported this
conclusion. An explicit order is not required for a finding
that the crime “was expected of [Bush] by reason of his
membership in the enterprise or that he committed it in
furtherance of that membership.” Id.
[21] Last, Council and Bush argue (as they did for Count
2) that Anderson's murder was not cold, calculated, and
premeditated. They tactlessly state that “[s]hootings like the
Anderson murder occur in Chicago regularly. They involve
personal vendettas and crowded areas. There is nothing about
this murder that sets it [apart] from such ordinary shootings.”
The jury was not required to adopt such a cynical view.
Moreover, the government produced evidence allowing the
jury to find that Anderson's murder in particular was
premeditated. Bush and Anderson had a long-standing dispute
over drug territory, and Anderson shot Bush in 2005 as a result
of this dispute. Anderson was arrested, and Bush told Todd
that he was “stalking” Anderson's prison-release date so that
he could kill him. He was a man of his word: Bush seized
the opportunity to attack while Anderson was on a weekend
pass from a halfway house. Council, Bush, and Ford had also
talked about shooting Anderson, but Bush passed over one
chance because of the pole cameras in the area. The jury

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 19

United States v. Brown, 973 F.3d 667 (2020)

reasonably concluded that Anderson's murder was the result
of discussion and planning.

D. Counts 4 and 5 – Bluitt's and Neeley's Murders
Derrick argues that there was insufficient evidence to support
the jury's guilty verdicts on Counts 4 and 5, which charged
him with murdering Bluitt (Count 4) and Neeley (Count 5) in
aid of the racketeering enterprise, in violation of 18 U.S.C. §
1959(a)(1). Council, Bush, and Ford join Derrick in arguing
that the evidence was also insufficient to support the jury's
special findings that their racketeering activity included the
commission, or aiding and abetting, of Bluitt's and Neeley's
murders.
Derrick concedes that he was present at the funeral when the
murders happened, but he denies that he participated in them.
The evidence at trial permitted the jury to find otherwise.
Cashell Williams, a Fifth Ward BD, testified that he attended
the funeral with Bluitt, Neeley, and others. After they paid
respects, they got into Bluitt's Range Rover, made a U-turn,
and *690 were idling when he heard Bluitt say “it's on.”
Several cars then drove by, Williams heard gunshots, and
Bluitt and Neeley were fatally hit. Williams did not see the
shooters, but he saw Ford drive by shortly after the shooting.
In Derrick's recorded conversations with cooperator Johnson,
Derrick described the murders. He told Johnson that the
murders were meant to retaliate against the BDs for shooting
Chester. He identified both the guns that he and Stanley
carried and the cars and people involved. He also mentioned
that he tried to shoot at Bluitt and Neeley, but his gun jammed.
Jones testified that with Bush, the Vaughn brothers, Council,
Ford, and others, he killed Bluitt and Neeley. Council had
pulled up to the spot where several Hobos were hanging out
and asked them if they had “poles,” meaning guns. He told
them that he knew where Bluitt was, mentioned the bounty
that Chester had placed on Bluitt, and stated that he was
“ready to kill for the money.” They told a Met Boy to get some
guns. Jones gave one to Brown's twin, Brandon, and then got
in the car with Council and Brandon. They met up with Bush,
Ford, Derrick, and others in an alley. Once Bluitt was in his
car, Bush yelled “[g]o, go, go.” Council's car was in front,
with Brandon in the front seat and Jones in the backseat. Bush
was in the second car; Stanley was in the third car; and Ford
and Derrick were in the fourth and final car. Jones testified
that he saw Derrick shooting from Ford's car. Jones received

clothes from Council as a reward, and Chester later arranged
for Dillard to give Jones heroin.
In recorded conversations, Ford told Todd about his
participation in the murders. He mentioned that he expected
a reward, but Bush got offended because he was “one of
the guys.” Todd also testified. He stated that in response to
Chester's getting shot, he went with Bush to look for and
kill Bluitt. Chester offered $20,000 for the kill, but the pair's
plan did not work. Todd was out of town when the murders
happened, but he discussed them with Bush. Bush said he and
other Hobos were in four cars and took turns shooting.
Physical evidence corroborated the testimony. A firearms
examiner testified that cartridge casings from the scene were
fired by the same gun that was used to kill Daniels. In
addition, on the day of the murders, Council changed rental
cars twice, before and after the murders. The car he was
driving during the murders, a red sedan, was consistent with
eyewitness testimony.
Despite all this evidence, Derrick argues that the government
relied almost exclusively on the recorded conversations
between Derrick and Johnson, and he contends that in
these conversations he admitted only his presence, not his
participation in the murder. Derrick emphasizes that his gun
did not work, and so he could not have participated in the
murders. He also asserts that the only other evidence to
establish his guilt came from Jones, but he argues that Jones's
testimony was “so vague, contradictory, and incredible that it
could never be found to support a verdict of guilt beyond a
reasonable doubt by any rational jury.”
[22] The jury, however, was not required to credit Derrick's
assertion that his gun did not work. And even if it did, it
could reasonably find that Derrick participated in the murders,
without shooting, on an accountability theory. Regardless of
whether he fired the gun, Derrick took affirmative steps in
furtherance of the murders by conducting surveillance before
the murders and serving as back-up. A jury easily could
find that he helped the other Hobos kill Bluitt and Neeley.
In *691 addition, the jury was entitled to credit Jones's
testimony. Once again, any inconsistencies in that testimony
were for the jury to resolve. See Stevenson, 680 F.3d at 857.
The defendants also contend that the evidence of the Bluitt
and Neeley murders was insufficient to support the jury's
special findings. Some witnesses did not see Council, Bush,
and Ford at the crime scene. Others, who did place them there,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 20

United States v. Brown, 973 F.3d 667 (2020)

allegedly provided inconsistent testimony. And defendants
again urge that Todd and Jones were unreliable.
Once again, bearing in mind the standard of review, we
find the evidence sufficient to support the findings relating
to Council, Bush, and Ford. Jones detailed his cooperation
with them to conduct the drive-by shooting. Ford and
Derrick implicated themselves in recorded conversations.
Bush orchestrated the caravan and yelled “go.” Williams
testified that he saw Ford during the shooting. This is enough,
particularly recalling again that the jury was entitled to make
credibility determinations.
Finally, the defendants contend that no jury could find that
the Bluitt and Neeley murders were cold, calculated, and
premeditated. “At best,” they urge, “the evidence provided by
the government showed a haphazard and hurried collection of
people and resources to quickly confront [Bluitt] and [Neeley]
out on the street.” They assert that nothing demonstrated a
detailed and organized plan, thoughtfully considered over
time, which was executed in cold blood.
[23] If the trial testimony is credited, however, premeditation
is clear. A rational jury could reasonably conclude that the
Hobos had been planning to murder Bluitt because of the
long-running rivalry between the Hobos and BDs. The BDs
had shot Chester, and Chester had placed a bounty on Bluitt's
head. Bush, Ford, and Todd then devised a plan to kill
Bluitt. On the day of the murders, the defendants learned
that the BDs were attending the funeral, but they did not
act immediately. Instead, Council recruited participants, they
gathered weapons, and then they met in an alley where they
discussed their plan of attack. Finally, they carried out the
plan. This was more than enough to support the jury's finding
that the two murders were cold, calculated, and premeditated.

E. Shooting of Andre and Darnell Simmons
Bush challenges the jury's special findings that his
racketeering activity included the commission, or aiding and
abetting, of the attempted first-degree murders of Andre
Simmons and Darnell Simmons. Bush argues that the only
evidence introduced against him in this respect was the
unreliable testimony of cooperator Chad Todd.
At trial, Todd testified that on the day of the shootings, Bush
called him and asked to meet at a nearby grocery store. Once
Todd arrived, he saw Bush sitting in the driver's seat of a white

Impala that was parked on a side street next to the grocery
store. Ford was in the front passenger seat, and Council was
in the rear passenger seat. Todd got into the car behind Bush.
The group sat and waited, watching a black Nissan Maxima
that was parked in the grocery store parking lot. When the
Maxima pulled out, they followed it. Todd testified that, at
this point, Ford and Bush somehow switched seats, Ford now
driving and Bush in the front passenger seat.
After trailing the Maxima for a short time, Todd testified that
Bush pulled the sunglasses compartment down, reached in,
and pulled out a FN 5.7 firearm. Bush then instructed Ford to
lean back, Ford *692 did so (Todd reported to the point of
crushing Todd's legs), and Bush fired past Ford's face. Todd
said that he saw bullet holes going through the front passenger
window and heard glass shattering. Then he heard sirens and
saw an unmarked squad car behind them. They briefly eluded
the unmarked squad car, but after they got out of their car and
ran, Todd and Council were both apprehended and taken into
custody.
Bush asks us to find that Todd's testimony is incredible. He
emphasizes that Todd did not describe how Ford and Bush
switched seats, or how it would even be possible given the
sizes of Bush and Ford and the center console in the vehicle.
Bush emphasizes that Todd's testimony throughout the trial
was riddled with inconsistencies. Todd admitted to lying on
earlier occasions to law enforcement. Furthermore, setting
aside the sufficiency of the proof that he committed the
attempted murders, Bush argues that the government failed to
present sufficient evidence showing that his purpose was to
maintain or increase his position within the enterprise or that
the attempted murders were part of his racketeering activity.
The government counters that Todd's testimony was wellcorroborated. Todd testified that a friend of Bush's girlfriend
rented the Impala. That friend testified at trial and confirmed
that she rented the car for Bush. After the shooting, Bush's
girlfriend told the friend that the car had been stolen, but
during a later search of the car, police found documents in
Bush's name, as well as Council's and Bush's fingerprints.
In addition, the police recovered cartridge casings from the
scene. The casings matched the type of gun Todd described
in his testimony and also matched the gun that was used in
the Jones and Robinson shootings. The officer who arrested
Council after the car chase corroborated this portion of Todd's
testimony. The Simmonses also both corroborated Todd's
account of the shooting at trial. The Simmonses testified
that they were in Andre's Nissan in a turn line when they

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 21

United States v. Brown, 973 F.3d 667 (2020)

heard multiple gun shots and that Andre ducked down and
continued driving, ultimately crashing into a CTA bus stop.
Moreover, in secretly recorded conversations between Todd
and Ford, Ford discussed the shooting and said that he gave
away a leather jacket to a person who helped him flee after
they crashed the car. The government finally argues that
the jury reasonably found that the murder was part of the
racketeering conspiracy because Andre Simmons was Bluitt's
friend, and the Hobos were determined to retaliate against
New Town BDs.
The evidence relating to the Simmonses’ shooting is not
the strongest we have ever seen. Nevertheless, the jury was
entitled to credit Todd's account, as corroborated by the
evidence cited by the government. In any event, the shooting
was only one of many predicate acts on Count 1 for which
the jury found Bush responsible; it was not the subject of a
substantive act. Any error would therefore be harmless.

F. Count 6 – Obstruction of Justice
On Count 6, Poe was convicted of obstruction of justice in
violation of the “catchall” clause in 18 U.S.C. § 1503, which
provides that a crime occurs when a person “corruptly ...
influences, obstructs, or impedes, or endeavors to influence,
obstruct, or impede, the due administration of justice....” After
he was convicted, Poe moved for acquittal. The district court
found that ample evidence supported Poe's guilt, and so it
denied his motion.
We already have noted that Council's brother, Keith Daniels,
cooperated with law enforcement to make controlled buys
of heroin from Chester and Dillard. Recall, too, that after
Daniels was relocated for *693 his safety, he testified
before the federal grand jury on April 4, 2013. On April 10,
Chester was arrested on a criminal complaint charging him
with distributing heroin. The supporting affidavit provided
to Chester did not name Daniels, but it summarized the
controlled transactions and gave specific details about the
buys. Chester told arresting agents that he “knew who the
informant was” and “all [he] ever did was take [him] under
my arm.” Another Hobo, Walter Binion, was at the scene
when Chester was arrested. He left separately and later “got
the paperwork” for Chester's case. That night, Poe cut off his
electronic monitoring bracelet.
Two days later, on April 12, Chester spoke to a woman on the
phone while he was detained at Kankakee County Jail. The

conversation was recorded. Chester told the woman that “[a]
motherfucker wore a wire on me in 2011. He was working
with the Feds.” The following day, Chester spoke to Poe
in coded language. They referenced catching someone who
would end up dead. Chester told Poe, “They coming with
some other shit and god damn it, probably real soon.”
On April 14, Daniels was in the passenger seat of a car driven
by his girlfriend, Shanice Peatry. Their children were in the
back seat. Peatry testified that after she parked the car in
front of their apartment, Poe walked toward them. He began
shooting at the driver's seat, but then he turned his aim to
Daniels in the passenger seat as he got closer. To try to protect
his family from the gunfire, Daniels jumped out of the car.
He was knocked over by bullets. Poe walked even closer,
stood over Daniels, and then fired additional bullets at him.
Peatry testified that Poe's face was covered by something
black, but she was able to recognize his eyes, dreadlocks, and
his distinctive gait.
After Poe left, Peatry called 911. She knew Poe from previous
interactions and identified him repeatedly: in the 911 call, a
post-incident photo array, and at trial. She also told the 911
operator that Poe's getaway car was a gold Trailblazer. Some
evidence indicated that a second person was driving the car
and may also have fired at Daniels.
Surveillance footage corroborated Peatry's testimony. It
showed a tan SUV driving in the area of Daniels's apartment
at 7:27 and at 7:43 in the evening. Peatry called 911 at 7:44
p.m. A neighbor testified that she heard gunshots and then saw
a tan SUV driving away from the scene. At 8:19 p.m., Chester
spoke to a woman on the phone, asking if she heard from Poe.
She said that she had not, and Chester told her, “He didn't
even have to do that.” Chester said that it “was crazy” but he
“understand[s] too” because it was“[b]etter [to] be safe than
sorry.” An hour later, Chester spoke to an unidentified man.
The man told Chester, that they “got it under control. That's
all you need to know.” The man also referenced Poe pulling
up in a “lil’ Trailblazer truck.” Chester said, “Played me like
a straight bitch,” and the man replied, “you know what you
got to resort to.” After the murder Poe left Chicago, switching
hotels frequently. He also cut his dreadlocks. The FBI arrested
him on May 2, 2013.
In addition, the government produced evidence from other
sources. FBI Special Agent Bryant Hill testified that,
consistent with Peatry's 911 call, he had seen Poe walk with
a limp on several occasions. Zentmyer, Poe's cellmate and

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 22

United States v. Brown, 973 F.3d 667 (2020)

a jailhouse lawyer, testified that Poe admitted that he killed
Daniels because Daniels was going to testify against Chester
in a heroin case. Poe said he cut off his electronic monitoring
band, went to Dolton, and shot Daniels in front of his kids and
girlfriend. Last, the *694 day after the murder Council spoke
to his (and Daniels's) mother on the phone. Council's mother
told him that Daniels had been killed and Council replied,
“[W]hat that boy doin’... he can't do that in the street ...I ain't
shed a tear.”

Poe tried to point the finger at other possible perpetrators:
Ricky Royal and Lamar Murphy. He notes that Royal and
Murphy had greater reason to fear Daniels's cooperation
than he did. Daniels had never committed any crimes with
Poe, but he had committed a home invasion, robbery, and
kidnapping with Murphy and Royal. Additionally, Peatry had
seen Daniels meet with Murphy and Royal while Daniels was
cooperating. Peatry testified that on the day he was killed,
Daniels received a text message from his cousin warning him
that two people from “out west” were planning to kill him.
[24]
[25] To sustain a conviction under section 1503’s Royal and Murphy were from the west side; Poe was not. Poe
catchall provision, “the government must prove: (1) a judicial
also argues that in the recorded calls between Chester and the
proceeding was pending; (2) the defendant knew of the
unknown male, the unknown male was Murphy, indicating
proceeding; and (3) the defendant corruptly intended to
his connection to the murder.
impede the administration of that proceeding.” Torzala v.
[26] Once again, the choice between Poe's version of these
United States, 545 F.3d 517, 522–23 (7th Cir. 2008). A
events and the government's was for the jury. Its conclusion
grand jury investigation can constitute a pending judicial
that Poe killed Daniels was adequately supported by the trial
proceeding. United States v. Aguilar, 515 U.S. 593, 599, 115
evidence. It was the jury's prerogative to credit both Peatry's
S.Ct. 2357, 132 L.Ed.2d 520 (1995).
and Zentmyer's testimony. Peatry identified Poe in her 911
call and testified that she recognized Poe's eyes, dreadlocks,
Poe argues that there was insufficient evidence that he
and gait. Zentmyer added details of the murder that were
murdered Daniels. He emphasizes that there was no physical
not in the complaint or the news, such as that Daniels was
evidence linking him to the murder—no DNA, fingerprints,
murdered in Dolton, that Daniels was Council's brother, and
or trace evidence. Poe also asserts that he did not confess
that Daniels's girlfriend and children saw the murder. As for
any crimes to Zentmyer. Instead, Zentmyer came up with his
the other possible perpetrators, in the recorded jail *695
story by researching the charges against Poe using publicly
calls, Chester spoke to a woman, asking for Poe and telling her
available case documents, newspapers, television programs,
that “he” “didn't even have to do that,” seemingly referring
and Poe's discovery materials. In fact, Poe argues, Zentmyer
to Poe. In addition, the jury may reasonably have questioned
claimed that Poe bragged about personally shooting and
why Poe cut off his electronic monitoring bracelet, fled
killing a man in a Range Rover in front of a funeral home.
Chicago, cut his distinctive dreadlocks, and moved from hotel
This was a reference to the Bluitt/Neeley murders, but it is
to hotel. Juries are “permitted to consider flight as evidence of
undisputed that Poe was in custody when they occurred.
consciousness of guilt and thus of guilt itself.” United States
v. Starks, 309 F.3d 1017, 1025 (7th Cir. 2002).
Realizing that Peatry's testimony stands in his way, Poe
attempts to discount her account. Poe contends that Peatry
Poe follows up with an attack on the sufficiency of the
was in a romantic relationship with Arsenio Fitzpatrick and,
evidence to show that, in killing Daniels, he intended to
in the ten days leading up to Daniels's death, she had contacted
obstruct a pending judicial proceeding. This is a more difficult
Fitzpatrick more than 1,000 times by call and text. Shortly
question.
after Daniels was killed, she deleted all her text and call
records from her phone. Peatry's affair and the timing of those
Three judicial proceedings bear on Count 6: the grand jury's
deletions, Poe contends, was suspicious. Poe also highlights
investigation into Chester and Dillard; the drug charges that
the fact that Peatry did not initially tell law enforcement that
were brought against Chester and Dillard; and the grand jury's
the shooter was wearing a mask, making them think she could
RICO investigation. The government argues that there was
clearly identify the shooter. Moreover, at trial, she testified
sufficient evidence that Poe was aware of both Chester's case
for the first time that she identified Poe as the shooter based
and the ongoing grand jury investigation.
primarily on his gait. She never mentioned this to the police
or the grand jury.
As evidence that Poe knew about the grand jury's RICO
investigation, the government points to the conversation

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 23

United States v. Brown, 973 F.3d 667 (2020)

between Chester and Poe in which they talked about “some
other shit” coming “real soon.” It argues that the jury in the
present case could conclude that this statement was a coded
reference to the grand jury's proceedings. The government
also notes that when Zentmyer was helping Poe with his
legal issues, Zentmyer wrote a note asking, “Was confidential
source working for state or state prosecution?” Poe crossed
out “state” and wrote “federal” and “joined [sic] task, state
and federal.”
In addition, the government argues, Poe was aware of the
more immediate federal drug charges against Chester. Fellow
Hobo Binion was present when the FBI arrested Chester,
and then there was a lengthy discussion about Daniels and
Chester's arrest among the Hobos. Poe absconded the night of
Chester's arrest, even though his parole was about to expire,
indicating that he learned about the arrest from Binion or
another Hobo. And Poe spoke to Chester while he was in
custody, confirming that Poe knew Chester had been arrested.
Binion went to federal court after the arrest to get copies of
the “paperwork” in Chester's case.
In response to all this, Poe admits that he knew that Chester
was in jail, but he says that he was unaware of the charges
against Chester, let alone that they were federal. With respect
to the grand jury investigation, Poe asserts that, at most, he
was informed that charges were coming, but that he was
unaware of any ongoing federal grand jury investigation.
[27] We agree with Poe that the evidence supporting
a finding that he knew about the grand jury's RICO
investigation was weak. Although Poe may have known
the FBI was investigating the Hobos as an enterprise, “it
is not enough that there be an intent to influence some
ancillary proceeding, such as an investigation independent of
the court's or grand jury's authority.” Aguilar, 515 U.S. at 599,
115 S.Ct. 2357. It is speculative at best that Poe knew that the
investigation had reached the level of a grand jury.
[28] Nevertheless, there was sufficient evidence to allow a
rational jury to find that Poe knew about the pending federal
drug charges against Chester. Poe spoke to Chester while he
was in custody, and so he knew Chester had been arrested.
Chester was aware that Daniels had been working with
federal agents. In a recorded call before Daniels's murder,
he said “A motherfucker wore a wire on me in 2011. He
was working with the Feds.” A jury could *696 infer other
Hobos also knew Daniels was working with federal agents
and knew there would be federal charges against Chester.

In addition, Zentmyer testified that Poe admitted to killing
Daniels because he was going to testify against Chester. When
asked why Poe committed the murder, Zentmyer stated: “He
said that this guy [Daniels] had made heroin buys off of
Bowlegs [Chester]. And that's what Bowlegs was in custody
for, and this was the main guy to testify against Bowlegs.”
This is enough to support the district court's decision to deny
Poe's motion for acquittal on Count 6.

G. Count 7 – Robbery of Collections store
[29] Count 7 charged Council with aiding and abetting the
use, carrying, or brandishing of a firearm during the robbery
of the Collections store, in violation of 18 U.S.C. § 924(c).
“[T]o convict a defendant of a § 924(c) violation as an
accomplice, the government must prove that he had advance
knowledge of his collaborator's plan to use or carry a gun
during the commission of the crime.” Farmer v. United States,
867 F.3d 837, 841 (7th Cir. 2017). Council concedes that
he was present during the robbery, but he contends that the
government failed to show that he had advance knowledge
that his accomplices would use firearms.
[30] This time, we have no trouble finding ample evidence
to support the conviction. At trial, Bland testified that he,
Ahmad Hicks, and Pierre Skipper were sitting in a vehicle
with firearms on their laps, when Council approached them.
Council suggested that they rob Collections, and, after they
agreed, Council passed out masks and laundry bags. The four
of them entered the store together. According to Bland, during
the robbery, Hicks had his firearm “upped,” meaning it was
visible in his hand. Once inside the store, Council and Skipper
gathered expensive jackets and other clothes while Hicks
and Bland moved the store's employees to a backroom at
gunpoint. Store employees testified that as they were moved,
they saw a gun in one robber's sleeve and another robber
carrying one in his hand.
Council argues that Bland's testimony does not suffice. He
emphasizes that Bland testified at trial in order to reduce
his sentence and that inconsistencies plagued his testimony.
Originally, Bland told law enforcement that he did not know
anything about the guns used during the robbery. Then he
testified that they were not his guns. Then he testified that the
guns belonged to Hicks and Skipper, only later to testify that
the guns belonged to Hicks, but that Hicks gave him one gun
that he held for a minute and then returned.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 24

United States v. Brown, 973 F.3d 667 (2020)

In addition to these problems, Council highlights the
inconsistencies between Bland's testimony at trial and his
testimony before the federal grand jury. Bland told the grand
jury that just before the robbery, when Council approached
the car, he asked the group if they had weapons on them and
they said yes. At trial, however, Bland testified that the guns
were already sitting on their laps when Council approached.
These are minor or easily explained discrepancies. Regardless
of whether Council asked his coconspirators about guns or
merely saw guns on their laps, the evidence showed that he
had advance knowledge of the guns. And although Bland's
statements about who owned the guns were inconsistent,
Council's advance knowledge did not depend on who owned
the weapons. More importantly, Bland's testimony about
other details, such as the make and model of the guns, was
consistent. It was the jury's job to unravel whatever *697
discrepancies or credibility issues Bland presented.
It appears likely that the jury credited Bland's testimony
because it was corroborated by the video captured by
Collections’ security cameras. The footage shows the robbers
entering the store and Bland and Hicks carrying guns. The
employees were herded to the back of the store while Council
was gathering jackets and other clothing items. As the district
court noted, “[n]o physical force was used to compel the
employees ... which is consistent with testimony that guns
were used to gain their swift compliance. With such an orderly
process, the jury could reasonably infer from the videotape
that using guns was part of the plan from the start.”
The evidence was therefore sufficient for the jury's guilty
verdict on Count 7. Based on the same evidence, we also
reject Council's related argument that the evidence failed to
support the jury's special finding that in the course of the
robbery he aided and abetted the “brandishing” of a firearm
(as opposed to using or carrying one).
We also briefly address, though it is not a sufficiency
argument, Council's other challenge to Count 7. The predicate
offense for this section 924(c) charge was robbery affecting
commerce in violation of 18 U.S.C. § 1951(a) (Hobbs Act
robbery). “Robbery” under the Hobbs Act is defined as “the
unlawful taking or obtaining of personal property from the
person or in the presence of another, against his will, by means
of actual or threatened force, or violence, or fear of injury,
immediate or future, to his person or property, or property
in his custody or possession, or the person or property of a

relative or member of his family or of anyone in his company
at the time of the taking or obtaining.” 18 U.S.C. § 1951(b).
[31] Council contends that Hobbs Act robbery is not a
crime of violence under 18 U.S.C. § 924(c)(3)(A) because
it is possible to commit this type of robbery without the
use or threatened use of force. We have squarely rejected
this argument. United States v. Rivera, 847 F.3d 847, 849
(7th Cir. 2017) (“Because one cannot commit Hobbs Act
robbery without using or threatening physical force, ... Hobbs
Act robbery qualifies as a predicate for a crime-of-violence
conviction.”). Alternatively, Council contends that even if
Hobbs Act robbery is a crime of violence, an inchoate offense
such as aiding and abetting does not qualify as a crime of
violence. Again, the rule is otherwise for inchoate offenses.
See Hill v. United States, 877 F.3d 717, 719 (7th Cir. 2017)
(attempted crimes); United States v. García-Ortiz, 904 F.3d
102, 109 (1st Cir. 2018) (aiding and abetting); United States
v. Grissom, 760 F. App'x 448, 454 (7th Cir. 2019). We thus
reject both of these legal challenges to Council's conviction
on Count 7.

H. Count 9 – Possession with Intent to Distribute
[32] This time we address one of Ford's convictions: one
for possession of marijuana with the intent to distribute it,
in violation of 21 U.S.C. § 841(a)(1). In February 2013,
during a lawful search of Ford's residence, CPD officers
found approximately 50 plastic baggies of user quantities of
marijuana, totaling 10.6 grams. The baggies were divided
among five larger bags, which were, in turn, put into one bag.
Two witnesses, an FBI agent (testifying as an expert) and a
CPD officer, testified that the marijuana was packaged for
distribution.
There are three elements required for a conviction under 21
U.S.C. § 841(a)(1): (1) knowing or intentional possession
of a substance with (2) the intent to distribute it, and (3)
knowledge that the material is a *698 controlled substance
—here, marijuana. United States v. Campbell, 534 F.3d 599,
605 (7th Cir. 2008). Ford does not dispute that the baggies
of marijuana were his, or that he knew they contained
marijuana. He contends only that the evidence of intent to
distribute fell short. He emphasizes that the government never
detailed whether the 50 baggies contained different quantities
of marijuana and whether some were empty. Nor did the
government present any evidence of scales, wrappers, or
money, items typically surrounding drug dealing.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 25

United States v. Brown, 973 F.3d 667 (2020)

This evidence permitted the jury to conclude that Ford
intended to distribute the marijuana. United States v. Bernitt,
392 F.3d 873, 879 (7th Cir. 2004) (“[T]he quantity and
packaging of drugs ... can be sufficient to support the
inference of an intent to distribute.”). The FBI agent's
expert testimony confirmed that the marijuana was packaged
for distribution. And Ford's own statements reinforce the
conclusion that he intended to distribute the marijuana. In a
recorded conversation between Ford and Todd, Ford stated
that although he did not “smoke weed” himself, he was going
to get a pound of “kush” (marijuana) to sell once he was
released from prison. No more was necessary.
We also briefly comment on Ford's contention that he should
not have been tried at all in the case as a whole, because
he was not named in the Second Superseding Indictment.
Ford was charged in four counts of the Superseding
Indictment: Count 1 (racketeering conspiracy), Count 8 (felon
in possession of a firearm), Count 9 (possession with intent
to distribute marijuana), and Count 10 (possession of a
firearm in connection with the marijuana offense). In the same
indictment, Ford's co-defendant, Poe, was charged in Count
6 for obstruction of justice.
About one week before trial, Poe moved to dismiss Count
6, on the ground that it failed to allege the obstruction of a
specific pending judicial proceeding. The grand jury speedily
returned a Second Superseding Indictment against only Poe.
The Second Superseding Indictment cured the deficiency Poe
had mentioned by alleging the specific judicial proceedings
that were obstructed.
During jury selection, Ford's counsel requested clarification
of “[w]hat indictment” was the subject of trial. The
district court answered that the trial was proceeding on the
Superseding Indictment, with the exception of Count 6, as
to which Second Superseding Indictment replaced the earlier
version of Count 6 with a new Count 6. A week into trial,
Ford asked the district court to dismiss him from the case.
He argued that the Second Superseding Indictment nullified
the Superseding Indictment and, because he was not named
in the Second Superseding Indictment, there were no longer
charges pending against him. He argued that the government
was required to select only one indictment on which to
proceed to trial. The district court denied the motion, rejecting
“the premise that a superseding indictment wholly replaces
previous ones.” Ford now echoes this argument before us.

[33] We are not persuaded. First, Ford's motion came too
late, as it is among those that Federal Rule of Criminal
Procedure 12(b)(3)(B) requires to be raised before trial.
Second, it is not the case that “a superseding indictment zaps
an earlier indictment to the end that the earlier indictment
somehow vanishes into thin air.” United States v. Bowen,
946 F.2d 734, 736 (10th Cir. 1991). “An original indictment
remains pending prior to trial, even after the filing of a
superseding indictment, unless the original indictment is
formally dismissed.” *699 United States v. Yielding, 657
F.3d 688, 703 (8th Cir. 2011). Here, the government did
not move to dismiss the Superseding Indictment, and it was
entitled to proceed to trial against Ford on it. This objection
is meritless.

III
We now turn to the defendants’ challenges to the court's
rulings on the admission of evidence.

A. Forfeiture by Wrongdoing
[34] Bush, Chester, Council, Ford, and Derrick contend
that the admission of Keith Daniels's out-of-court statements
pursuant to the forfeiture-by-wrongdoing doctrine violated
their Sixth Amendment Confrontation Clause rights. Poe
joins this argument only to the extent that he asserts that
the district court erred in requiring the government to
prove the elements of forfeiture by wrongdoing only by a
preponderance of the evidence. The government argues that
Daniels's statements were properly introduced, and even if
they were not, any error was harmless. “Where the defendant's
Sixth Amendment right to confront witnesses is directly
implicated, our review is de novo.” United States v. Ochoa,
229 F.3d 631, 637 (7th Cir. 2000).
The Sixth Amendment's Confrontation Clause provides that
“[i]n all criminal prosecutions, the accused shall enjoy the
right ... to be confronted with the witnesses against him.”
U.S. Const. amend. VI. In 2004, the Supreme Court held that
the right to confrontation prohibits “admission of testimonial
statements of a witness who did not appear at trial unless he
was unavailable to testify, and the defendant ... had a prior
opportunity for cross-examination.” Crawford v. Washington,
541 U.S. 36, 53–54, 124 S.Ct. 1354, 158 L.Ed.2d 177 (2004).
Yet Crawford permits courts to admit testimonial statements
“where an exception to the confrontation right was recognized

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 26

United States v. Brown, 973 F.3d 667 (2020)

at the time of the founding.” Giles v. California, 554 U.S. 353,
357, 128 S.Ct. 2678, 171 L.Ed.2d 488 (2008).
[35] One such exception is common-law forfeiture by
wrongdoing. Codified in Federal Rule of Evidence 804(b)
(6), the forfeiture-by-wrongdoing doctrine allows testimonial
statements to be admitted, even if unconfronted, when
the defendant's own conduct caused the declarant to be
unavailable at trial. Rule 804(b)(6) describes this as “[a]
statement offered against a party that wrongfully caused
—or acquiesced in wrongfully causing—the declarant's
unavailability as a witness, and did so intending that result.”
Giles requires the government to prove that the defendant's
actions were undertaken for the purpose of preventing the
witness from testifying. 554 U.S. at 367–68, 128 S.Ct. 2678.
[36] At trial, the government sought to admit Daniels's outof-court statements—his grand jury testimony—against all
the defendants, not just against Poe (the person who directly
caused Daniels's unavailability by murdering him). It argued
that it could do so under the theory of liability recognized
in Pinkerton v. United States, 328 U.S. 640, 66 S.Ct. 1180,
90 L.Ed. 1489 (1946). Pinkerton provides that a person is
liable for an offense committed by a coconspirator when its
commission is reasonably foreseeable to that person and is
in furtherance of the conspiracy. Id. at 647, 66 S.Ct. 1180.
According to the government, “[i]t would make little sense to
limit forfeiture of a defendant's trial rights to a narrower set
of facts than would be sufficient to sustain a conviction and
corresponding loss of liberty.” United States v. Cherry, 217
F.3d 811, 818 (10th Cir. 2000).
The district court agreed with the government, relying on
United States v. Thompson, 286 F.3d 950 (7th Cir. 2002).
In Thompson, we stated that under *700 Federal Rule of
Evidence 804(b)(6), a defendant who “acquiesces in conduct
intended to procure the unavailability of a witness” waives
his hearsay objection. Id. at 964. We noted that by using the
term “acquiesce,” the drafters of Rule 804(b)(6) expressed an
intent to allow for the imputation of waiver. Id. Therefore, “if
a murder is reasonably foreseeable to a conspirator and within
the scope and in furtherance of the conspiracy, the conspirator
waives his right to confront that witness just as if he killed the
witness himself.” Id. at 963. “Without a rule of coconspirator
waiver, the majority of the members of a conspiracy could
benefit from a few members engaging in misconduct. Such
a result is at odds with the waiver-by-misconduct doctrine's
equitable underpinnings.” Id. at 964.

The defendants, however, argue that the decisions in
Crawford and Giles have undermined Thompson’s approach,
and that their holdings rule out the use of Pinkerton to
impute waiver of a defendant's Sixth Amendment right to
confrontation under the forfeiture-by-wrongdoing concept.
They note, accurately, that courts did not recognize Pinkerton
liability at common law; from that, they conclude that any
exception to the confrontation right based on Pinkerton was
not recognized at the founding. The defendants also contend
that Pinkerton is inconsistent with Giles’s requirement that
forfeiture of confrontation rights occurs only if the defendant
acts with the specific purpose of precluding the witness's
testimony.
Several of our sister circuits have found, post-Crawford,
that Pinkerton liability allows the admission of testimonial
statements under a forfeiture-by-wrongdoing theory. They
permit the inference of waiver for coconspirators who
reasonably could foresee that a fellow conspirator would
engage in premeditated murder in furtherance and within the
scope of the conspiracy. See United States v. Cazares, 788
F.3d 956, 975 (9th Cir. 2015) (“The district court should have
articulated that the ... murder was within the scope of and
in furtherance of the conspiracy, and that the murder was
reasonably foreseeable to the defendants other than Martinez
and Avila so that the forfeiture by wrongdoing doctrine
applied to all who had ‘acquiesced in wrongfully causing—
the declarant's unavailability.’ ”); United States v. Dinkins,
691 F.3d 358, 386 (4th Cir. 2012) (“We conclude that the
district court properly admitted the ... hearsay statements
against [the defendant who did not commit the murder] under
the forfeiture-by-wrongdoing exception to the Confrontation
Clause pursuant to Pinkerton principles of conspiratorial
liability.”); United States v. Carson, 455 F.3d 336, 364 (D.C.
Cir. 2006) (“[T]he reasons why a defendant forfeits his
confrontation rights apply with equal force to a defendant
whose coconspirators render the witness unavailable, so long
as their misconduct was within the scope of the conspiracy
and reasonably foreseeable to the defendant, as it was here.”).
But these cases do not analyze whether Pinkerton liability was
recognized at common law, and so we are reluctant to jump
onto that bandwagon.
Pinkerton itself was not decided until 1946, and it was
controversial from the outset. One scholar had this to say
about it:
In the years following Pinkerton, the decision was almost
universally condemned by the academic community. And,
although no statistics exist, Pinkerton liability appears to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 27

United States v. Brown, 973 F.3d 667 (2020)

have been rarely utilized until the 1970's. Indeed, in 1962
the drafters of the Modal Penal Code rejected Pinkerton
liability and by 1972, LaFave and Scott's influential
Handbook on Criminal Law declared that the *701
Pinkerton rule had never gained broad acceptance.
Alex Kreit, Vicarious Criminal Liability and the
Constitutional Dimensions of Pinkerton, 57 Am. U. L. Rev.
585, 597−98 (2008) (quotation marks and citations omitted).
Rule 804(b)(6) was codified in 1997, long after the ratification
of the Sixth Amendment in 1791. In the 18th century, criminal
liability was generally limited to those who acted as principals
or those who aided and abetted. Under a strict reading of
Crawford and Giles, it seems that Thompson may no longer
be good law.

Chester took some of the proceeds. On another occasion,
Chester told Daniels he was planning a robbery. Daniels
also saw Chester with $100,000 cash. As for gang rivalries,
Daniels identified the Hobos’ conflict with the Met Boys,
which started when Jones stole marijuana and was shot. The
Hobos also had a feud with the Mickey Cobras.

[37] This is an important question, but it is one that we
can save for another day. Our problem is a simple one:
was one conspirator acting as the agent for the others,
while acting within the scope of the conspiracy? If yes,
then ordinary agency principles suggest that the act can be
attributed to all of them. Moreover, we are confident that
any error in admitting Daniels's out-of-court statements was
harmless. “[C]onstitutional error that is harmless will not
cause an otherwise valid conviction to be set aside. ... The
test is whether the reviewing court can determine beyond
a reasonable doubt that the error did not contribute to
the verdict.” Ochoa, 229 F.3d at 639–40 (internal citation
omitted).

Overall, what remained after the district court's redactions
was information that was largely duplicated by other
witnesses. Daniels's grand jury statements provided general
information about the Hobos and their criminal activity. There
is no meaningful chance that they contributed to the jury's
verdict. Our finding that any error that may have occurred in
their admission was harmless makes it unnecessary for us to
address some related arguments, namely, whether the court
erred in applying a preponderance of the evidence standard
to the elements of forfeiture by wrongdoing, or whether there
was insufficient evidence *702 to establish that Chester
participated in or conspired to murder Daniels in order to
prevent his testimony at trial.

The statements at issue came from Daniels's grand jury
testimony. The defendants objected to the admissibility of
certain passages on various grounds, such as a failure
to indicate the basis of Daniels's personal knowledge.
The district court conducted a line-by-line review, excised
substantial portions of the testimony, and admitted the
remainder.
The jury heard that Daniels testified before the grand jury on
April 4, 2013, and offered the following information. Council
is his older brother. Daniels was familiar with the Hobos
through Council and others. Chester was the leader of the
Hobos, and Council, Poe, Bush, and Ford were members. The
Hobos had a hand sign, and “Hobo” was stitched on some
members’ cars’ headrests. Council sold drugs in the Robert
Taylor Homes, and Bush and Stanley also sold drugs.
Daniels also mentioned robberies and rivalries. He stated
that the Hobos committed robberies together. Daniels himself
participated in one that Chester had arranged. Afterwards,

Daniels also testified that he accompanied Chester when he
bought a loaded firearm for Poe, and Chester told him that
Chester was trying to get as many guns as possible. Poe told
Daniels he planned to kill a BD, and Ford told Daniels he and
Brandon Brown were part of the group that shot up the funeral
home. Daniels discussed his drug transactions with Chester
and Dillard.

B. Guilty Pleas
[38] Bush, Chester, Council, Ford, Poe, and Derrick argue
that the district court should not have admitted their guilty
pleas to underlying racketeering activity (such as murders,
robberies, and narcotics activity) that was part of the
enterprise and for which defendants were prosecuted in state
court. In allowing the evidence, the court relied on the dualsovereign doctrine, which permits the federal government to
prosecute a defendant under a federal statute even if a state
has prosecuted him for the same conduct under state law.
The defendants ask us to overrule the dual-sovereign doctrine,
arguing that it violates the Double Jeopardy Clause of the
Fifth Amendment.
Their effort to preserve this issue for possible Supreme Court
review made sense at the time, but events have outstripped
them. After the defendants filed their briefs, the Supreme
Court addressed dual sovereignty and held that the doctrine is

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 28

United States v. Brown, 973 F.3d 667 (2020)

consistent with the text of the Fifth Amendment, its history,
and “a chain of precedent linking dozens of cases over 170
years.” Gamble v. United States, ––– U.S. ––––, 139 S. Ct.
1960, 1962–69, 204 L.Ed.2d 322 (2019). The district court
acted properly in admitting the guilty pleas.

C. Toolmark Analysis
Bush, Chester, Council, Ford, Poe, and Derrick argue that
the district court improperly admitted expert testimony
on toolmark analysis, allowing them to argue that “these
seemingly unrelated crimes were committed by the same
group of people.” At trial, the government called four firearms
experts: Illinois State Police firearms examiners Marc
Pomerance, Kurt Murray, and Aimee Stevens, and a scientist
with the FBI's Firearms-Toolmarks Unit, Rodney Jiggets.
Notably, the defendants do not challenge the qualifications of
any of these four experts. Rather, the defendants challenge
only the reliability of toolmark analysis as a discipline for
expert testimony.
Pomerance testified that toolmark analysis, a discipline within
the forensic sciences, is used to determine whether a bullet or
casing was fired from a particular firearm. It can also be used
to determine whether two bullets or casings were fired from
the same firearm. An examiner can make these determinations
by looking through a microscope to see markings that are
imprinted on the bullet or casing by the firearm during the
firing process. Firing pins impart marks, and scratches are
made as the bullet travels down the barrel.
These markings are either (1) “class characteristics,”
which are features that a group shares, (2) “sub-class
characteristics,” which are shared by a subset of items,
or (3) “individual characteristics,” which are microscopic
imperfections on the surface of the object that are unique to a
particular firearm. Firearms examiners can conclude that two
items, such as casings, were fired from the same firearm when
the class and individual characteristics of two items, such as
casings, match.
Pomerance examined 9mm cartridge casings that were
recovered from the area where Cordale Hampton and his
uncle were shot. He compared them to 9mm cartridge casings
from an October 2005 shooting. The individual characteristics
were the same on both, and so he determined that they were
fired by the same firearm. Pomerance also compared a 5.7 x
28mm cartridge casing from the Eddie Jones shooting to a

5.7 x 28mm cartridge casing from the Simmons shooting. The
markings matched.
*703 Murray found a match between 5.7 x 28mm casings
from the Jonte Robinson shooting and comparable casings
from the Simmons shooting. Murray also found that a FN
firearm seized from Bush's storage locker fired the cartridge
casings from the Eddie Jones shooting. Stevens found a
match between .40 caliber cartridge casing from the Wilber
Moore murder and the same type from the October 2005
shooting. Jiggets testified that the .45 caliber cartridge casings
recovered from the Bluitt/Neeley murder scene matched
casings found at the Daniels murder scene. In response,
the defense called a forensic metallurgist, William Tobin,
who testified that toolmark identification lacks scientific
foundation.
The defendants argue that the district court erred in
denying their motions to exclude this toolmark evidence on
reliability grounds. Federal Rule of Evidence 702 governs
the admissibility of expert testimony. Under Rule 702, if
“scientific, technical, or other specialized knowledge will
help the trier of fact,” then “a witness who is qualified as an
expert by knowledge, skill, experience, training, or education
may testify in the form of an opinion ... .”
[39]
[40] A district court “holds broad discretion in
its gatekeeper function of determining the relevance and
reliability of the expert opinion testimony.” Krik v. Exxon
Mobil Corp., 870 F.3d 669, 674 (7th Cir. 2017). We use a
two-step standard of review where a defendant challenges a
district court's admission of expert testimony. United States
v. Johnson, 916 F.3d 579, 586 (7th Cir. 2019). First, we
consider de novo whether the district court properly applied
the Rule's framework. If so, we review the ultimate decision
to admit or exclude the evidence only for abuse of discretion,
understanding that the district court abuses its discretion only
when no reasonable person could take the court's view. Id. at
586–87.
Although it is hard to show abuse of discretion, the defendants
urge that it occurred in this instance when the district court
found that the toolmark analysis is sufficiently reliable. They
assert that the “premise underlying the field of firearms
analysis—that no two firearms will produce the same
microscopic features on bullets and cartridge cases—[i]s,
at best, an unproven hypothesis.” They also complain that
there are no objective, quantitative standards for determining
whether two ammunition components “match.”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 29

United States v. Brown, 973 F.3d 667 (2020)

The defendants’ argument has respectable grounding. It is
based largely on a report issued by the President's Council
of Advisors on Science and Technology (PCAST). The
report states that the “foundational validity can only be
established through multiple independent black box studies,”
and it identifies only one such study, the Ames Study.
According to PCAST, the other available studies could not
estimate the reliability of firearms analysis because they
employed “artificial designs that differ[ed] in important ways
from the problems faced in casework,” which “seriously
underestimate[d] the false positive [match] rate.” Ultimately,
the PCAST report found that firearms analysis “[fell] short
of the criteria for foundational validity.” The defendants also
emphasize that even the Ames Study had not been published
or subject to peer-review at the time of trial. Moreover,
they contend, the government's experts misled the jury by
testifying about the Ames Study's error rate, because that
rate is not representative of the “entire discipline of firearms
analysis.”
[41] The defendants brought the PCAST report to the district
court's attention, but the district court chose not to give
it dispositive effect, and that choice *704 was within its
set of options. See General Electric Corp. v. Joiner, 522
U.S. 136, 142–43, 118 S.Ct. 512, 139 L.Ed.2d 508 (1997)
(appellate review of expert-evidence rulings is only for abuse
of discretion). Rule 702(c) requires testimony to be “the
product of reliable principles and methods.” Courts frequently
look to Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579, 113 S.Ct. 2786, 125 L.Ed.2d 469 (1993), which the
Rule largely reflects, to assess that point. Under Daubert, to
determine reliability, a court considers whether the theory or
technique has been (1) tested, (2) subjected to peer review and
publication, (3) analyzed for known or potential error rate,
and (4) generally accepted within the specific scientific field.
Daubert, 509 U.S. at 592–94, 113 S.Ct. 2786.
[42] Taking these criteria into account, the district court
found the toolmark evidence was admissible. It noted that
the Association of Firearms and Toolmark Examiners (AFTE)
methodology used by the government's witnesses had been
“almost uniformly accepted by federal courts.” See, e.g.,
Cazares, 788 F.3d at 989. The AFTE method has been tested
and subjected to peer review. Three different peer-reviewed
journals address the AFTE method, and several reliability
studies have been conducted on it. Although the error rate of
this method varies slightly from study to study, overall it is
low—in the single digits—and as the district court observed,

sometimes better than algorithms developed by scientists. The
court also noted that firearm and toolmark analysis is widely
accepted beyond the judicial system.
The district court used the methodology prescribed by the
Rule, and we see no abuse of discretion in its application
of these principles. Almost all the defendants’ contentions
were issues that could be raised on cross-examination.
These arguments go to the weight of the evidence, not
its admissibility. Expert testimony is still testimony, not
irrefutable fact, and its ultimate persuasive power is for the
jury to decide.

D. Recorded Conversations
Chester, Council, Bush, Poe, Ford, and Derrick argue that
the district court erred in admitting Jodale Ford's recorded
conversations. Again, we review this ruling for abuse of
discretion. United States v. McGee, 408 F.3d 966, 981 (7th
Cir. 2005).
At trial, Chester called Jodale Ford (to whom we refer as
“Jodale” to avoid confusing him with his brother, defendant
William Ford) as a witness. Jodale was then in state custody
for murder and home invasion. Jodale contradicted most of
the elements of the government's case. He testified that he
did not rob a jewelry store with Chester, that there was no
Hobos gang, and that he was not a leader of the Hobos. On
cross-examination, Jodale testified that, while in prison, he
did not receive updates about the defendants and did not
send letters to Council. He also denied remembering anything
about Daniels's murder or receiving money from the Hobos
while in prison.
In rebuttal, the government sought to introduce some of
Jodale's jail calls. In these conversations, Jodale asked for
updates on some members of the Hobos and identified himself
as “Hobo.” Callers also gave Jodale information about the
Daniels murder.
The defense objected, arguing that they needed to confront
Jodale with the calls before they could be introduced as
prior inconsistent statements under Federal Rule of Evidence
613, which states: “Extrinsic evidence of a witness's prior
inconsistent statement is admissible only if the witness is
given an opportunity to explain or deny the statement and
an adverse *705 party is given an opportunity to examine
the witness about it, or if justice so requires.” Fed. R. Evid.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 30

United States v. Brown, 973 F.3d 667 (2020)

613(b). The government responded that it was not introducing
the calls under Rule 613.
Instead, it said, it was planning to introduce the calls under
Rule 608(b), which governs extrinsic evidence of conduct.
Rule 608(b) forbids the use of such evidence to attack a
witness's character for truthfulness, but it allows its admission
on cross-examination if the conduct “[is] probative of the
character [of the witness] for truthfulness or untruthfulness.”
The government argued that Jodale's phone calls, i.e., his prior
conduct, was evidence that contradicted his testimony that he
had no relationship to the Hobos.

Chester argues that the district court erroneously admitted
statements he made on October 22, 2008, when the police
stopped a car in which he was a passenger, took him to the
station, and questioned him. He argues that the officers who
stopped him did not have probable cause.

On June 26, 2008, the FBI and CPD executed a search of an
apartment at 1221 North Dearborn Street in Chicago, pursuant
to a search warrant. The officers found 99.6 grams of heroin.
Four months later, on October 22, some of the officers who
had been involved in the Dearborn search headed to Shark's
Fish & Chicken. When Binion and Chester's vehicle pulled
out of the restaurant's parking lot, the officers stopped it, took
[43] [44] [45] We have explained the difference between Chester to a CPD facility, and interviewed him. After Chester
waived his Miranda rights, he made incriminating statements.
Rules 608(b) and 613 this way:
In our view, Rule 613(b) applies when two statements, one
made at trial and one made previously, are irreconcilably
at odds. In such an event, the cross-examiner is permitted
to show the discrepancy by extrinsic evidence if necessary
—not to demonstrate which of the two is true but,
rather, to show that the two do not jibe (thus calling the
declarant's credibility into question). In short, comparison
and contradiction are the hallmarks of Rule 613(b)....In
contrast, Rule 608(b) addresses situations in which a
witness’ prior activity, whether exemplified by conduct
or by a statement, in and of itself casts significant doubt
upon his veracity....So viewed, Rule 608(b) applies to a
statement, as long as the statement in and of itself stands as
an independent means of impeachment without any need
to compare it to contradictory trial testimony.
McGee, 408 F.3d at 982 (quoting United States v.
Winchenbach, 197 F.3d 548, 558 (1st Cir. 1999)). Here,
no comparisons are necessary. The calls themselves cast
doubt on Jodale's testimony. Jodale testified that he knew
nothing about the Hobos and that he did not receive updates
on them while incarcerated. Yet the calls show Jodale
engaging in conduct that demonstrates his leadership within
the Hobos, including receiving updates on the Hobos and
giving directions. At any rate, any error in admitting the calls
was harmless. United States v. Olano, 507 U.S. 725, 734, 113
S.Ct. 1770, 123 L.Ed.2d 508 (1993). The calls were only a
small part of the evidence presented, and, quite frankly, we
suspect that it would have been more prejudicial if Jodale had
been required to explain the calls under Rule 613(b).

E. Chester's Motion to Suppress

Before trial, Chester moved to suppress his October 22
statements, arguing that they were the result of an illegal
detention that was not supported by probable cause. The
district court held a suppression hearing in June 2016
to explore the issue. Both *706 Chester and Binion
testified. They stated that they were pulled over, handcuffed,
and transported to the police station involuntarily. Officer
Sanchez testified about the stop, and both Sanchez and Agent
Hill testified about the interview that followed. Sanchez's
testimony was riddled with inconsistencies. As one example,
Sanchez provided inconsistent testimony about what led
officers to Shark's Fish. Originally, he stated that Agent Hill
had received a tip that Chester was engaging in criminal
activity there. Later, after reviewing a CPD report, he stated
that he had actually been the one to receive the tip.
As a result, the government filed a post-hearing brief in
which it abandoned any attempt to justify the stop based
on Sanchez's testimony. Instead, it argued that, regardless of
any subjective reasons for stopping Chester, the October stop
was lawful because it was supported by probable cause to
believe that Chester unlawfully possessed heroin on June 22,
2008. The district court agreed that the heroin found during
the Dearborn search provided probable cause to detain and
question Chester on October 22 and denied Chester's motion
to suppress.
At trial the jury thus heard Chester's incriminating statements.
During the interview, Chester had told officers that he was the
Hobos’ most successful drug dealer and that he robbed drug
dealers with other Hobos. Chester was shown photographs of
the seized heroin, and he did not deny that it was his. Chester

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 31

United States v. Brown, 973 F.3d 667 (2020)

had also offered to cooperate with law enforcement, but he
refused to testify publicly.

The short answer is that he offered no such testimony at the
suppression hearing. He did, however, testify at trial that he
[46] [47] [48] “Probable cause to make an arrest exists saw Chester in a Nissan's passenger seat. The Nissan was
initially parked in a parking lot, before it left and was then
when a reasonable person confronted with the sum total of
stopped by officers. The government asserts that we “may
the facts known to the officer at the time of the arrest would
consider trial testimony in reviewing a pretrial suppression
conclude that the person arrested has committed ... a crime.”
ruling.” United States v. Howell, 958 F.3d 589, 596 (7th
Venson v. Altamirano, 749 F.3d 641, 649 (7th Cir. 2014).
Contrary to Chester's contentions, it does not matter whether
Cir. 2020). Chester begs to differ and points out that in
the officers who stopped him did so with the intent of arresting
any event, Detective Brogan's testimony about whether he
him for the heroin found months earlier during the Dearborn
identified Chester before the detention of Binion's automobile
apartment search. The officers’ subjective intentions are
was ambiguous at best. Moreover, he argues, “it simply
irrelevant so long as there was probable cause to detain him
does not matter if Officer [B]rogan happened to identify Mr.
Chester before the stop,” because there is no evidence he
for any crime. See Devenpeck v. Alford, 543 U.S. 146, 154–
communicated such information to the arresting officer.
55, 125 S.Ct. 588, 160 L.Ed.2d 537 (2004). “What matters,
and all that matters, is whether the facts known to the arresting
[50] [51] The circumstances surrounding the stop of the
officers at the time they acted supported probable cause to
car are unclear. We ultimately need not wade through
arrest.” White v. Hefel, 875 F.3d 350, 357 (7th Cir. 2017).
the evidence, however, because any error in admitting
Here, the fact was that Chester had possessed almost 100
Chester's October 22 statements was harmless. “The test
grams of heroin. This supplied probable cause to arrest him.
for harmless error is whether, in the mind of the average
While some time had passed since the search and the arrest,
juror, the prosecution's case would have been ‘significantly
that “does not necessarily dissipate the probable cause for an
less persuasive’ had the improper evidence been excluded.”
arrest.” United States v. Haldorson, 941 F.3d 284, 291 (7th
United States v. Emerson, 501 F.3d 804, 813 (7th Cir. 2007).
Cir. 2019).
This trial lasted over four months, and the evidence of
[49] Chester argues that the police, particularly Officer Chester's guilt on Count 1 was overwhelming. The evidence
included Jones's testimony that Chester was the leader of the
Sanchez, did not have enough information to link the
Hobos and that Chester ordered other Hobos to distribute
drugs found at the Dearborn address to him. But there
drugs. Todd testified about Chester's role as a heroin supplier.
was evidence connecting him to the apartment. The search
Recorded conversations of Ford revealed Chester's role in
was based on information provided by Todd, who stated
the Hobos and certain robberies he committed. Jail calls also
that he had seen Chester with a gun in the apartment.
linked Chester to the Daniels murder. This is only some of
Surveillance officers saw Chester enter and exit the Dearborn
the relevant evidence. Although a person's own admissions
apartment building, and women who were present during the
may be powerful in front of a jury, there was too much
search identified Chester as the apartment's resident. As for
other evidence to find that the prosecution's case would have
Sanchez's knowledge specifically, the government contends
been significantly less persuasive had Chester's October 22
that collective knowledge of CPD, the agency he works for,
statements been excluded.
is imputed to him.
At oral argument, we were concerned with a different aspect
of what the arresting officers, particularly those who stopped
Binion's car, knew before they make the stop: how did they
know that Chester was a passenger in the car? Sanchez
had testified *707 about this aspect of the stop, but the
district court totally rejected his testimony as unreliable,
and the government concedes we cannot rely on him. We
therefore asked the parties to submit post-argument letters
under Federal Rule of Appellate Procedure 28 addressing
the question whether Detective Brogan, one of the officers
involved in stopping the car, covered this base.

F. In-Court Identifications of Derrick Vaughn
[52] Derrick argues that it was prosecutorial misconduct to
ask two government witnesses to identify him in court in the
presence of the jury. He did not object to the prosecutor's
statements at trial, however, and so we review his claim of
prosecutorial misconduct for plain error. Rosales-Mireles v.
United States, ––– U.S. ––––, 138 S. Ct. 1897, 201 L.Ed.2d
376 (2018). In order to establish plain error, a defendant must
show (1) “an error that has not been intentionally relinquished

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 32

United States v. Brown, 973 F.3d 667 (2020)

or abandoned;” (2) that was “clear or obvious;” (3) that
“affected the defendant's substantial rights,” meaning that
there is a “reasonable probability that but for the error,
the outcome of the proceeding would have been different;”
and (4) that “seriously affect[ed] the fairness, integrity, or
public reputation of the judicial proceedings.” Id. at 1904–05
(internal citations and quotation marks omitted).

a conspiracy,” lessening the risk of potential prejudice. Cf.
Zafiro v. United States, 506 U.S. 534, 539, 113 S.Ct. 933,
122 L.Ed.2d 317 (1993) (“[L]imiting instructions ... often will
suffice to cure any risk of prejudice.”).

At trial Detective Brogan testified about the joint federal
and state investigation of the Hobos. He described his
participation in the execution of a search warrant at a
residence associated with Bush. During this testimony,
Brogan was handed a photograph *708 that had been
confiscated during the search. The government asked Brogan
to identify the people in the photo. After identifying Poe both
in the photo and in court, Brogan identified Stanley. The
government asked if Stanley had a younger brother. Brogan
replied that he has two younger brothers, Ingemar Vaughn and
Derrick. The government asked Brogan to point out Derrick
in court. Brogan did so without a peep from the defense. The
government then asked Brogan to identify three additional
defendants (Bush, Chester, and Council) in the photograph
and in court.

[54]
[55] We now turn to sentencing, where we review
claims of procedural error de novo, United States v. Gill, 889
F.3d 373, 377 (7th Cir. 2018), and those about substantive
reasonableness for abuse of discretion. Id. at 378.

Maurice Perry, a Fifth Ward BD, was the second witness to
identify Derrick. He testified about the rivalry between the
Fifth Ward and the Dirty Low and mentioned that Stanley was
associated with the Dirty Low. Perry was asked if Stanley had
any brothers. Perry replied that he had two: “Boo [Ingemar]
and D-Block [Derrick].” Derrick stipulated to the in-court
identification that followed.
Derrick complains that these witnesses identified him as
Stanley's younger brother and then gave additional testimony
regarding events—including a double murder in Perry's case
—without ever mentioning Derrick again. He contends that
these identifications were extremely prejudicial in that they
encouraged the jury to find him guilty by association.
[53] We are not convinced that there was any prosecutorial
misconduct here. In any event, Derrick failed to establish
that any error affected his substantial rights. Rosales-Mireles,
138 S. Ct. at 1905. Derrick concedes that the in-court
identifications were accurate. In addition, the identifications
were only a small part of a four-month trial. The jury heard
plenty of evidence of his guilt beyond his familial association
to the Hobos. Moreover, the court instructed the jury that a
defendant is “not a member of a conspiracy just because he
knew and/or associated with people who were involved in

IV

A. Life Sentence Eligibility
Chester, Council, Bush, Ford, Poe, and Derrick argue that the
district court erred in sentencing them to more than 20 years in
prison on Count 1 (RICO conspiracy). Chester was sentenced
to 40 years and the other trial defendants were sentenced to
life. They contend that these sentences were improper because
the statutory maximum penalty that may be imposed upon
a defendant found guilty of RICO conspiracies is 20 years
unless the government proves the “violation is based on a
racketeering activity for which the maximum penalty includes
life imprisonment.” 18 U.S.C. § 1963(a). They argue the
government did not meet this burden.
These defendants’ violations were based on their participation
in murders in Illinois. As we noted briefly earlier, under
Illinois law first-degree murder is normally punishable by
a 20- to 60- year sentence. 720 ILCS 5/9-1(a); 730 ILCS
5/5-4.5-20(a). A life sentence is permissible, however, when
aggravating factors are present. Two aggravating factors are
relevant here: (1) where the murder was “... with intent to
prevent the murdered individual from testifying *709 or
participating in any criminal investigation or prosecution...,”
720 ILCS 5/9-1(b)(8), and (2) where the murder was
“committed in a cold, calculated and premeditated manner
pursuant to a preconceived plan, scheme or design to take
a human life by unlawful means, and the conduct of the
defendant created a reasonable expectation that the death of
a human being would result therefrom.” 720 ILCS 5/9-1(b)
(11).
The jury found that the murders of Bluitt, Neeley, Daniels,
Moore, and Anderson qualified as aggravating under at
least one of those two provisions. It also found that
each defendant's racketeering activity included at least one

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 33

United States v. Brown, 973 F.3d 667 (2020)

aggravated first-degree murder. The district court therefore
determined that the defendants were eligible for life
imprisonment.
[56] The defendants disagree. They argue that 18 U.S.C. §
1962(d) criminalizes the agreement to commit an act, not
the act itself. Looking for some symmetry, they contend
that the proper analogous state-law offense is conspiracy to
commit murder. Unfortunately for the defendants, however,
section 1963 requires that the “violation”—in this case,
the conspiracy—be “based on a racketeering activity for
which the maximum penalty includes life imprisonment.” The
defendants’ conspiracies were all based on murders for which
the maximum penalty includes life imprisonment.
The defendants also argue that the “categorical approach”
in Mathis v. United States, ––– U.S. ––––, 136 S. Ct.
2243, 195 L.Ed.2d 604 (2016), ought to apply in a RICO
prosecution. This would require us to discern a “generic”
definition of RICO's predicate offenses and then to limit the
government to generic murder, rendering life imprisonment
unavailable under Illinois law. This argument is not consistent
with the text of the statute. Section 1963 contemplates a
statutory enhancement when qualifying circumstances exist.
See United States v. Warneke, 310 F.3d 542, 549–50 (7th Cir.
2002) (affirming life sentences for RICO conspiracy based on
Illinois aggravated murder predicate).
[57] Next, the defendants argue that their enhanced sentences
were based on allegations not presented to, or found by,
the grand jury, in violation of the Presentment Clause of
the Fifth Amendment. U.S. Const. amend. V. They add that
the statutory enhancement is impermissible because the facts
increasing the statutory maximum were not alleged in the
indictment and proven beyond a reasonable doubt at trial, as
required by Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct.
2348, 147 L.Ed.2d 435 (2000).
An example helps to illustrate this argument. Count 1
charged the defendants with RICO conspiracy. It alleged
that the defendants engaged in murder and attempted
murder in violation of Illinois law. Paragraphs 8(r) and (s)
specified seven murders and five attempted murders that were
committed in aid of the enterprise. For instance, Paragraph
8(r)(i) alleged that the “murders committed by members and
associates of the enterprise in the conduct of the affairs of
the enterprise” included “[t]he murder of Wilbert Moore
by ARNOLD COUNCIL and PARIS POE.” The Notice of
Special Findings alleged that each of the murders identified

in Paragraphs 8(r)(i)-(iv) and 8(r)(vii) was committed in
a cold, calculated, and premeditated manner pursuant to
a preconceived plan. The Notice of Special Findings also
alleged that Moore and Daniels were murdered to prevent
their testimony or because they gave material assistance to
law enforcement. The Special Findings, to the extent the jury
made them, would make defendants eligible for enhanced
penalties. Using this example, the defendants *710 argue
that only Council and Poe had notice that the jury could return
a Special Finding against them, because they were the “named
defendants.”
We are not persuaded. In the example, every defendant was
placed on notice that the murder of Moore was committed by
Council and Poe to prevent his testimony, or because he gave
material assistance to law enforcement. Although Council and
Poe were the only “named defendants,” the other defendants
were placed on notice that the conspiracy—the RICO
violation—was based upon racketeering activity (Moore's
murder) for which the maximum penalty includes life
imprisonment. The indictment's identification in Paragraph
8(r) of specific coconspirators who committed particular
murders does not affect the potential coconspirator liability of
the remaining defendants.
[58] Chester individually argues that the government
constructively amended the superseding indictment by
improperly shifting from a solicitation theory to coconspirator
liability. At trial, the government argued that Chester's
racketeering activity included Bluitt's murder under a
Pinkerton theory of liability. Pinkerton liability need not be
specifically alleged in an indictment, and so there was no
constructive amendment.

B. Chester's Sentence
Recall that Chester faced federal drug charges stemming from
Daniels's controlled heroin buys. In that heroin case, (No. 13
CR 288 in the district court), Chester was convicted at trial of
two counts: (1) conspiracy to distribute and (2) knowingly and
intentionally distributing heroin. In July 2014 the Probation
Officer prepared a Presentence Investigation Report (“PSR”).
The PSR listed Chester's offense level as 26 and his criminal
history category as III, resulting in a Guidelines range of 78
to 97 months’ imprisonment. After the PSR was submitted,
the parties agreed to continue the heroin sentencing until the
conclusion of the RICO trial. The parties later agreed that
the heroin case would be transferred to Judge Tharp, who

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 34

United States v. Brown, 973 F.3d 667 (2020)

was presiding over the RICO trial, No. 13 CR 774, for joint
resolution.
On August 4, 2017, the district court conducted a joint
sentencing hearing for all defendants to calculate their offense
levels under the Sentencing Guidelines. For Chester, it
determined that his racketeering activity resulted in an offense
level of 51, reduced to 43 (the top level) and that his
Guidelines range and statutory maximum for the racketeering
offense was life imprisonment. The court did not explicitly
calculate the Guidelines range for Chester's heroin case.
Six days later, on August 10, the court conducted Chester's
sentencing hearing. It imposed a below-Guidelines sentence
of 40 years’ imprisonment in the racketeering case. In the
heroin case, the district court imposed a term of 20 years for
each of the two counts, which were to run consecutively to
each other and concurrently to the term of 40 years in the
racketeering case.
[59] Chester argues that the district court's imposition of a
sentence so far above the recommended Guidelines range in
the heroin case, without comment or explanation, was both
procedurally and substantively unreasonable. At sentencing,
district courts must calculate the Guidelines range, give the
defendant an opportunity to identify section 3553(a) factors
that might warrant a non-Guidelines sentence, and explain
its sentence in relation to the section 3553(a) factors. Gall v.
United States, 552 U.S. 38, 49–50, 128 S.Ct. 586, 169 L.Ed.2d
445 (2007); United States v. Dorsey, 829 F.3d 831, 836–37
(7th Cir. 2016).
*711 [60] The district court did not follow those steps for
the heroin case. This was plain error, especially considering
that the size of the departure from the recommended
Guidelines range and the lack of explanation. The government
contends that the court “dedicated almost 30 pages of
transcript to explaining why a 40-year sentence was necessary
and appropriate.” But this explanation was focused on
the racketeering conspiracy. The government also argues
that any error in sentencing Chester in the heroin case
was harmless because the sentence added no additional
time: it was concurrent to the 40 years’ imprisonment
on the racketeering count. But this rationale overlooks
possible future developments. Suppose that Congress passes
a retroactive statute that caps RICO conspiracy sentences at
30 years. That may seem unlikely now, but Congress has
passed other retroactive sentencing laws such as the Fair
Sentencing Act. Such a law would leave the 40-year heroin

sentence untouched. We therefore vacate Chester's sentence
in the heroin case, No. 13 CR 288, and remand for further
proceedings consistent with this opinion.

C. Stanley Vaughn's Sentence
Stanley was one of the few defendants who chose not
to go to trial. After he pleaded guilty to Count 1, the
RICO conspiracy, his case was severed from that of his codefendants. The government elected not to seek an enhanced
statutory sentence, and so Stanley proceeded directly to
sentencing.
On June 29, 2017, the Probation Officer prepared a PSR.
In calculating Stanley's offense level, Probation took the
position that his racketeering activity included participation
in (1) the Bluitt/Neeley murders; (2) the attempted murders of
Jonte Robinson, Cashell Williams, and Roosevelt Walker; and
(3) drug trafficking. Each of these was treated as a separate
group under Guideline § 3D1.1. The PSR calculated a total
offense level of 45, reduced to 43 pursuant to Guideline
§ 4B1.3. Stanley had a criminal history category of VI,
resulting in a Guidelines “range” of life imprisonment. This
was reduced to 20 years to reflect the statutory maximum.
At his sentencing hearing, Stanley objected to the
determination that his racketeering activity included the
murders, attempted murders, and drug trafficking mentioned
in his PSR. The court overruled his objections, based largely
on the evidence presented at his co-defendants’ trial for the
Bluitt/Neeley murders. This evidence established that Stanley
“participate[d] in this ambush.” Although there were some
inconsistencies in the details, the court found no reason
to discredit “the much larger and much more significant
consistencies in the evidence about how this transpired,”
particularly considering the ambush's quick nature. Recorded
statements of Derrick, Stanley's brother, implicated Stanley.
Ford and Jones also placed Stanley within the caravan that
ambushed Bluitt and Neeley.
As for the drug trafficking, the court looked to Todd's and
Jones's testimony and Ford's proffer and found that Stanley
“manag[ed] drug lines at 47th and Vincennes.” It noted that
Stanley was “the leader of the effort to drive the Black
Disciples out of this area and to take it over for the Hobos,”
referring to an altercation between Stanley and the BDs. The
court also concluded that the evidence was sufficient for the
attempted murders. To each racketeering act, it added an

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 35

United States v. Brown, 973 F.3d 667 (2020)

obstruction enhancement that increased the proposed offense
level by two levels. With grouping, the combined adjusted
offense level was 49, reduced to 43. This again resulted in a
Guidelines range of life; that *712 in turn was reduced to
the 20-year statutory maximum.
On August 10, 2017, the court held a second sentencing
hearing to consider the section 3553(a) factors. Stanley
and the government both argued for a 20-year sentence.
They disputed, however, whether it should run consecutively
or partially concurrently to an undischarged sentence that
Stanley was serving based on a conviction in the Central
District of Illinois. That conviction, which carried a 262month sentence, was based on Stanley's distribution of heroin
in Springfield.
The court held that the Springfield drug trade was relevant
conduct in the racketeering case, but it decided to run
Stanley's 20-year sentence for the latter consecutively to the
Springfield term. It explained that it was necessary to account
for the violent activity and “personal participation in murders
and attempted murders” that were part of the racketeering
case. The Springfield drug trafficking, the court thought,
“pale[d] in significance to the conduct” in which the Hobos
enterprise engaged. While there was “some overlap,” it said,
the racketeering case “concerns a far broader and more serious
range of conduct than was at issue in the Central District
case.” Moreover, it noted that Stanley had a lengthy criminal
record and “has had a second chance, a third, fourth, fifth,
sixth, seventh chance. At each opportunity that has been
presented to him to put his criminal conduct behind him, he
has instead concluded to escalate his criminal conduct ... .”
Stanley raises two arguments on appeal: first, he accuses
the district court of relying on unreliable trial evidence to
calculate his offense level; and second, he contends that the
evidence underlying the district court's determination that
his racketeering activity included the murders and attempted
murders was incredible and full of inconsistencies. These
make essentially the same point, and so we treat them
together.
With respect to the Bluitt/Neeley murders, Jones testified
that Stanley was in the third car of the four-car caravan, but
Derrick told Johnson that Stanley was in the first car. Ford's
proffer suggested yet a different lineup. The district court
chalked these inconsistencies up to the quick and chaotic
nature of an ambush. It also disregarded the fact that neither
of Todd's two sources mentioned Stanley as a participant.

Stanley also argues that the finding that he participated in
the shooting of Jonte Robinson was based on unreliable,
inconsistent, and untrustworthy evidence. The district court
chose to credit Todd's testimony, which implicated Stanley.
Stanley had rented the car that a witness saw during the
incident, and he later returned that car to the rental company
without license plates and traded it for a different car. Stanley
argues that Todd was an admitted perjurer who could not be
trusted, and that his testimony conflicted with the testimony
of Robinson on details such as the type of car Stanley had and
where he was shot. Ford told law enforcement that Derrick,
not Stanley, was the shooter.
[61] These discrepancies were for the district court to
resolve. The government needed to satisfy only the
preponderance of the evidence standard. United States v.
England, 555 F.3d 616, 622 (7th Cir. 2009). In addition,
although due process requires reliable evidence, the rules
of evidence and the Confrontation Clause do not apply at
sentencing, and so the court may rely on hearsay even if
the defendant did not have an opportunity to cross-examine
witnesses. See United States v. Bogdanov, 863 F.3d 630, 635
(7th Cir. 2017).
[62] Although the witnesses did not agree on the details,
Jones, Derrick, and *713 Ford all placed Stanley at the scene
of Robinson's shooting. “[A] sentencing court may credit
testimony that is totally uncorroborated and comes from an
admitted liar, convicted felon, or large scale drug-dealing,
paid government informant.” United States v. Clark, 538 F.3d
803, 813 (7th Cir. 2008) (internal quotation marks omitted).
That is what the court did, accepting Todd's testimony that he
met Stanley and Derrick in front of a daycare center. Stanley
was in a GMC vehicle and Derrick was in a white Grand
Am. Stanley pointed Robinson out and then someone in the
Grand Am began shooting. Bush, who was with Stanley, also
began shooting. Todd's testimony was corroborated by a CPD
officer's testimony that an eyewitness to the shooting reported
a license plate of a vehicle at the scene. The report matched
National Car Rental records showing that Stanley rented a
blue GMC SUV that was returned on the day of the shooting
without license plates.
Next, Stanley asserts that the district court abused its
discretion by running Stanley's sentence consecutively to his
undischarged sentence for the Springfield drug conviction.
The government points us to 18 U.S.C. § 3584(a), which says
that if a defendant is “already subject to an undischarged term

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 36

United States v. Brown, 973 F.3d 667 (2020)

of imprisonment,” the court may run a term of imprisonment
“concurrently or consecutively” to the undischarged term.
The default rule is that “[m]ultiple terms of imprisonment
imposed at different times run consecutively unless the court
orders that the terms are to run concurrently.” 18 U.S.C.
§ 3584(a). Section 3584(b) instructs a court to consult the
section 3553 factors when it makes its decision between the
two options. As we indicated earlier, that is just what the court
did here.
[63] Stanley responds in two ways. First, he emphasizes
that the Springfield conduct was relevant conduct to
the racketeering case. See U.S.S.G. § 1B1.3(a)(1)(B).
Accordingly, Guideline § 5G1.3(b) applies. It states: “If ...
a term of imprisonment resulted from another offense that
is relevant conduct to the instant offense of conviction ...
the sentence for the instant offense shall be imposed to run
concurrently to the remainder of the undischarged term of
imprisonment.” Stanley seizes on the word “shall” to argue
that a concurrent sentence was mandatory.
[64] But nothing in the Guidelines is mandatory anymore.
United States v. Booker, 543 U.S. 220, 125 S.Ct. 738, 160
L.Ed.2d 621 (2005), “made all Guidelines advisory; the judge
must understand what sentence the Guidelines recommend
but need not impose it.” United States v. Bangsengthong, 550
F.3d 681, 682 (7th Cir. 2008). We have recognized that courts
are “free to disagree with a guidelines recommendation, as
the court did here when it rejected concurrent sentences under
section 5G1.3(b).” United States v. Moore, 784 F.3d 398, 404
(7th Cir. 2015). The district court in the present case thus was
free to choose to impose consecutive sentences.
Stanley also urges that the court should at least have imposed
a partially concurrent sentence because he was sentenced as a
career offender in the Springfield case. Although the careeroffender designation was correct at the time of sentencing,
Stanley argues, his earlier Illinois Residential Burglary
conviction is no longer a qualifying predicate offense for
the enhancement. Because of this, instead of 262 months,
he argues that he would have received only 120 months
for the Springfield conviction, as there is nothing in the
record to suggest the sentencing judge would have imposed
an upward variance of 142 months. He concludes that a
partially concurrent sentence was necessary to *714 avoid a
composite sentence that is greater than necessary.
We see no abuse of discretion on the district court's part. The
Springfield sentence was imposed post-Booker, and so that

court had the discretion to depart from the Guidelines. It chose
not to do so. Here, the district court explained in detail why it
was choosing consecutive sentences, and we have no reason
to overturn its decision.

V
We have hardly spoken of Byron Brown so as not to add
unnecessary length to an already long opinion, but Brown was
also actively involved with the Hobos. We need not delve
into all his criminal activity, which included drug dealing,
home invasions, robbery, shootings, and murder. It is enough
to give a brief summary of the facts pertinent to his individual
contentions.
On August 27, 2014, Brown pleaded guilty to Count 1,
racketeering conspiracy in violation of 18 U.S.C. § 1962(d),
and Count 4, murder in aid of racketeering in violation of
18 U.S.C. § 1959(a). He was represented by two appointed
attorneys, Robert Loeb and Keith Spielfogel, during the
proceedings in the district court, including at the changeof-plea hearing. (Under 18 U.S.C. § 3005, as a person
facing potential capital charges, Brown was entitled to
representation by two attorneys, at least one of whom was
knowledgeable about the defense of death penalty cases.)
At the change-of-plea hearing, the district court found that
Brown was competent to enter a guilty plea. Brown stated
multiple times, under oath, that he was satisfied with both
of his attorneys’ representation. He confirmed that he had an
opportunity to review with his attorneys the proposed plea
agreement, and he stated he did not need more time to discuss
the plea agreement with counsel. Brown confirmed that he did
not have any questions that were left unresolved in his mind
about whether he should enter into the plea agreement. Brown
also confirmed that he had reviewed and signed the plea
agreement, and that no one had threatened him or pressured
him to do so.
The district court discussed the terms of the plea agreement's
cooperation provision with Brown. Although the murderin-aid-of-racketeering charge carried a mandatory minimum
term of life imprisonment and the possibility of the death
penalty, the agreement specified an agreed sentence of 35 to
40 years’ imprisonment, conditioned on Brown's continued
cooperation with the government. At the request of the district
court, the government summarized what would be required of
Brown under this provision, telling him that he was expected

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 37

United States v. Brown, 973 F.3d 667 (2020)

to give “complete and truthful testimony in any criminal,
civil, or administrative proceeding[.]” Brown confirmed that
he understood and agreed to do so. He also confirmed that
he understood that the government had sole discretion to
determine whether he lived up to that obligation.
Brown also acknowledged that he would not be able to
withdraw his guilty plea, and he confirmed his understanding
that he would be subject to life imprisonment if the
government determined he had not kept up his end of
the bargain. Next, the court established a factual basis for
Brown's guilty plea. Afterward, it returned to the issue of
voluntariness, confirming that no one had threatened or forced
Brown to plead guilty. The court then accepted his guilty plea.
The prosecutors later discovered that Brown had provided
materially false information to the government. He did so
during interviews and during testimony before the federal
grand jury. Accordingly, the *715 government told Brown
that it would not seek a reduced sentence on Brown's behalf.
On November 17, 2015, the district court set a sentencing
date. One month later, on December 23, Brown filed a pro
se demand for special appearance and a motion to strike his
guilty plea. On January 21, 2016, Brown's lawyers filed a
motion to withdraw, which the court granted. It then struck
the sentencing date and appointed new counsel for him.
On May 20, 2016, Brown moved to withdraw his guilty plea.
He alleged that he received ineffective assistance from Robert
Loeb before pleading guilty. Brown asserted that Loeb had
threatened and coerced him to plead guilty even though he
knew Brown had testified falsely before the grand jury.

coercion by law enforcement, and the possibility of correcting
misstatements in the grand jury.
[65]
[66]
[67] Guilty pleas, as we have stressed in the
past, should not lightly be withdrawn. See, e.g., United States
v. Chavers, 515 F.3d 722, 724 (7th Cir. 2008). Only a few
grounds merit this relief: “where the defendant shows actual
innocence or legal innocence, and where the guilty plea was
not knowing and voluntary.” United States v. Graf, 827 F.3d
581, 583 (7th Cir. 2016). “A defendant who contends that
his guilty plea was not knowing and intelligent because of
his lawyer's erroneous advice must show that the advice was
not within the range of competence demanded of attorneys in
criminal cases.” United States v. Trussel, 961 F.2d 685, 690
(7th Cir. 1992) (internal quotation marks omitted). Moving
to withdraw a guilty plea does not automatically entitle a
defendant to an evidentiary hearing. See United States v.
Collins, 796 F.3d 829, 834 (7th Cir. 2015). A defendant must
offer substantial evidence supporting his claim, and “if the
allegations advanced in support of the motion are conclusory
or unreliable, the motion may be summarily denied.” Id.
We begin with Brown's contention that his counsel did not
advise him that he would be required to testify at trial against
his co-defendants. The record shows otherwise. As we noted,
the district court ensured that Brown was fully informed about
the plea agreement and his cooperation obligations. Brown is
simply experiencing buyer's remorse; the district court acted
within its discretion in crediting his statements, made under
oath, at the change-of-plea hearing.

The district court denied Brown's motion a month later
without an evidentiary hearing, finding that Brown's
accusations were “exceedingly unreliable,” and that
“summary denial without a hearing [was] warranted.” On
March 14, 2017, the district court sentenced him to concurrent
terms of life imprisonment on the two counts.

Brown's assertion that his lawyers failed to investigate his
truthfulness, coercion by law enforcement, and the possibility
of correcting misstatements in the grand jury strikes us as
somewhat bizarre. In any event, Brown did not present this
theory to the district court. We therefore review Brown's
argument for plain error, which requires error that is plain,
obvious, and prejudicial. *716 United States v. Fuentes, 858
F.3d 1119, 1120−21 (7th Cir. 2017). Brown has come nowhere
near meeting that standard.

Brown argues that the district court erred when it decided
not to hold an evidentiary hearing to investigate whether
he should be allowed to withdraw his guilty plea. Brown
claims that counsel was ineffective, as defined in Strickland
v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984), by (1) failing adequately to advise him that he would
be required to testify at trial and (2) failing to investigate
the circumstances surrounding his untruthfulness, possible

[68] Moreover, even assuming Brown received ineffective
assistance of counsel, he cannot show prejudice. “[I]n order to
satisfy the ‘prejudice’ requirement, the defendant must show
that there is a reasonable probability that, but for counsel's
errors, he would not have pleaded guilty and would have
insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 59,
106 S.Ct. 366, 88 L.Ed.2d 203 (1985). We find this unlikely,
as Brown was deciding between a plea and a possible death

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 38

United States v. Brown, 973 F.3d 667 (2020)

sentence. In addition, under Brown's plea agreement, the
government had the sole discretion to decide whether Brown
provided complete and truthful cooperation deserving of a §
5K1.1 motion.

VI
Rodney Jones pleaded guilty pursuant to a plea agreement to
one count of RICO conspiracy in violation of 18 U.S.C. §
1962(d). He was sentenced to 450 months in prison, reduced
by 110 months to account for time that he already had served
in a related state case. Jones filed a timely notice of appeal, but
his appointed counsel has moved to withdraw under Anders
v. California, 386 U.S. 738, 87 S.Ct. 1396, 18 L.Ed.2d 493
(1967), because she believes an appeal to be without merit or
possibility of success. Pursuant to Circuit Rule 51(b), Jones
was notified of the opportunity to respond to his counsel's
motion to withdraw, but he did not do so. Having considered
counsel's brief, which addresses the topics one would expect
to see in this situation, we grant her motion to withdraw and
dismiss the appeal.
Jones was a member of the Hobos and participated in many
of the crimes discussed above and others, including armed
robbery of a marijuana dealer, the attempted murder of
Courtney Johnson, home invasion and attempted robbery, the
murder of Daniel Dupree, and the home invasion and felony
murder of Tommye Freeman (the elderly woman whose car
he struck while trying to elude law enforcement). Jones was
charged with RICO conspiracy, and in February 2016, he
pleaded guilty and admitted to facts regarding the predicate
RICO acts.
In the plea agreement, the parties agreed to the relevant
guidelines calculations. In addition, Jones promised to
provide complete and truthful information to the government
and give complete and truthful testimony if called upon to
do so. In exchange, the government agreed that “[a]t the
time of sentencing, the government shall make known to
the sentencing judge the extent of defendant's cooperation.
If the government determined that defendant has continued
to provide full and truthful cooperation as required by this
Agreement, then the government shall move the Court,
pursuant to Guideline § 5K1.1, to depart from the low end
of the applicable guideline range, and to impose the specific
sentence agreed to by the parties as outlined below.” The
agreement specified that if the government so moved, “the
parties have agreed that the sentence imposed by the Court

be a term of imprisonment in the custody of the Bureau
of Prisons of not less than 360 months and not more than
504 months.” The court was to have discretion to reduce the
sentence below 360 months only to account for time Jones
served in state custody pursuant to charges brought against
him by the Cook County State's Attorney's Office in People
v. Rodney Jones, 09-CR-1125729, as the underlying offense
conduct in that state case was part of the offense conduct in the
present case. The Cook County case was for the felony murder
of Freeman. In it, Jones was found guilty of this offense in
*717 March 2013, and he was sentenced to 42 years in state
prison. After an agreement between the parties to the federal
case and the State's Attorney, that state sentence was reduced
to 25 years on July 2016. Critically, the federal plea agreement
also included a waiver of Jones's right to appeal his conviction
and sentence.
In November 2017, the government filed a sentencing
memorandum. Pursuant to section 5K1.1, it asked for a
sentence of 297 months based on Jones's cooperation and
testimony at trial. The government indicated that this sentence
was calculated based on a total sentence of 418 months in
prison for the federal case, which was then reduced by 121
months for the time Jones had spent in prison for the Freeman
murder. Jones requested a total sentence of 239 months based
on various mitigating factors.
The district court held a sentencing hearing on November
20, 2017. It rejected both requests and chose a sentence of
450 months, which it then reduced by the 110 months that
it calculated Jones had already served for the Freeman case.
This resulting in a federal sentence of 340 months, to be
served concurrently with the remainder of the state court
sentence. The court imposed restitution of $22,272.16 for
two victims, but it declined to impose a fine. Jones also
received a special assessment of $100 and a three-year term
of supervised release.
Counsel first considers whether any challenge to Jones's
conviction would be frivolous. Jones indicated to her that he
wants to withdraw his guilty plea, and so a potential issue for
appeal would be whether his plea was knowing and voluntary.
Because Jones did not move to withdraw his guilty plea in the
district court, our review is limited to determining whether
plain error occurred. United States v. Driver, 242 F.3d 767,
769 (7th Cir. 2001).
Counsel identifies two Rule 11 omissions by the district court
during the change-of-plea hearing. First, the court did not

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 39

United States v. Brown, 973 F.3d 667 (2020)

inform Jones of some of the rights he was waiving by pleading
guilty. These rights included the right to plead not guilty,
the right to assistance of counsel, and the right to confront
witnesses. See Fed. R. Crim. P. 11(b)(1)(B), (D), & (E).

recommendation of life in prison. We agree and find no plain
error.

[72] Counsel next considered whether any challenge to
Jones's sentence would be frivolous. Jones explicitly waived
the right to appeal his sentence in his plea agreement, and we
[69] [70] “Compliance with Rule 11 is not meant to exalt
review the enforceability of a waiver of appeal rights de novo.
ceremony over substance.” United States v. Coleman, 806
United States v. Woods, 581 F.3d 531, 534 (7th Cir. 2009).
F.3d 941, 944 (7th Cir. 2015). “If the record reveals an
adequate substitute for the missing Rule 11 safeguard, and the
[73] Because Jones's guilty plea was knowing and voluntary,
defendant fails to show why the omission made a difference
his waiver of appellate rights in the plea agreement was also
to him, his substantial rights were not affected.” Id. at 944–
knowing and voluntary. We will honor that waiver unless “the
45. Here, Jones knew he could plead not guilty because he
trial court relied on a constitutionally impermissible factor
previously had pleaded not guilty. In addition, Jones knew
(such as race), or ... the sentence exceeded the statutory
that he had the right to counsel's assistance because he had
maximum.” Jones v. United States, 167 F.3d 1142, 1144 (7th
been continuously represented since his arraignment. And
Cir. 1999). Neither exception applies here. Jones's sentence
Jones's plea agreement advised him that he had the right
of 450 months was within the statutory maximum (life
to confront witnesses at trial. Thus, any error made by the
imprisonment) and it was within the parties’ agreed range.
omission did not affect Jones's substantial rights. See Rule
Jones's sentence was also not the result of a constitutionally
11(h).
impermissible factor. Therefore, we grant counsel's motion to
[71] The court also failed to discuss the appeal waiver withdraw, and we dismiss Jones's appeal.
contained in Jones's plea agreement. See Rule 11(b)(1)(N). To
show that this omission affected his substantial rights, Jones
would have to show that there is a reasonable probability
that, but for the Rule 11 error, he would not have pleaded
guilty. United States v. Dominguez Benitez, 542 U.S. 74, 76,
124 S.Ct. 2333, 159 L.Ed.2d 157 (2004). The appeal waiver
is unambiguous, and Jones told the district court multiple
times that he had read the agreement and discussed it with
his attorney. He also acknowledged in the plea agreement
that his attorneys had explained the rights he was waiving,
that he had read and reviewed each provision with *718
his attorney, and that he understood and accepted every term.
Counsel notes that it is difficult to see how the omission of the
appellate waiver warning by the district court at the changeof-plea hearing could have affected Jones's decision to plead
guilty, given the benefits he received under the agreement,
including a sentence that falls well below the guidelines

VII
In the end, almost the entirety of this complex criminal trial
will remain undisturbed thanks to Judge Tharp's excellent
handling of the case. We Affirm the convictions of all the
defendants. We also Affirm the sentences of all the defendants
except for Chester. We Vacate Chester's sentence in 13 CR
288, appeal No. 17-3063, and order a limited remand for
further proceedings consistent with this opinion. In Jones's
case, No. 17-3449, we Grant Counsel's motion to withdraw
and Dismiss the appeal.
All Citations
973 F.3d 667

Footnotes

1

The letter “G” indicates guilty; “NG” indicates not guilty.

End of Document

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Appendix B 40

APPENDIX C

Case: 1:13-cr-00774 Document #: 781 Filed: 09/06/16 Page 1 of 7 PageID #:6793

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

UNITED STATES OF AMERICA,
Plaintiff,
v.
GREGORY CHESTER, et al.
Defendants.

)
)
)
)
)
)
)
)

No. 13 CR 00774
Judge John J. Tharp, Jr.

ORDER
As explained further in the Statement below, the motion to exclude expert testimony
regarding firearm toolmark analysis [699] is denied. The motion to exclude testimony of
Nicholas Roti [721] is granted in part and denied in part.
STATEMENT
Defendant Paris Poe, on behalf of himself and codefendants Gregory Chester, Arnold
Council, Gabriel Bush, Stanley Vaughn, William Ford, and Derrick Vaughn, moves to exclude
expert testimony on firearm toolmarks and the expert testimony of Nicholas Roti pursuant to
Federal Rule of Evidence 702, Daubert v. Merrell Dow, 509 U.S. 579 (1993), and Kumho Tire
Co. v. Carmichael, 526 U.S. 137 (1999).
The first motion objects to the expert testimony of four government expert witnesses who
will be called to describe firearm and toolmark comparisons they performed on bullets collected
at the scenes of various crimes. Three of the experts are employed as forensic scientists for the
Illinois State Police; the fourth is a forensic scientist for the Federal Bureau of Investigation.
Three of the experts will be testifying as to similarities between bullets found at different crime
scenes; the fourth will be testifying as to the similarity between the bullets found at a scene and
test bullets fired from a recovered gun. All the findings to be presented were independently
reviewed by a second examiner at the expert’s laboratory.
The second motion concerns Nicholas Roti, the Chief of the Bureau of Organized Crime
at the Chicago Police Department. Chief Roti is expected to testify about the history of Chicago
gangs, particularly the Gangster Disciples and the Black Disciples, the causes and impacts of the
decentralization of gangs, the operations of street gangs, and specifically certain behaviors of
gang members. Much of this latter type of testimony concerns the support gang members provide
each other in committing crimes and the movement of guns between gang members.
Rule 702 allows an expert who has specialized “knowledge, skill, experience, training, or
education” to testify about an opinion assuming it will help the jury understand the evidence or
1

Appendix C

Case: 1:13-cr-00774 Document #: 781 Filed: 09/06/16 Page 2 of 7 PageID #:6794

determine a fact in issue, is based on sufficient facts or data, is the product of reliable principles
and methods, and the expert has reliably applied the principles and methods to the facts of the
case. Factors a court may consider under Daubert include: (1) whether the theory or technique
used by the expert can be, or has been, tested; (2) whether the theory or technique has been
subjected to peer review or publication; (3) the known or potential rate of error of the method
used; (4) whether there are standards controlling the technique’s operation; and (5) whether the
theory or method has been generally accepted within the relevant community. Kumho Tire Co. v.
Carmichael, 526 U.S. 137, 150 (1999). The Daubert inquiry is a flexible one and does not
require strict adherence to the Daubert factors to guide the analysis of reliability. Id. at 141-142.
A Daubert hearing need not be held in all circumstances. See United States v. Williams, 506 F.3d
151, 161 (2d Cir. 2007).
I. Toolmark Analysis
The government has already stated that it will not elicit a number of statements (such as
that firearm and toolmark analysis is a “science”) that the defendants identified as problematic in
their motion. See Resp. at 2. In their original motion [333], defendants also raised the arguments
that toolmark analysis is unreliable and that this case is especially difficult because some of the
bullets are only being matched to each other, rather than to a known gun (as is usually the case).
Neither of these arguments carries the day.
The government’s witnesses employ toolmark analysis using the Association of Firearms
and Toolmark Examiners (“AFTE”) methodology. That methodology has been almost uniformly
accepted among the federal courts. See United States v. Otero, 849 F. Supp. 2d 425, 437-438
(D.N.J. 2012), United States v. Ashburn, 88 F. Supp. 3d 239, 245 (E.D.N.Y. 2015), United States
v. Cazares, 788 F.3d 956, 989 (9th Cir. 2015). An extensive discussion of the details of the
AFTE methodology can be found in Commonwealth v. Meeks, 2006 Mass. Super. LEXIS 474
(Mass. Super. Ct. Sept. 28, 2006).
The Court is persuaded by the detailed and reasoned opinions of the Otero and Ashburn
courts as to the admissibility of toolmark opinion testimony. More briefly stated here, the Court
concludes that the Daubert factors support the admission of the government’s proposed opinion
testimony. First, the AFTE method has been tested and subjected to peer review. There are three
different peer-reviewed journals that study the AFTE method,1 and a number of reliability
studies have been conducted of the method. See Richard Grzybowski, et al., Firearm/Toolmark
Identification: Passing the Reliability Test Under Federal and State Evidentiary Standards,
AFTE Journal, Vol. 35, No. 2, Spring 2003, at 14-22 (Resp. Ex. 2). Although the error rate of the
method has varied somewhat from study to study, AFTE examiners have been found to have an
error rate in the single digits, sometimes better than algorithms developed by scientists. See L.
Scott Chumbley et al., Validation of Tool Mark Comparisons Obtained Using a Quantitative,
Comparative, Statistical Algorithm, 55 JOURNAL OF FORENSIC SCIENCES 953 (2010). Although
they are not quantitative, the AFTE does provide qualitative standards and training in those
standards. See United States v. Diaz, No. CR 05-00167 WHA, 2007 WL 485967, at *9 (N.D.
1

These journals are not without their flaws, see Jennifer L. Mnookin et al., The Need for a Research Culture in the
Forensic Sciences, 58 UCLA L. REV. 725, 754-755 (2011), but not every methodology must meet exacting scientific
standards as long as it demonstrates reliability. Kumho Tire Co. v. Carmichael, 526 U.S. 137, 148-49 (1999).

2

Appendix C

Case: 1:13-cr-00774 Document #: 781 Filed: 09/06/16 Page 3 of 7 PageID #:6795

Cal. Feb. 12, 2007). Firearm and toolmark analysis is also widely accepted even beyond the
judicial system. One expert listed forty-two colleges and universities around the world that offer
courses in toolmark identification. United States v. Wrensford, No. CR 2013-0003, 2014 WL
3715036, at *5 (D.V.I. July 28, 2014).
The defendants’ criticism of the AFTE methodology is not persuasive. They rely on a
2008 National Research Council report that was highly critical of the AFTE method, primarily
because it declared that the scientific underpinning of the theory “has not yet been fully
demonstrated.” Committee to Assess the Feasibility, Accuracy, and Technical Capability of a
National Ballistics Database, National Research Council, Ballistics Imaging (National
Academies Press 2008, available at http://books.nap.edu/catalog/12162.html) (“NRC Report”) 3.
However, the report was a call for further research, declaring on the same page that “we accept a
minimal baseline standard regarding ballistic evidence” and on the following page that “in many
situations a sufficient level of toolmark reproducibility” can be picked up by measurement as the
method is currently used. Id. at 3-4. Perhaps an Ohio court of appeals best summarized the report
when it wrote:
Even a sympathetic reading of the [related] 2009 report, however, indicates its primary
purpose was to serve as a catalyst for reassessing the scientific premises underlying the
various fields of forensic science and to summarize the current state of the research in
those fields relative to the challenges raised in the report. It was not its purpose to opine
on the long-established admissibility of tool mark and firearms testimony in criminal
prosecutions, and indeed the NRC authors made no recommendations in that regard.
State v. Langlois, 2013-Ohio-5177, P24 (Ohio Ct. App. 2013). Many courts have been
confronted with the NRC’s report, but none have concluded that its findings warranted the
exclusion of expert toolmark opinion testimony outright. See, e.g., Otero, 849 F. Supp. 2d at 430,
United States v. Mouzone, 696 F. Supp. 2d 536, 569-570 (D. Md. 2009), United States v. Taylor,
663 F. Supp. 2d 1170, 1176 (D.N.M. 2009). In fact, the defendants have cited no case in which a
toolmark expert’s testimony was not found admissible under Rule 702.
As for the defendants’ argument that some of the experts will testify regarding the
matches of bullets found at separate scenes without a test gun, that is of little moment. It appears
experts often test bullets recovered from the same or different locations to determine whether
they match before a weapon is recovered. See, e.g., Commonwealth v. Meeks, 2006 Mass. Super.
LEXIS 474, *5 (Mass. Super. Ct. Sept. 28, 2006) (“Lydon examined under the comparison
microscope the two shell casings recovered from the scene, Items # 2 and # 3. After conducting
this side-by-side examination, he found that they ‘shared sufficient ballistics characteristics to
lead to the determination that both were fired from the same [unknown] weapon.’”). Although
the conclusion is slightly different (‘these bullets were likely fired from the same unknown gun’
rather than ‘these bullets were likely fired from this particular gun’), the act of analysis is
identical and there is no reason to disqualify the experts’ testimony on that basis.
For these reasons, the Court denies the defendants’ motion to exclude firearm and
toolmark evidence. Defendants may still raise issues regarding the NRC report, the actual error
rate of toolmark analysis, and other arguments to test the limitations and potential weaknesses of
the experts’ methods on cross-examination.
3

Appendix C

Case: 1:13-cr-00774 Document #: 781 Filed: 09/06/16 Page 4 of 7 PageID #:6796

II. Gang Expert Nicholas Roti
The defendants raise a number of concerns about Chief Roti’s proposed expert testimony
concerning gangs. First, they assert that Roti is not sufficiently qualified because in recent years
he has served in command, has had many administrative duties over his career, has never been an
expert witness before, and has not taken sufficient training courses. Next, they argue his
testimony is unreliable because it goes beyond the scope of his experiences. The defendants also
contest the relevance of Roti’s opinions and their usefulness to the jury. And finally, they argue
that Roti’s historical testimony about Chicago gangs, even if were qualified to provide such
testimony, should be excluded as unduly prejudicial under Rule 403.
As to Roti’s qualifications and reliability, his credentials are impressive. In addition to
serving as the Chief of the Organized Crime Bureau since 2010, his 29 year police career
includes extensive work with gangs including as a street officer prior to working his way up the
chain in gang-related divisions. See Ex. 4. It is true enough, as the defendants argue, that Chief
Roti lacks extensive formal academic training relating to street gangs, but the absence of formal
academic training does not disqualify him as an expert. Rule 702 says an expert may be qualified
“by knowledge, skill, experience, training, or education.” Fed. R. Evid. 702 (emphasis added).
Roti’s lack of formal courses in the subject does not preclude him from testifying as an expert
based on his experience. See Perez v. City of Austin, No. A-07-CA-044 AWA, 2008 WL
1990670, at *9 (W.D. Tex. May 5, 2008) (qualifying psychologist who had “no academic
training” in law enforcement psychology because “a lack of specialization within a particular
field does not require the wholesale exclusion of an expert’s testimony”).
So, too, that Roti has never before served as an expert witness does not disqualify Roti
from serving as an expert in this case. See Martinez v. City of Chicago, No. 07-CV-422, 2009
WL 3462052, at *3 (N.D. Ill. Oct. 23, 2009). Were it otherwise, of course, there would be no
expert witnesses; there is a first time for everything. Beyond that fact, it bears noting that there
may be more reason to be skeptical of experts with abundant experience testifying than there is
for those with little such experience. See, e.g., Samuel v. Ford Motor Co., 96 F. Supp. 2d 491,
495 (D. Md. 2000), aff'd sub nom. Berger v. Ford Motor Co., 95 F. App'x 520 (4th Cir. 2004)
(“Both Mr. Carr and Dr. Kaplan are experienced and articulate, but they clearly are advocates for
their positions, and their advocacy has been polished and perfected through another rigorous test
procedure-repeated testimony in contested cases, where Mr. Carr has taken the side of the auto
manufacturer, and Dr. Kaplan that of the plaintiffs.”). Based on his years of experience in the
police department working on gang-related cases, Roti is qualified to give testimony as an expert
witness. To begin disqualifying police officers, who frequently testify as expert witnesses,
simply because they have been promoted away from strictly street duties would be to eliminate
many of the best and the brightest of officers from testifying as expert witnesses.
That said, social science testimony, such as Roti’s proposed testimony about the causes
of gang decentralization, must be within the scope of his experience and the product of genuine
expertise. See Tyus v. Urban Search Mgmt., 102 F.3d 256, 263 (7th Cir. 1996) (“Social science
testimony, like other expert testimony proffered under Fed. R. Evid. 104(a) for admission under
Rule 702, must be tested to be sure that the person possesses genuine expertise in a field and that
her court testimony ‘adheres to the same standards of intellectual rigor that are demanded in
[her] professional work.’”). “[E]ven a qualified individual may be barred under Rule 702 where
4

Appendix C

Case: 1:13-cr-00774 Document #: 781 Filed: 09/06/16 Page 5 of 7 PageID #:6797

the opinion proffered calls for speculation or expertise in a field outside of the expert's purview.”
Cage v. City of Chicago, 979 F. Supp. 2d 787, 822 (N.D. Ill. 2013). And here, some of the
proposed testimony falls outside Roti’s experience. He has certainly had plenty of experience
observing the trends and behaviors of gang members, such as what territory is controlled by
certain gangs at given times, the hierarchy or lack thereof of certain gangs, and other historical
events affecting gangs in Chicago (such as the teardown of public housing). Such testimony has
been approved by other courts. See, e.g., United States v. Archuleta, 737 F.3d 1287, 1296 (10th
Cir. 2013) (allowing testimony regarding the “the structure, purpose, and activities”), United
States v. Hankey, 203 F.3d 1160, 1169 (9th Cir. 2000) (permitting testimony regarding gang
colors, signs, and activities). However, as the defendants point out, Roti is not a sociologist or
academic who studies how certain community factors impact gangs. Compare, e.g., SUDHIR
VENKATESH, GANG LEADER FOR A DAY (2008). It would be beyond the scope of Roti’s
experience as a police officer for him to testify that the destruction of public housing caused the
decentralization of Chicago’s gangs. However, Roti can testify that as a police officer he
observed gangs decentralize, that public housing was destroyed in many of the neighborhoods
controlled by the gangs around the same time, and that changes in territories associated with
various gangs followed thereafter. That is all information within the scope of Roti’s work and
observations as a law enforcement officer specializing in gang-related crime.
Next the defendants argue that much of Roti’s testimony fails the Rule 702 requirement
that the testimony “help the trier of fact to understand the evidence or to determine a fact in
issue.” Expert testimony should not be admitted if it does “not aid the jury because it addresses
an issue of which the jury already generally is aware, and it will not contribute to their
understanding of the particular dispute.” United States v. Hudson, 884 F.2d 1016, 1024 (7th Cir.
1989). This inquiry is often framed as whether the testimony is “well within the ken of most lay
jurors.” United States v. Hall, 165 F.3d 1095, 1105 (7th Cir. 1999). The Seventh Circuit has
expressed its skepticism of certain types of gang expert testimony, noting that “[m]ost jurors are
aware that gang members deal drugs, commit violent acts, and react unfavorably when their
misdeeds are reported to authorities.” United States v. McGee, 408 F.3d 966, 978 (7th Cir. 2005).
See also, e.g., United States v. Rios, --- F.3d ---, No. 14-2495, 2016 WL 3923881, at *5 (6th Cir.
July 21, 2016) (finding improper, because within the ken of the average juror, gang expert
opinion testimony that gangs commonly engage in drug trafficking; share guns; commonly
engage in violent disputes with other gangs; and use of violence against those who steal drugs
from them); United States v. Mejia, 545 F.3d 179, 194-95 (2d Cir. 2008) (district court erred in
admitting gang expert testimony concerning facts, such as gun possession, drug trafficking, and
violence engaged in by gang because the jury needed no help in understanding facts relating to
those subjects).
Some of Roti’s testimony is undoubtedly helpful to jurors, such as the requirement that
gang members are expected to “stand by while a fellow member confronts or is confronted by a
rival” or the behavior of gang leadership in an “ongoing war situation.” Ex. 1 at 5. This is the
sort of testimony about how gangs operate about which a jury may not be aware. However,
testimony that fellow members backing up a gang member perpetrating a crime gives the
perpetrator “confidence” and “encourage[s] the commission of the offense” suggest no juror is
aware of the concept of peer pressure or has had a group of friends offer encouragement. Such
testimony is well within the ken of the average juror and is therefore fails to satisfy Rule 702’s
requirement that opinion testimony “help the trier of fact to understand the evidence or determine
5

Appendix C

Case: 1:13-cr-00774 Document #: 781 Filed: 09/06/16 Page 6 of 7 PageID #:6798

a fact in issue.” Similarly, much of the proposed testimony regarding the hiding of guns
following shootings (items 6-10 on the government’s list in defendants’ Exhibit 1 attached to
their motion) is well within the knowledge of any juror who has ever watched Law & Order. The
proposed testimony can perhaps be summed up as “sometimes gang members temporarily hide
guns that have been used in crimes, then retrieve them after suspicion has passed.” Such
testimony reveals nothing about the inner working of the Hobos or any other gang and is
intuitive to the average juror. Similarly, the government’s third proposed topic – that gang
members “often work together and keep guard while fellow members commit criminal offenses”
so that a perpetrator need not keep watch himself – is entirely intuitive to the average juror. As
described, the government intends to have Roti testify about why a criminal might want to have a
lookout. That testimony will not help jurors. Unless he will describe a method of being a lookout
that is uncommon and unique to gangs, the mere concept does not warrant expert testimony.
The government has also proposed Roti testify that gang members “enjoy their notoriety,
and how they ‘throw’ their hand signs as encouragement” or “to demonstrate their status.” Ex 1
at 5. A juror may not be familiar with the specific hand signs or colors that indicate participation
in a given gang. See United States v. Martinez, No. CR 13-00794 WHA, 2015 WL 269794, at *2
(N.D. Cal. Jan. 20, 2015) (allowing testimony regarding “different signs, numbers, graffiti,
colors, etc. that link VSP with the Norteños”), United States v. Wilson, 634 F. App'x 718, 737
(11th Cir. 2015) (affirming allowance of gang expert that testified to “several gang identifiers”
such as the color red and clothing bearing the letters “B” and “P”). To the extent that Roti will
explain what the signs of various gangs were, that testimony may well be helpful. But he may
not testify as to the mere fact that gang members of “throw” their hand sign or what they
“enjoy.” The sheer fact that gangs have signs and symbols is well-known.
Finally, the defendants argue that Roti’s testimony fails the balancing of Rule 403. Under
the rule, testimony may be excluded “if its probative value is substantially outweighed by a
danger” of unfair prejudice, wasting time, or presenting needlessly cumulative evidence. Fed. R.
Evid. 403. Defendants focus especially on Roti’s historical testimony, which will touch on “state
and federal prosecutions” of gang members. “Rule 403 balancing is a highly context-specific
inquiry” in which level of dispute on the issue, the probativeness of the testimony, and the
prejudice all must be weighed. United States v. Gomez, 763 F.3d 845, 857 (7th Cir. 2014). Here,
the balancing will depend on the depth of Roti’s discussion of these past gang prosecutions.
Simply noting the prosecutions as a historical event may have some probative value to explain
the formation or decentralization of various gangs and explain the origin of the Hobos. However,
detailed discussion of the various charges and prison sentences of various gang members would
imply the defendants may be guilty by association or otherwise unduly prejudice the jury.
For the reasons discussed above, the defendants’ motion to exclude the testimony of
Nicholas Roti is granted in part and denied in part. Mr. Roti may testify to his observations of
Chicago gangs, including their history, decentralization, and specific episodes of violence, and
other relevant historical events (such as the destruction of public housing or prosecutions of
gangs). He may not, however, offer opinion testimony as to the causes of gang decentralization
or gang violence. He may not go into great detail about past gang prosecutions. He may provide
information regarding the obligations of gang membership, the behavior of gang leaders during
shooting wars, and any specific identifying signs, colors, or terms used by the gangs in question.
He may not, however, opine as to what gang members “enjoy” or the mere fact that gang
6

Appendix C

Case: 1:13-cr-00774 Document #: 781 Filed: 09/06/16 Page 7 of 7 PageID #:6799

members publicly display their gang affiliation. He may not testify, without more information
specific to the gangs at issue in this case, that gang members generally hide guns used in crimes
and then recover them when suspicion has passed. Further objections to specific testimony may
be raised as Chief Roti testifies. Defendant’s motion to exclude firearm and toolmark analysis is
denied in its entirety.

John J. Tharp, Jr.
United States District Judge

Date: September 6, 2016

7

Appendix C

APPENDIX D

Case: 1:13-cr-00774 Document #: 875 Filed: 10/07/16 Page 1 of 4 PageID #:7904

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
)
)
)
)
)
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA,
Plaintiff,
v.
GREGORY CHESTER,
ARNOLD COUNCIL,
PARIS POE,
GABRIEL BUSH,
WILLIAM FORD, and
DERRICK VAUGHN,
Defendants.

No. 13 CR 00774
Judge John J. Tharp, Jr.

ORDER
For the reasons stated below, defendants’ second joint renewed motion to exclude expert
testimony regarding firearm toolmark analysis [838] is denied. The related motion in limine
[837] is also denied.
STATEMENT
I.

Renewed Daubert Motion [838]

Defendants renew their motions to exclude toolmark analysis 1 in light of the September
20, 2016 release of the President’s Council of Advisors on Science and Technology’s
(“PCAST”) report entitled “Forensic Science in Criminal Courts: Ensuring Scientific Validity of
Feature Comparison Methods.” Def. Mot. 2, ECF No. 838. The report “discusses the role of
scientific validity within the legal system; explains the criteria by which the scientific validity of
forensic feature-comparison methods can be judged; applies those criteria to six such methods in
detail . . . and offers recommendations on Federal actions that could be taken to strengthen
forensic science and promote its more rigorous use in the courtroom.” Ex. A. at 2. 2 Firearm
toolmark analysis, which the government’s experts used, is one of the six methods discussed in
the report. The report is clear that “[j]udges’ decisions about the admissibility of scientific
evidence rest solely on legal standards; they are exclusively the province of the courts and
PCAST does not opine on them.” Id. at 4. Rather, the report provides foundational scientific
background and recommendations for further study.
1

See Motions to Exclude, ECF Nos. 333, 699; Orders, ECF Nos. 464, 781.

2

Page numbers refer to the internal numbering of the pages of the report, not ECF page
numbers.
1

Appendix D

Case: 1:13-cr-00774 Document #: 875 Filed: 10/07/16 Page 2 of 4 PageID #:7905

As such, the report does not dispute the accuracy or acceptance of firearm toolmark
analysis within the courts. Rather, the report laments the lack of scientifically rigorous “blackbox” studies needed to demonstrate the reproducibility of results, which is critical to cementing
the accuracy of the method. Id. at 11. The report gives detailed explanations of how such studies
should be conducted in the future, and the Court hopes researchers will in fact conduct such
studies. See id. at 106. However, PCAST did find one scientific study that met its requirements
(in addition to a number of other studies with less predictive power as a result of their designs).
That study, the “Ames Laboratory study,” found that toolmark analysis has a false positive rate
between 1 in 66 and 1 in 46. Id. at 110. The next most reliable study, the “Miami-Dade Study”
found a false positive rate between 1 in 49 and 1 in 21. Thus, the defendants’ submission places
the error rate at roughly 2%. 3 The Court finds that this is a sufficiently low error rate to weigh in
favor of allowing expert testimony. See Daubert v. Merrell Dow Pharms., 509 U.S. 579, 594
(1993) (“the court ordinarily should consider the known or potential rate of error”); United States
v. Ashburn, 88 F. Supp. 3d 239, 246 (E.D.N.Y. 2015) (finding error rates between 0.9 and 1.5%
to favor admission of expert testimony); United States v. Otero, 849 F. Supp. 2d 425, 434 (D.N.J.
2012) (error rate that “hovered around 1 to 2%” was “low” and supported admitting expert
testimony). The other factors remain unchanged from this Court’s earlier ruling on toolmark
analysis. See ECF No. 781.
This order does not, of course, prevent the defendants from cross-examining the
government’s experts regarding the error rate of toolmark analysis, and the PCAST report may
provide them with fodder for cross-examination. The defendants may, for example, inquire
whether the government’s experts have complied with other best practices for firearm and
toolmark analysis described in the PCAST report, such as the expert having “undergone rigorous
proficiency testing” and whether the examiner “was aware of any other facts of the case” when
he or she performed the analysis. See Ex. A. at 113. For its part, the government may bring out
other best practices its experts have engaged in, such as independent secondary review of the
examiner’s results. See Resp. at 2.
In short, the PCAST report does not undermine the general reliability of firearm toolmark
analysis or require exclusion of the proffered opinions in this case. Questions about the strength
of the inferences to be drawn from the analysis of the examiners presented by the government
may be addressed on cross-examination. For these reasons, the defendants’ renewed motion to
exclude is denied.
II.

Motion in Limine [837]

The ruling to allow expert testimony on firearm toolmark analysis necessitates
consideration of the defendants’ joint motion to exclude, pursuant to Fed. Rs. Evid. 402 and 403,
evidence and testimony about a shooting that occurred on October 25, 2005. That shooting is not
charged or referred to in the Superseding Indictment.

3

Because the experts will testify as to the likelihood that rounds were fired from the same
firearm, the relevant error rate in this case is the false positive rate (that is, the likelihood that an
expert’s testimony that two bullets were fired by the same source is in fact incorrect).
2

Appendix D

Case: 1:13-cr-00774 Document #: 875 Filed: 10/07/16 Page 3 of 4 PageID #:7906

The government gave notice of its intent to introduce evidence that bullet casings
recovered from the scene of the October 2005 shooting—both 9mm and .40 caliber—were fired
from the same two guns as casings from shots fired during (1) the murder of Wilbert Moore in
January 2006 (the .40 caliber); and (2) the shooting of Cordell Hampton and Antoine Brooks in
April 2006 (the 9mm). In short, the government seeks to prove through expert testimony that one
of the firearms from the October 25, 2005, shooting was used in the shooting of Moore and
another was used in the shooting of Hampton and Brooks.
The defendants object that the October 25, 2005 shooting is not relevant because it is not
probative of any fact needed to meet the government’s burden, and further, that the probative
value of the evidence is outweighed by a risk of juror confusion and unfair prejudice. As the to
the relevance question, the defendants assert: “The government has never charged or otherwise
alleged any of the defendants as being involved in the October 25, 2005.” Mot. 2, ECF No. 837.
They argue that the shooting is unrelated to “the government’s larger case” in that it is apparently
“a shooting unrelated to the Hobos.” Id. Responding orally, the government argued that the
evidence is relevant because it tends to show that firearms connected to two separate alleged
Hobos shootings (those of Moore and of Hampton and Brooks) were used together in the same
place just months earlier.
The evidence is relevant and the objection based on Rule 402 is not well-founded. The
ballistics evidence establishes a connection between the separate shootings of Moore on the one
hand and of Hampton and Brooks on the other. A connection between the two events is probative
of the government’s allegation that the Hobos enterprise operated with a purpose of “preserving
and protecting the power, territory, operations, and proceeds of the enterprise through the use of
threats, intimidation, destruction of property, and violence, including, but not limited to, acts of
murder, attempted murder, assault with a dangerous weapon, and other acts of violence.” 4 As the
defendants have argued on numerous prior occasions, the government must prove an
“agreement” and a “pattern” of racketeering activity; linking two murders by the weapons used is
relevant evidence to meet that burden. It is also probative of an association-in-fact between the
alleged perpetrators of the two 2006 shootings, whether or not the same individuals were also
involved in the 2005 shooting.
The government does not offer this ballistics evidence to prove anything about who
participated in the October 25 shooting, or that it was a “Hobos shooting.” The ballistics
testimony at issue will be used for the sole purpose of supporting the proposition that two 2006
shootings are connected to each other by means of firearms that had a common history. The jury
will not hear any testimony regarding the events of October 2005, including about the alleged

4

Count One of the Superseding Indictment also alleges that the Hobos, as part of their
illegal agreement, “committed illegal acts, including murder, solicitation to commit murder,
attempted murder, aggravated battery, and assault with a dangerous weapon”; that they
“obtained, used, carried, possessed, brandished, and discharged firearms in connection with
enterprise’s illegal activities; and that they “managed the procurement, transfer, use,
concealment, and disposal of firearms and dangerous weapons within the enterprise.”
3

Appendix D

Case: 1:13-cr-00774 Document #: 875 Filed: 10/07/16 Page 4 of 4 PageID #:7907

perpetrators and alleged victims, 5 and therefore there is a minimal risk that it will be confused or
misled by the mere reference to a shooting.
That is also the reason that this evidence is not unduly prejudicial under Rule 403. The
only specific prejudice the defendants identify is the risk that “the October 2005 shooting may
well be viewed by the jury as a Hobos-related shooting when there is no evidence to support that
proposition.” Mot. 2, ECF No. 837. But it is precisely because of this dearth of evidence about
the October 2005 shooting that reference to the firearms used is not unfairly prejudicial (in
addition to not being confusing, as noted above). The jury would have no basis for making the
inference that the defendants fear, and the government has disavowed any intent to argue that
inference (and will not be permitted to do so). Moreover, the evidence does not pertain to any
particular defendant. It is dry forensic evidence that attempts to prove that the same firearms
used in separate murders in 2006 had been used together on a previous occasion, by some
unknown individuals. Of the many fertile areas for potential cross examination and argument on
this point will be the lack of evidence that the guns were owned or possessed by the same
individual(s) in October 2005 and 2006. Indeed, the fact that the guns were used in different
shootings in 2006 could support the inference that ownership had changed hands since 2005.
The defendants’ motion in limine is, therefore, denied.

John J. Tharp, Jr.
United States District Judge

Date: October 7, 2016

5

To the extent the defendants seek to preclude any evidence or testimony about the
October 25, 2005, shooting other than the ballistics match, which is relevant to linking two 2006
shootings, their motion is granted (or mooted because no such evidence is anticipated).
4

Appendix D

